<html>
<title> - U.S. POLICY AND MILITARY OPERATIONS IN IRAQ AND AFGHANISTAN</title>
<body><pre>[Senate Hearing 108-867]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-867
 
      U.S. POLICY AND MILITARY OPERATIONS IN IRAQ AND AFGHANISTAN 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 20, 2004

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

24-245 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  
























                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

      U.S. Policy and Military Operations in Iraq and Afghanistan

                             april 20, 2004

                                                                   Page

Wolfowitz, Hon. Paul, Deputy Secretary of Defense................     8
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    31
Grossman, Hon. Marc, Under Secretary of State for Political 
  Affairs........................................................    33

                                 (iii)


      U.S. POLICY AND MILITARY OPERATIONS IN IRAQ AND AFGHANISTAN

                              ----------                              


                        TUESDAY, APRIL 20, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Allard, 
Sessions, Collins, Ensign, Chambliss, Dole, Cornyn, Levin, 
Kennedy, Lieberman, Reed, Akaka, E. Benjamin Nelson, Dayton, 
Bayh, Clinton, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Regina 
A. Dubey, research assistant; Gregory T. Kiley, professional 
staff member; Patricia L. Lewis, professional staff member; 
Lucian L. Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; and Diana G. Tabler, professional 
staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Richard W. Fieldhouse, professional 
staff member; Maren R. Leed, professional staff member; Gerald 
J. Leeling, minority counsel; Michael J. McCord, professional 
staff member; and William G.P. Monahan, minority counsel.
    Staff assistants present: Andrew W. Florell, Bridget E. 
Ward, and Nicholas W. West.
    Committee members' assistants present: Jayson Roehl, 
assistant to Senator Allard; Arch Galloway II, assistant to 
Senator Sessions; Derek J. Maurer, assistant to Senator 
Collins; D'Arcy Grisier, assistant to Senator Ensign; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Christine O. Hill, 
assistant to Senator Dole; Russell J. Thomasson, assistant to 
Senator Cornyn; Mieke Y. Eoyang, assistant to Senator Kennedy; 
Elizabeth King, assistant to Senator Reed; Davelyn Noelani 
Kalipi and Richard Kessler, assistants to Senator Akaka; Eric 
Pierce, assistant to Senator Ben Nelson; William Todd Houchins, 
assistant to Senator Dayton; Todd Rosenblum, assistant to 
Senator Bayh; Andrew Shapiro, assistant to Senator Clinton; and 
Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The Armed Services Committee meets today 
in another of its series of hearings on the worldwide threat 
situation, with emphasis on Afghanistan and Iraq. We welcome 
our witnesses: Deputy Secretary of Defense Paul Wolfowitz; 
General Richard B. Myers, U.S. Air Force, Chairman of the Joint 
Chiefs; and Secretary Marc Grossman, Under Secretary of State 
for Political Affairs.
    Each of our witnesses is very well qualified to discuss the 
full range of the topics before the committee today. All have 
been deeply involved in the planning for post-conflict 
stabilization and reconstruction activities in both Iraq and 
Afghanistan. General Myers just returned Sunday from a trip to 
the region, visiting our troops in both Iraq and Afghanistan. 
We look forward to the testimony of our witnesses.
    Colleagues and friends, the past few weeks have been 
particularly challenging for our Nation. We are ever mindful of 
the risks our troops face every day, those of the coalition 
forces, and the sacrifices made by the families and the 
communities that support them, as those who have been removed 
from power seek to delay their inevitable defeat and as 
terrorists lash out at the loss of another area in which to 
train and spawn terrorism throughout the world. We mourn every 
loss of life and salute those who serve and their families for 
their bravery, their commitment, and their sacrifices.
    The timeliness and importance of this hearing cannot be 
overstated. We are at a critical juncture for coalition 
operations in both Iraq and Afghanistan. I returned, several 
weeks ago, from a trip to both of those countries. The 
brilliant military victories achieved by our Armed Forces, 
together with the coalition partners, have presented an 
opportunity to fully defeat violence and terror in Iraq and 
Afghanistan. These are nations whose previous rulers had 
perpetrated violence and terror not only on their own 
populations and their neighbors, but throughout the world.
    The cycle of violence that has gripped this part of the 
world must end if we are to win the global war on terrorism and 
make America and our friends and allies a safer place. 
Deviation from our current course will only embolden those who 
are intent on bringing about instability and anarchy, not only 
in the region, but elsewhere in the world.
    We have achieved extraordinary success in a relatively 
short period of time in Iraq. Saddam Hussein and the threat he 
posed are gone. The future is hopeful for the Iraqi people. We 
must continue to send a strong message of resolve to the people 
of Iraq, to our troops, to our coalition partners, and to the 
rest of the world, that the United States will stay its course 
and get the job done.
    As President Bush stated last week, ``Now is the time and 
Iraq is the place in which the enemies of the civilized world 
are testing the will of the civilized world. We must not 
waver.''
    President Bush has set a course that calls for the direct 
turnover of political sovereignty to Iraqis on June 30, 2004. 
It is critical that we end our status as an occupying power and 
give Iraqis an increased stake in what happens in their future 
and the Nation. This date was endorsed by the United Nations 
(U.N.) Special Representative Brahimi. Mr. Brahimi and the U.N. 
are playing an important role in the transition to sovereignty 
and will continue to play a critical role in helping Iraq on 
its path to democracy. This committee will learn today, from 
this distinguished panel, further details on that operation.
    The President's appointment yesterday of a trusted 
international statesman and current U.S. Ambassador to the 
U.N., John Negroponte, as the first Ambassador to a free and 
democratic Iraq, is another important step in this process. I 
have had the opportunity through the years to know Mr. 
Negroponte quite well and have the highest personal regard for 
him.
    Continued U.S. commitment to the June 30, 2004, transition 
date is of enormous importance to the Iraqi people and to the 
region. It will be the day that Iraq takes its place in the 
community of free nations and the day the Iraqis assume a 
greater degree of responsibility for their future. The 
coalition forces, however, will remain on standby status and 
involve themselves in the security of that nation.
    A free democratic Iraq means defeat for the forces of 
terrorism and instability in Iraq. Clearly, the recent surge in 
violence in Iraq is related to the imminent transfer of 
sovereignty. Those who fear democracy are trying to delay its 
arrival. Those who incite terror realize their days are 
numbered. Opponents of a free democratic Iraq are desperate and 
will become even more desperate, unfortunately, in the days to 
come.
    We will be prepared for more violence as June 30, 2004, 
approaches. We must not waver in the face of terror and 
intimidation. Our troops, members of our coalition, and the 
people of Iraq need the continued strongest support of the 
Congress of the United States.
    Many countries shared in the military effort to liberate 
Iraq. Other nations, not involved directly in the military, 
have joined in the rebuilding of Iraq. A total of 38 nations 
are now involved in this overall endeavor. I welcome the 
increased participation of the U.N. in the political transition 
process. I applaud President Bush for his consistent efforts, 
efforts that began in September 2002 at the U.N., to build and 
expand the coalition of nations who have the courage and the 
conviction to fight tyranny and terror in order to make the 
region and the world a better, safer place.
    As our Nation is focused on developments in Iraq, we must 
not lose sight of ongoing developments in Afghanistan. The U.S. 
and coalition forces continue to eliminate remnants of al Qaeda 
and the Taliban regime that harbored them. North Atlantic 
Treaty Organization (NATO) forces are taking increasing 
responsibility to provide security and reconstruction 
assistance across many parts of the country. The recent donors 
conference in Berlin secured commitments from the international 
community to provide the assistance Afghanistan will need to 
recover from decades of war and oppression.
    A constitution has been approved and elections are 
scheduled. These are important steps on Afghanistan's path to 
full democracy. The future is finally hopeful for the people of 
Afghanistan, but challenges remain.
    Speaking for myself personally, as a consequence of my 
visit there I remain very interested in our witnesses' view on 
how we can help Afghanistan to conquer a very serious drug 
trade, which is growing, not diminishing, at an alarming rate.
    The hearing today is an opportunity to review current 
policies and future challenges. I hope our witnesses can 
provide insights into a number of questions, among them the 
issue of the $700 million. I will also put the details of the 
briefings that this committee received, and it was on a 
bipartisan basis, with regard to the use of those funds in 
today's record.
    [The information referred to follows:]
  Summary of DOD Briefing to Senate Armed Services Committee Staff on 
Pre-War Expenditures in the U.S. Central Command Area of Responsibility
    <bullet> Congress made available to the Department of Defense $17 
billion in September 2001 and $14.2 billion in July 2002 to support the 
execution of the global war on terrorism. Funding was appropriated to 
``respond to the terrorist attacks on the United States . . . and to 
deal with other consequences of the attacks . . . including for the 
costs of . . . providing support to counter, investigate, or prosecute 
domestic or international terrorism . . . and supporting national 
security.''
    <bullet> The authorities were broad and provided the basis for 
Operation Enduring Freedom and Operation Noble Eagle. On an ongoing 
basis, there were discussions, briefings, and hearings with Congress on 
the execution of these supplemental funds.
    <bullet> By July 2002, in the course of preparing for a contingency 
in Iraq, CENTCOM developed rough estimates of $750 million in 
preparatory tasks.
    <bullet> DOD Office of the Comptroller reviewed CENTCOM's request. 
The Comptroller recommended funds be made available to activities that 
were executable and consistent with authorities included in the 
supplemental appropriations for the global war on terror. 
    <bullet> In August and September 2002, $178 million (DERFI) was 
made available to support CENTCOM including funding for communications 
equipment, fuel supplies, humanitarian rations, and improvements to 
CENTCOM's forward headquarters.
    <bullet> All investments were designed to strengthen our 
capabilities in the region or support ongoing operational requirements.
    <bullet> No funding was made available with Iraq as the exclusive 
purpose.
    <bullet> Congress approved an Iraq Resolution on October 11.
    <bullet> Consistent with congressional statutory requirements 
regarding military construction activities, $63 million in 
notifications were delivered to Congress October 15. After October 25, 
more than $800 million was made available over the following months to 
support Iraq prepatory tasks. Many of these tasks were those identified 
by CENTOCM in July. These plans were consistent with both the global 
war supplemental appropriations authorities and the congressional 
authorization for use of military force against Iraq.

    Chairman Warner. Our committee records show that on 
February 13, 2003, the Joint Chiefs of Staff (JCS) J-4 briefed 
the committee staff. Later, on February 23, 2003, then-
Department of Defense (DOD) Comptroller Dov Zakheim briefed the 
staff. Lastly, representatives from the Office of the Secretary 
of Defense (OSD) Comptroller provided a classified briefing on 
April 4, 2003.
    The questions regarded the use of funds, that is operations 
and maintenance (O&M) funds, to do what is predominantly 
military construction (MILCON) type functions. We have in the 
committee records, for the inspection of our members, a 
classified document dated April 4, 2003, detailing those 
expenditures. Nevertheless, Secretary Wolfowitz, I hope you can 
elaborate on that issue.
    Further, the questions before the committee today: Are 
current troop levels in Iraq, as recently requested by General 
Abizaid, sufficient? Do our troops have sufficient equipment 
and correct equipment to carry out and complete the mission? 
How will the Iraqi Interim Government be formed and how are 
Iraqis reacting to the recent U.N. proposal? What role will the 
U.N. and other international organizations play in the 
reconstruction of Iraq after the transition of sovereignty? 
Will the U.S. seek a U.N. Security Council resolution to cover 
the next phase of activities, political and military, in Iraq?
    What are the details that we have at hand with regard to 
the all-important status of forces agreement which spells out, 
hopefully, or will, perhaps coupled with a U.N. resolution 
which I believe will be forthcoming, the exact relationship 
between the new transfer of power to an Iraqi government and 
the utilization of our troops and those of coalition forces for 
further security?
    I now recognize our distinguished ranking member, Senator 
Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you Mr. Chairman. I want to join you 
in welcoming our witnesses this morning: Secretary Wolfowitz, 
Secretary Grossman, and General Myers. These three witnesses, 
representing as they do defense policy, diplomacy, and military 
planning, provide us an opportunity to explore a number of 
important issues relating to Iraq and Afghanistan. I join you, 
Mr. Chairman, and every member of this committee in expressing 
our gratitude to our troops, who demonstrate such constancy and 
courage.
    This would be an important hearing no matter when it was 
held, but events of the last few months have made it even more 
crucial. Today's hearing takes place in a month that has, 
tragically, seen more U.S. military deaths from combat in Iraq 
than any other month since the start of Operation Iraqi 
Freedom. It is a month that has also seen an outbreak of 
insurgent violence in Fallujah and elsewhere in central Iraq, 
consisting primarily of Sunnis and foreign jihadists, and 
militia resistance in several cities in southern Iraq, 
consisting mostly of Shia.
    Despite the obvious setbacks that we have experienced, I 
believe that we can succeed in bringing peace and stability to 
Iraq. It will help to achieve that goal if we are willing to 
learn from our mistakes. The first step is to recognize that 
mistakes were made, and that may be the most difficult step of 
all.
    Our uniformed military always conducts after-actions, 
lessons learned reviews, so that the mistakes that have been 
made are not repeated in the future. That practice needs to be 
followed by the civilian leadership of the executive branch, 
including both the Defense and State Departments. For example, 
instead of merely tossing off the continuing violence as a 
``tough period of days,'' there should be an assessment as to 
whether we adequately planned for the possibility of post-
Saddam chaos.
    Most expert commentators agree with former Army Chief of 
Staff General Shinseki that we did not have enough troops in 
Iraq to deal with the situation once the Saddam Hussein regime 
had fallen. The looting that took place and the damage to 
government buildings and public infrastructure that resulted 
might have been avoided or been of less severity if General 
Shinseki's advice had been heeded instead of his being 
disparaged by the civilian leadership.
    Most experts agree that it was a mistake to totally disband 
the Iraqi army beyond, of course, removal of dedicated 
Baathists and Saddam loyalists.
    Most experts agree that the de-Baathification program went 
beyond what was needed to assure that the Baathist leadership 
was not maintained. As Mr. Brahimi stated last Wednesday, ``It 
is difficult to understand that thousands upon thousands of 
teachers, university professors, medical doctors and hospital 
staff, engineers, and other professionals who are sorely needed 
have been dismissed within the de-Baathification process, and 
far too many of these cases have yet to be reviewed.'' The fact 
that the widely disliked and distrusted Mr. Chalabi was put in 
charge of the de-Baathification program wa a mistake that still 
needs to be corrected.
    The restriction of the U.S. military to a minor role in 
planning for the stability phase or Phase IV of Operation Iraqi 
Freedom, as General Franks described it to Chairman Warner and 
me several weeks ago, was, in my judgment, clearly a mistake.
    Despite all the talk about the Iraqi security forces being 
the largest force in Iraq and the ones who would soon be the 
first line of defense against the former regime elements and 
jihadists, the fact is that there has been a failure to 
adequately train more than 4 percent of the Iraqi police until 
now. Surely there are lessons to be learned from that.
    Perhaps the greatest mistake was the failure to appreciate 
the importance of securing international support through the 
United Nations before initiating hostilities against Iraq. The 
United States was unable to convince the other members of the 
Security Council that Iraq posed an imminent danger and we cut 
U.N. weapons inspections off before they were concluded.
    The difficulty following the war in obtaining broad 
international support, including troops and police from Muslim 
countries, is the result. The price we are paying is an 
extremely high one.
    Even before our troop rotation, we were providing more than 
80 percent of the troops in Iraq (a figure that will rise with 
the impending withdrawal of the Spanish and Honduran troops) 
and, although it is difficult to ascertain the extent of 
contributions of other nations, we are providing far in excess 
of 80 percent of the financial assistance for Iraqi Iraq 
reconstruction.
    After keeping the U.N. at arm's length throughout the 
occupation of Iraq, the President finally recognized the 
central role of the U.N. in finding a way to an interim 
government which will be accepted by the people of Iraq. When 
asked last week about the Iraqi entity to whom sovereignty will 
be restored on June 30, the President said ``That is going to 
be decided by Mr. Brahimi,'' a quite reversal of the prior 
posture of the administration towards the U.N., and long 
overdue.
    Formal U.N. involvement in the transition to a new interim 
Iraqi government as our full partner would help provide 
essential legitimacy in many parts of the world. U.N. 
endorsement of a process of selecting an interim government and 
authorizing a multinational force after the restoration of 
Iraqi sovereignty might also open the door to troops and police 
officers from other nations, including Muslim nations, and to 
NATO involvement in Iraq. Some nations will, however, require a 
more formal role for the U.N. in the continuing political 
development of Iraq as a condition for their participation or 
continued participation there.
    Conversely, a failure to give the U.N. a major and formal 
role after restoration of sovereignty would make it difficult 
for a number of nations to keep their forces in Iraq, not to 
mention attracting new troops and police.
    I visited U.N. headquarters in New York last Friday and met 
with U.S. Ambassador Negroponte and with the British, French, 
German, and Pakistani ambassadors as well. I attended a 
Security Council meeting at which Ambassador Negroponte 
reported to the council on the efforts and the progress of the 
U.S.-led multinational force in Iraq.
    I met with Secretary General Kofi Annan and in the course 
of our meeting he expressed his disagreement with statements in 
the press that the U.N. would choose the people who would make 
up the new interim government. He said that the U.N. would 
hopefully help produce a process by which the Iraqi people 
would choose their leaders, which is very different from the 
U.N. choosing them and far, far different from the United 
States and the coalition occupying powers choosing them.
    In response to my question to him about a plan B if Mr. 
Brahimi is unable to help produce a satisfactory consensus by 
June 30--in other words, if there is no credible, broadly 
supported government to whom sovereignty by that date can be 
restored--Secretary General Kofi Annan said that there is not 
enough time to come up with a plan B, so the only alternative 
would then be to extend the existence of the Iraqi Governing 
Council.
    I know the administration intends to stick to the June 30 
date. But the task of putting together the pieces of a 
sovereign government which the various factions of the Iraqi 
people support, by an artificial and in a relatively short 
time, is a massive one.
    If the U.N. does not have the pieces together by June 30, 
the worst thing we could do is to attempt to restore 
sovereignty to leaders that appear to be our choices instead of 
the Iraqis. Even greater chaos and possibly civil war could 
result. So while the administration does not want to talk about 
the possibility that the U.N. does not succeed by June 30, I 
hope the administration has a plan for what they will do in 
that event because the possibility is a real one. We cannot 
repeat the lack of planning which marked the post-Saddam 
period.
    For our military, one of the thorniest issues is whether a 
new sovereign Iraqi government will be able to change the 
status of our forces or will a prior or new U.N. resolution 
assure continuity. A gap in the ability to do what is required 
militarily is unacceptable.
    Other key issues for our leadership include:

        How many U.S. troops will be required to ensure 
        stability in Iraq in both the short and long term?
        How will the forces of nations like Spain and Honduras, 
        that plan to withdraw their troops from Iraq be 
        replaced?

    As for Afghanistan, which has received significantly less 
attention since the start of the Iraq conflict, 2004 started 
with good news as the Constitutional Loya Jirga was completed 
and NATO decided to expand its role there. However, the last 
few weeks have seen a number of challenges to the government of 
President Karzai from regional warlords and their militias. 
Additionally, NATO nations have not fulfilled requests for more 
troops and the narcotics problem in Afghanistan seems to be out 
of control. What specific plans are there to address these real 
concerns?
    Finally, I would note that questions have been raised as to 
whether Congress was adequately informed and involved 
concerning the expenditure of hundreds of millions of dollars 
for construction activities in preparation for war with Iraq. 
As our chairman noted, our witnesses need to address that 
matter.
    I look forward to our witnesses addressing these and many 
other vital questions of concern to our committee.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    We will now proceed to hear testimony. Your statements 
prepared which have been submitted to the committee will be a 
part of the record. You may address those parts that you think 
pertinent for your opening statements.
    At the present time, the committee intends to have a brief 
closed session following this open session in room 222 of the 
Russell Senate Office Building.
    Secretary Wolfowitz, you may kindly proceed.

 STATEMENT OF HON. PAUL WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE

    Secretary Wolfowitz. Mr. Chairman, Senator Levin, members 
of the committee: I have quite a long prepared statement which 
I will submit for the record. In the interest of time, I will 
just summarize and read some portions of it.
    I would like to begin, though, by citing what a Marine 
company commander wrote to his father as this Marine prepared 
to lead his troops into action in Fallujah recently. I quote: 
``This battle is going to have far-reaching effects on not only 
the war here, but in the overall war on terrorism. We have to 
be very precise in our application of combat power. We cannot 
kill a lot of innocent folks. There will be no shock and awe. 
This battle is the Marine Corps' Belleau Wood for this war.
    ``A lot of terrorists and foreign fighters are holed up in 
Fallujah. It has been a sanctuary for them. The Marine Corps 
will either reaffirm its place in history,'' this company 
commander wrote, ``as one of the greatest fighting 
organizations in the world or we will die trying. The Marines 
are fired up. I am nervous for them, though, because I know how 
much is riding on this fight. However, every time I have been 
nervous during my career about the outcome of events when young 
Marines were involved, they have always exceeded my 
expectations. ``God bless these great Americans,'' he wrote, 
``who are ensuring that we continue to fight an away 
schedule.''
    Let me add, God bless these wonderful Marines and soldiers 
and all the members of our Armed Forces. Our prayers are with 
him and with all of our people, military and civilian alike, 
currently serving in Iraq and Afghanistan. They are making 
America and the world more secure by helping the Iraqi and the 
Afghan people build free and prosperous democracies in the 
heart of the Middle East.
    Whether members of active duty, Reserve, or National Guard 
units or civilians, these heroes embody the best ideals of our 
Nation, serving so that others may be free and so that our 
children and our grandchildren can be more secure. We thank 
them all for the sacrifices they endure.
    We also owe a profound debt of gratitude to the roughly 
19,000 men and women from our 35 coalition partners, who are 
also serving the cause of freedom in Iraq. We would be remiss 
if we did not acknowledge the contributions made by civilians 
from a wide assortment of nongovernmental agencies (NGO) in 
Iraq and with the Coalition Provisional Authority (CPA). They 
have recently become a particular focus of terrorist attacks.
    One heroine, Fern Holland, who quit practicing law in the 
United States in order to go to Iraq and help improve the lives 
of Iraqi women, was brutally murdered a few weeks ago for the 
work she was doing. Though it is small consolation to her 
family and friends, she wrote to a friend that if she died she 
would die doing what she believed in.
    Finally, I would like to thank the members of this 
committee and Congress as a whole for their continued strong 
support for our members of our Armed Forces.
    Mr. Chairman, a little over a year ago we all watched the 
statue of Saddam Hussein fall in the heart of Baghdad. On that 
day, some 25 million of one of the most talented populations in 
the Muslim and Arab world were liberated from one of the worst 
tyrannies of the last 100 years.
    According to a theme that one hears often these days, the 
world is full of bad guys and Saddam Hussein was just another 
bad guy. Any time that I hear Saddam Hussein referred to in 
that way, I know that the person making the statement really 
does not understand who Saddam Hussein was and is. During my 
career I have had the experience of working up close and 
personal with some truly bad guys--Ferdinand Marcos of the 
Philippines, President Suharto of Indonesia. To paraphrase 
someone else on a very different occasion, I knew Ferdinand 
Marcos; Saddam Hussein was no Ferdinand Marcos.
    Saddam Hussein was more than just another bad guy. He 
institutionalized and sanctioned brutality on a scale that is 
simply unimaginable to most Americans. He ruled by fear, 
creating a society in which the ideal citizen was a torturer or 
an informer.
    I have traveled to Iraq several times since liberation. I 
have spoken to hundreds of Iraqis, both there and here in the 
United States, and one of my strongest impressions is that the 
fear of the old regime still pervades Iraq, a smothering 
blanket of fear woven by 35 years of repression, where even the 
smallest mistake could bring torture or death or fates worse 
than death, like the death of one's children or the rape of 
one's relatives. That fear will not be cast off in just a few 
weeks or even just a year or two.
    Saddam Hussein began weaving this blanket of fear from the 
very beginning. In 1979 when he formally assumed power as 
president, he had a sweeping purge of top Baathist Party 
leaders. At a meeting of the Iraqi National Assembly, Saddam, 
with tears running down his cheeks and puffing on a cigar, 
talked about the confession of disloyalty they had received 
from a top party member and then continued one by one to name 
other guilty colleagues.
    One by one, guards dragged these people out of the meeting. 
Then Saddam asked top ministers and leaders of the party for 
their first loyalty test. They were required to participate in 
the firing squads that executed those he had identified. He did 
not stop there. He had videos made of the whole event and 
distributed throughout the Middle East, so that people would 
know what kind of a man he was.
    Implicating members of his regime in his worst crimes and 
ensuring that his potential victims understood that his threats 
were to be taken seriously, in doing that Saddam Hussein 
applied the techniques that any FBI agent will tell you are the 
techniques of a gangland boss. But he did it on a national 
scale and as the head of an internationally recognized 
government.
    One of the most heartbreaking stories to come out of Iraq 
almost defies belief. Scott Ritter, the former UNSCOM inspector 
and an opponent of the war, described a prison in Baghdad whose 
stench he said was unreal, an amalgam--I quote--``of urine, 
feces, vomit, and sweat.'' Where prisoners were howling and 
dying of thirst. In this prison, the oldest inmates were 12, 
the youngest mere toddlers. Their crime--being children of the 
regime's political opponents.
    I recount these stories to illustrate what one writer has 
accurately called the density of evil that permeated Iraq. In 
very many ways, its effects are also like a torture that does 
not end. Such evil and fear are so alien to our own American 
experience that I think it is necessary to talk about it to 
understand the plight of Iraqis today, if we are to have a 
proper understanding of one of the most formidable challenges 
still facing us.
    Because, Mr. Chairman, this is not just history. I did not 
tell these stories in order to educate people about the past. 
It is the present. When we use this rather anodyne term, 
``former regime elements,'' to describe the people that we 
capture and the people that are organizing much of the fighting 
in Fallujah, my view, the more correct term would be ``the 
torturers and killers of the old regime.''
    One example--and I would like to submit the full classified 
statement for the record, Mr. Chairman. But this is an analysis 
from the Defense Intelligence Agency of one branch of the 
former Iraqi Intelligence Service called the M-14, the so-
called Special Operations and Anti-Terrorism Branch. ``Anti-
Terrorism,'' it is Orwellian. This branch specialized in 
kidnappings, hijackings, bombings, and assassinations. It was a 
terrorist branch.
    These people are in the field today. As that report says: 
``Former Iraqi Intelligence Service operatives from M-14 have 
been involved in planning and conducting numerous improvised 
explosive devices, vehicle-borne improvised explosive devices, 
and radio-controlled improvised explosive devices for anti-
coalition attacks throughout Iraq.''
    It goes on to say that: ``cells of former M-14 personnel 
are organizing and conducting a terrorist IED campaign against 
coalition forces throughout Iraq. The explosives section of M-
14 prepared for the invasion by constructing hundreds of 
suicide vests and belts for use by Saddam fedayeen against 
coalition forces. The Iraqi Intelligence Service established a 
campaign that was purposefully decentralized so that attacks 
could be carried out in the event that cell leaders were 
captured or killed.''
    It goes on to mention that: ``Given their high level of 
skill, M-14 tactics, including explosives, are likely to be 
sophisticated.''
    I would like to submit the full--I do not have page 
numbers; it is about a seven-page document, and the detail is 
stunning in my view.
    Chairman Warner. Without objection, Mr. Secretary, that 
will be done.
    [The information referred to follows:]

    [Deleted.]

    Secretary Wolfowitz. Given that kind of presence, it is not 
surprising to me that we get accounts like this one that came 
recently from the Marines on the battle front. I guess I should 
always say that first reports in war are frequently wrong and 
even second reports can be wrong, and I do not know whether 
this is a first, second, or third. But it strikes me it is 
probably true.
    The Marines reported a fire fight in a small village 
northeast of Fallujah called Karmah. They basically stumbled 
across what seemed to be a large enemy position. The enemy 
swarmed in attack on the Marines. The result of a very intense 
fire fight was over 100 enemy killed in action.
    The significant thing, which I am looking to confirm, the 
report says upon termination of hostility the local townspeople 
approached the Marines, thanking them for their action, because 
the enemy had taken over their town and had been effectively 
holding them hostage.
    I can confirm more reliably, Mr. Chairman, that a similar 
situation prevailed in the town of Samarra further east in the 
area of operation of the Fourth Infantry Division, which is now 
run by the First Infantry Division, a situation not as bad as 
Fallujah but in some ways perhaps emblematic of the Fallujah 
problem. General Odierno of the Fourth I.D. about 2 months ago 
undertook a cordon and search operation where they closed off 
the town and systematically went after the anti-democratic 
forces that had been organizing and terrorizing that town. I 
have heard different estimates ranging from 200 to 700 enemy 
captured and detained, but what is in no disagreement is that 
once those people were gone Samarra was a different place, and 
indeed it has been a different place during the violence of the 
last few weeks.
    Jim Steele, who is a retired Army colonel with incredible 
bravery and also incredible expertise about police forces in 
third world countries--he has been in Iraq for the last year--
he gave a report about a recent visit to Samarra. He said: ``It 
is a different place from what it was during my last visit in 
December. The number of active police stations has more than 
doubled. The attitude toward the coalition forces was much 
improved as well. Sammara is an excellent example of local and 
regional cooperation. In fact, during the recent fighting the 
police in Sammara performed well.''
    This is from a report from Major General John Batiste, the 
commander of the First Infantry Division, which now took over 
from General Odierno. He said: ``We stood up a security working 
group in Sammara in advance of the April 9th to 12th Arbayeen 
celebrations to keep the peace and, if necessary, respond with 
firmness. There was some violence on the 12th of April in 
Sammara, but Iraqi security forces were part of the solution 
and the violence was contained. I am using the Sammara model 
throughout the region.''
    I mention all of this, Mr. Chairman, because, as bad as the 
situation is in Fallujah--and I do not in any way mean to 
minimize it--I think the enemy that we are facing is an enemy 
that rests on killing and death and terror, not an enemy that 
has genuine popular appeal. We have to work on our side on 
improving the belief of the Iraqi people in their future and 
the belief in what we can do for their future, though we also 
have to work to overcome the fear that these people implant.
    Mr. Chairman, members of the committee: Iraq has been a 
free country for a single year, after decades of systematic 
abuse. A year after its liberation, it is important to pause 
and consider what we have accomplished together with the Iraqi 
people. The indisputable fact is that, after 35 years of 
unimaginable horrors, Iraq has seen the beginnings of a 
tremendous transformation for the better in the 12 months since 
its liberation.
    For 35 years, the Iraqi people were ruled by terror and 
Saddam's personal fiat. Baathists suppressed dissent through 
murder, torture, and arbitrary imprisonment. Iraqis had no real 
rights, only temporary privileges subject to the whims of 
Saddam and his sadistic sons.
    Today Iraqis have an interim constitution that contains 
assurances of freedom of religion, freedom of expression, 
freedom of the press, freedom of assembly, freedom of 
movement--provisions that are highlighted in that chart on my 
right.
    Through 35 years of tyranny, money earmarked for lifesaving 
medicines were used by Saddam's regime to buy the means to end 
life. Money marked for hospitals went to rebuild palaces. Many 
of Iraq's hospitals and clinics that did remain open served as 
ammunition or command bunkers. Today health care spending in 
Iraq has increased 30 times, that is 30 times, over prewar 
levels and children are receiving crucial vaccinations for the 
first time in years.
    After 35 years of tyranny, Iraq's economy was moribund due 
to state control, rampant corruption, and the systematic 
misallocation of resources to palaces and weapons and to the 
favorites of the regime. Today the Iraqi economy is starting on 
a path of recovery, even though the full effect of the $18.4 
billion that Congress provided is only just starting to be 
felt.
    This is still, I would emphasize, an area of great concern 
to us. But we are making progress in the face of years of 
neglect. It is that progress which the enemy seeks to stop 
today and which we must make increased efforts to accelerate.
    For 35 years, Mr. Chairman, Iraq's oil revenues helped to 
build Saddam's palaces and line his pockets and those of his 
cronies. Today that revenue goes to the Development Fund for 
Iraq, where it helps to build a new infrastructure and a new 
future for the Iraqi people. At 2.5 million barrels per day, 
Iraqi oil production has reached its prewar levels and a total 
of $7.5 billion has been generated for the Development Fund for 
Iraq. That, I would add, is on top of roughly $8 billion from 
past revenues out of the Oil for Food program, so that Iraq has 
contributed $17 billion approximately of its own resources, 
$16.9 billion to be precise, to the reconstruction effort 
already.
    After 35 years of tyranny, Iraq's dilapidated power plants 
were in a state of unimaginable disrepair. Saddam corrupted the 
Oil for Food program and diverted the wealth of the country for 
his own power and comfort. Today power generation has surpassed 
prewar levels and is more evenly distributed throughout the 
country.
    For 35 years, Iraqi schools were propaganda factories for 
Saddam's cult of personality and Baath Party fascism. Today 
that fanaticism no longer pervades the national education 
system. 64,000 secondary school teachers and 5,000 school 
principals and administrators have been retrained in modern 
teaching methods. Endless references to Saddam in the textbooks 
have been removed and coalition forces have rehabilitated more 
than 2,500 schools.
    After 35 years of genocidal repression of Iraq's Marsh 
Arabs, the historical marshlands of southern Iraq were on the 
verge of extinction. A lush ecosystem the size of New Jersey 
had been converted into a barren desert by Saddam's vindictive 
attempt to destroy a people, the Marsh Arabs, whose history 
goes back thousands of years. Today the marshlands are 
gradually being restored and that ancient culture is being 
revived.
    For 35 years, the Iraq people's only link with the outside 
world was the poisonous propaganda of Iraq's state-run media. 
Today Iraqis have a wealth of independent news sources, 
including 170 newspapers.
    For 35 years, Iraqis had no voice in their government or 
their nation's future. Today more than half of the Iraqi 
population is active in community affairs and one in five 
belongs to a nongovernmental organization.
    I read in ``The Guardian'' of London that recently in the 
overwhelmingly Shia province of Diyala in southern Iraq 17 
towns held local elections using ration cards in the absence of 
registration rolls, their first genuine elections ever, and in 
almost every case either secular independents or nonreligious 
parties outpolled the Islamists.
    Perhaps most important, in the year since Iraq has been 
liberated no new mass graves have been filled with the bodies 
of innocent Iraqi men, women, and children capriciously 
murdered by a brutal regime, and the torture rooms and 
execution chambers have been shut down for good.
    Despite all the uncertainty and violence caused by the 
enemies of a free Iraq, it is clear that Iraqis sense dramatic 
improvement and anticipate much more. According to a recent 
Oxford Research International poll, despite all the 
difficulties that are correctly described in Iraq today, 56 
percent of Iraqis said their lives were much better or somewhat 
better than a year ago, and a full 71 percent expect their 
lives will be much or somewhat better a year from now.
    Mr. Chairman, members of the committee, I am not here to 
paint a rosy picture or to view this through rose-colored 
glasses. There are enormous problems. Some of them are indeed 
the result of what General Petraeus, who recently commanded the 
101st in Iraq and will be going back, by the way, to perform a 
crucial role in building Iraqi security forces--General 
Petraeus called it the man on the moon phenomenon. That is to 
say: You Americans can put a man on the moon; how come my 
electricity does not work? How come the sewers are not fixed? 
How come everything is not perfect after liberation?
    I believe that it is critical not only for the concrete 
benefits that come from employing people and fixing their basic 
services, I believe it is also critical in terms of maintaining 
faith and confidence in the United States, that we have to 
speed up this reconstruction effort. We are trying to 
understand--Senator Levin referred to lessons learned. One of 
the lessons we are trying to learn is the roadblocks that have 
made it slower than I believe is acceptable to get projects 
moving.
    Some of those roadblocks are unavoidable. They are the 
inevitable result of an insecure situation. Some of them are 
self-imposed red tape or in some cases I think legislation. I 
hope we can work together with Congress to eliminate both where 
they are unnecessary obstacles.
    We have a strategy. It has three basic elements. The first 
one involves building capable Iraqi security forces. The 
picture there is mixed. We have lessons learned, important 
lessons learned from the last few weeks, but I believe on 
balance it is one of the most critical elements. But Jim 
Steele, whom I quoted earlier, also reported visiting police 
stations in two critical sections of Baghdad, in Adamiyah and 
Sadr City, late at night during the recent disturbances and 
was, frankly, surprised, but pleasantly surprised, to find the 
chief of police there on duty and working.
    One of the problems is, through our slowness in getting 
equipment into the field, many of these Iraqi police were 
outgunned by the militias that they faced. That is a problem we 
can fix. In fact, if I were an Iraqi policeman I guess I would 
be asking, why did you not fix it sooner? We are moving to fix 
it as rapidly as we can.
    The second element involves nurturing Iraq's capacity for 
representative self-government, with the aim of creating a 
government that the Iraqi people will feel is theirs and that 
moves us out of the position of being an occupying power.
    Can someone put up the chart, please, that shows that 
process.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    I would emphasize it is a process. Things will not change 
overnight on July 1. While many think July 1 will be a magical 
date on which CPA will suddenly transition all of its 
responsibilities to a new Iraqi government, it is actually, 
like the process in Afghanistan that was started in Bonn in 
December 2001, just one step in the process.
    Already, free Iraqis have been assuming responsibility for 
government functions for quite some time. Iraq now has a 
functioning judiciary. At the local and provincial levels, 
elected assemblies are up and running. I think this is 
important: The July 1 transition is just one of three important 
steps in the future. It will be followed by the elections to 
establish a Transitional Government in January of 2005. Let me 
emphasize, elected, not appointed by the Americans, not 
negotiated by Ambassador Brahimi, but fully elected, early next 
year.
    That government in turn will be replaced by a permanent 
elected government under a constitution at the end of 2005.
    The third element of the strategy, Mr. Chairman, involves 
the reconstruction of Iraq's infrastructure and the restoration 
of essential services to provide better lives for Iraqis and 
put people back to work. Again, this is an area where we have 
to speed things up. I think things are speeding up and there is 
no question that the infusion of money that Congress provided 
last year is starting to be felt and will be felt on a larger 
scale over the course of this calendar year.
    Mr. Chairman and members of the committee, at the same time 
the Iraqis are undergoing a significant transition we will be 
transitioning from the CPA under Ambassador Bremer's leadership 
to a new American embassy led by one of our most distinguished 
career diplomats, John Negroponte, our current Ambassador to 
the United Nations, as was just announced yesterday.
    We have been working closely with our colleagues in the 
State Department. An example of extraordinarily good 
cooperation, I have with me retired General Mick Kicklighter, 
who has been working on these issues for the Defense 
Department, and Ambassador Frank Ricciardone, doing them for 
the State Department. We sometimes are not quite sure whether 
they are the Bobbsy Twins because we always see them together, 
but they are here and they are a resource.
    Chairman Warner. I wonder if they would stand up.
    Secretary Wolfowitz. If they would stand up, I think it 
would be helpful. They deserve at least some recognition for 
the extraordinary work they have been doing. [General 
Kicklighter and Ambassador Ricciardone stand.]
    Secretary Wolfowitz. Thank you.
    Chairman Warner. Thank you.
    Secretary Wolfowitz. Mr. Chairman, in my testimony I give 
details about the timeline in the Transitional Administrative 
Law on these three phases. I think it is important to 
understand that there are three phases and that July 1 is not 
an all or nothing kind of date.
    I cannot sit here today and predict the exact form of 
government that will result from this process, any more than I 
could have predicted in December 2001 what would result in 
Afghanistan from the Bonn process. The Iraqis will decide to 
establish the exact provisions of their permanent constitution 
and who will emerge as the leaders of a new Iraq. Particularly 
after 35 years of what they have been through, it is a 
complicated task.
    But Americans, of all people, should understand that 
democracy does not guarantee specific outcomes. It opens up 
ideas for debate. One need only look back to our own 
Constitutional Convention to be reminded that any attempt to 
establish rule for the people and by the people will involve 
uncertainty and controversy.
    Throughout the world, particularly in Eastern Europe and 
East Asia, new democracies have emerged in the last 10 or 20 
years in countries that had no prior historical experience of 
democracy. They are all different. None of them are perfect. 
Neither are we. But even an imperfect Iraqi democracy will be a 
light years improvement over what that country has been like 
for the last 35 years.
    Let me say one more thing here. I think it is wrong to 
assume that Iraqi Arabs and Kurds and Christians and Turkomen, 
some of the most intelligent people in the world, are incapable 
of achieving what Lithuania or Korea or the Philippines or 
Indonesia or Croatia or other newly emerging democracies have 
accomplished over the last couple of decades.
    Since the liberation of Iraq a year ago, Iraqis have 
conducted themselves impressively well for a nation so long 
exposed to Saddam's unique level of sadism. I guess I would 
say, well, if someone is sitting there saying, what on earth is 
he talking about when we read these scenes in Fallujah or we 
read about Mr. Sadr, let me just give you one example.
    We did not read about the massive Arbayeen pilgrimage. I do 
not know the estimates. I think roughly a million Shia pilgrims 
on the road for that celebration, very emotional celebration of 
the martyrdom of Ali. We anticipated, we were afraid of massive 
violence during that event. There was no news because there was 
no violence.
    The Shia of Iraq on the whole have conducted themselves 
with incredible restraint in the face of repeated provocations, 
both from the Zarqawi terrorists, from the former regime 
killers, and from this small-time gangster Mr. Sadr.
    I do want to recognize that we have disappointments with 
the performance of security forces. We are learning lessons 
from that. I cite three in particular at length in my 
testimony. The first is the need for stronger leaders. The 
second is that Iraqi security forces need an Iraqi rallying 
point. They need to feel and to have their friends and 
relatives feel that they are fighting for Iraq, not for the 
Americans. That is one of the reasons why General Abizaid and 
our commanders were those who were pushing so hard to 
accelerate the transition to a sovereign government. That is 
the reason why they found, and I felt with them, that this 
label of occupying power was not a good one to hang onto for 
another year and a half if there was any way to avoid it.
    Third, and this is our responsibility, Iraqi security 
forces need more and better equipment and they need it faster.
    Mr. Chairman, I have some comments about Afghanistan. I 
will be happy to discuss that in questions. I would like to 
stress that I think the American people need to know what their 
forces are accomplishing in Iraq and in Afghanistan, that the 
efforts of our service men and women are transforming the lives 
of 50 million people, overwhelmingly Muslims, and transforming 
two regions that have for too long accommodated despotism and 
terrorism, to the detriment of its people.
    Both our friends and our enemies, and our friends 
particularly, in Iraq and Afghanistan need to know that this 
country has the will and resolve to accomplish our objectives. 
I suppose it is worth highlighting for the international 
audiences that the debate in this country seems to be about 
whether we have enough troops or whether we should have more 
troops, not about whether we should abandon the people of Iraq 
or the people of Afghanistan. That is an incredibly important 
message. It is one of the most valuable messages we can 
deliver, because it builds confidence in the people, it 
encourages people to cooperate with our troops, and it will 
allow us to defeat this ugly enemy sooner rather than later.
    Mr. Chairman, in the interest of time I think I am going to 
abbreviate here. I do want to say that there are quite a few 
myths out there and I cite some of them in this testimony. It 
is a myth to say that the June 30 date for the transfer of 
sovereignty is completely arbitrary, and even more of a myth to 
say it is driven by the demands of U.S. electoral politics. 
There are very good important reasons in Iraq for doing it, and 
I would note that in fact it was our friends in the United 
Nations, particularly France, that were most critical when we 
established the Governing Council that Iraq needed a sovereign 
government, not an American occupation.
    Chairman Warner. Mr. Secretary, I think we can probably 
perceive the benefit of your additional points in the exchange 
we will have on questions.
    Secretary Wolfowitz. Let us do that. If I could just 
conclude, Mr. Chairman, I would like to read one impressive 
quote from General Jack Keane in his retirement, because I 
think this is a message to the world. The General said that: 
``The foreign terrorists, the Baath Party sympathizers, the 
extremists who wantonly kill Americans and innocent people from 
many nations have no idea what they are up against. They think 
they know us,'' General Keane said, ``because they have heard 
of Lebanon in 1983 or Somalia in 1994 or the U.S.S. Cole in 
2000. They think we are morally weak and we will lose our 
resolve.
    ``But their knowledge is superficial and their 
understanding is shallow. To understand America and 
Americans,'' General Keane said, ``they need to understand the 
Marne in 1918 or Tarawa in 1943 Omaha Beach in 1944, or the 
Chosin Reservoir in 1950. They need to understand that a Nation 
that produces Alvin York and Audie Murphy, John Pershing and 
George Marshall, Chesty Puller and George Patton, Randy Shugart 
and Gary Gordon, produces heroes in every generation. They are 
out there now performing every day.''
    The General concluded: ``Our enemies are cunning, but they 
are ignorant, and their ignorance will be their undoing. They 
do not know our will, our courage, or our character.''
    Thank you, Mr. Chairman. God bless those wonderful men and 
women who serve our country so well, and I thank this committee 
and Congress for the support you give them.
    [The prepared statement of Secretary Wolfowitz follows:]
               Prepared Statement of Hon. Paul Wolfowitz
                              introduction
    Mr. Chairman and members of the committee: As he prepared to lead 
his troops into action in Fallujah, a Marine Company Commander took 
time to write his father, a retired marine. ``This battle is going to 
have far reaching effects on not only the war here,'' he wrote:

          ``But in the overall war on terrorism. We have to be very 
        precise in our application of combat power. We cannot kill a 
        lot of innocent folks. . . . There will be no shock and awe. . 
        . . This battle is the Marine Corps Belleau Wood for this war. 
        . . . A lot of terrorists and foreign fighters are holed up in 
        Fallujah. It has been a sanctuary for them.
          The Marine Corps will either reaffirm its place in history as 
        one of the greatest fighting organizations in the world or we 
        will die trying. The marines are fired up. I'm nervous for them 
        though because I know how much is riding on this fight. 
        However, every time I've been nervous during my career about 
        the outcome of events when young marines were involved they 
        have ALWAYS exceeded my expectations.
          God bless these great Americans who are ensuring we continue 
        to fight an ``away'' schedule.''

    Our prayers are with him and all of our people currently serving in 
Iraq and Afghanistan. They are making America--and the world--more 
secure by helping the Iraqi and Afghan people build free and prosperous 
democracies in the heart of the Middle East. Whether members of Active 
Duty, Reserve, or National Guard units, or civilians, these heroes 
embody the best ideals of our Nation--serving so that others may be 
free--and we thank them all for the sacrifices they endure.
    We also owe a sincere debt of gratitude to the roughly 19,000 men 
and women from our 34 coalition partners, who are also serving the 
cause of freedom in Iraq. We would be remiss if we did not acknowledge 
the contributions made by civilians from a wide assortment of NGOs in 
Iraq who have recently become the target of terrorist attacks, such as 
Fern Holland, who quit practicing law in the United States in order to 
go to Iraq and help improve the lives of Iraqi women. Ms. Holland was 
brutally murdered for the work she was doing, and although it is small 
consolation to her family and friends, died doing what she believed in.
    Finally, I'd like to thank the members of this committee for their 
continued support to the members of our Armed Forces.
      iraq: 35 years of unimaginable tyranny, one year of progress
    A little over a year ago, we all watched the statue of Saddam 
Hussein fall in the heart of Baghdad. I remember watching the live 
coverage of that historic moment. Iraqis, eager to start a new page in 
their national history, enthusiastically tried to pull the statue down 
with the limited resources available to them--a length of rope that did 
not even reach all the way to the ground. Eventually, a group of U.S. 
marines saw what was happening, and aided the Iraqi effort. Working 
together, the Marines and Iraqis brought down that symbol of oppression 
and provided an image that will be etched in our collective memory 
forever.
    On that day, 25 million of some of the most talented people in the 
Muslim and Arab world were liberated from one of the worst tyrannies of 
the last 100 years. According to a somewhat popular theme these days, 
the world is full of bad guys, and that Saddam Hussein is just another 
bad guy. When I hear Saddam Hussein referred to that way, I can only 
conclude that there still exists a lack of real understanding of Saddam 
Hussein. In my career, I've known some bad guys up close and personal, 
people like former Philippine dictator Ferdinand Marcos and former 
Indonesian dictator Suharto. To paraphrase a famous vice-presidential 
debate, I knew these men, and Ferdinand Marcos was no Saddam Hussein; 
Suharto was no Saddam Hussein.
    Saddam Hussein was more than just another bad guy. He 
institutionalized and sanctioned brutality on a scale that is simply 
unimaginable to most Americans. Hussein ruled by fear, creating a 
society in which the ideal citizen was an informer. The superintendent 
of the Baghdad policy academy told me that he had spent a year in jail 
for having made a disparaging comment about Saddam--to this best 
friend. In such a Republic of Fear, friendship itself became a weapon.
    I have traveled to Iraq several times. I have spoken to hundreds of 
Iraqis, both in Iraq and here in the United States. One of my strongest 
impressions is that fear of the old regime still pervades Iraq. But, a 
smothering blanket of apprehension woven by 35 years of repression--
where even the smallest mistake could bring torture or death--won't be 
cast off in a few weeks' time.
    Saddam Hussein began weaving this blanket of fear from the very 
beginning. In 1979, one of his first acts as President was a sweeping 
purge of top Baathist leaders. At a meeting of the Iraqi national 
assembly, Saddam tearfully talked about a coerced ``confession'' of 
disloyalty from a top party member, and then continued to name other 
guilty colleagues. Guards then dragged these people out of the meeting. 
Then, Saddam asked top ministers and leaders of the party for their 
first loyalty test--he called on them to form the firing squads that 
executed those he'd identified.
    Saddam had videos of the whole event distributed throughout the 
Middle East, so people would know what sort of leader he was. 
Implicating members of his regime in his worst crimes and ensuring that 
his potential victims understood how seriously to take his threats, 
Saddam Hussein applied the techniques of a most brutal gangland boss, 
but on a national scale and as the head of an internationally 
recognized government.
    One of the most heartbreaking stories to come out of Iraq almost 
defies belief. Scott Ritter--the former UNSCOM inspector and an 
opponent of the war--has described a prison in Baghad, whose stench, he 
said, ``was unreal,'' an amalgam of urine, feces, vomit and sweat''; a 
hellhole where prisoners were ``howling and dying of thirst.'' In this 
prison, the oldest inmates were 12, the youngest mere toddlers. Their 
crime--being children of the regime's political enemies.
    General Richard Myers, Chairman of the Joint Chiefs of Staff, was 
recently returning from a trip to Iraq, and stopped at Ramstein AB, 
where he was told about some Iraqi businessmen who had recently passed 
through on their way to the United States, to the Texas Medical Center 
in Houston, where they were to undergo surgery to repair some of the 
damage inflicted on them some 10 years ago. When Iraq's economy was 
falling into shambles, Saddam's way of placing blame was this: he 
ordered that a few merchants be rounded up. With flimsy evidence, they 
were found guilty of destabilizing the Iraqi economy and were sentenced 
to lose their right hands. Black Xs tattooed on their foreheads branded 
them as criminals. The amputations were filmed, and the video--as well 
as the hands--were sent to Saddam. In a Houston doctor's office, one 
man was quoted as saying: ``You spend your whole life doing and saying 
the right things. Then someone comes and cuts your hands off for no 
reason at all. It's a torture that never ends.''
    I recount these stories to illustrate what one writer has called 
the ``density of evil'' that permeated Iraq. In very many ways, its 
effects are also like a torture that doesn't end. Such evil and fear is 
so alien to our own American experience that I think it's necessary to 
talk about it to understand the plight of Iraqis today, if we are to 
have a proper understanding of one of the most formidable challenges 
facing us right now. Even though Saddam's regime is gone and he himself 
has been captured, the fear of Saddam and his henchmen is still alive 
in the minds of Iraqis facing the difficult choice of whether to 
cooperate with us and with other brave Iraqis to build what they call 
``the New Iraq.'' Until Iraqis are convinced that Saddam's old regime 
has been permanently and irreversibly removed, and until a long and 
ghastly part of their history is put to rest and overcome, it is only 
natural that that fear will remain. That history of atrocities and the 
punishment of those responsible are directly linked to our success in 
helping the Iraqi people build a free, secure and democratic future.
    The people of Iraq have much valuable information that can help us 
root out the remaining Baathists and help Iraqis find justice. To the 
extent that people of Iraq are willing to take part in the civic and 
political institutions that will constitute a new Iraq is linked to 
their understanding that the Saddamists are finished, and will never 
again return to power in Iraq.
    Convincing them of this truth--that Saddam and the Saddamists are 
finished--will continue to require investments in our time and our 
resources to continue to build trust among the Iraqi people.
    Iraq has been a free country for a single year after decades of 
systematic abuse by a regime of murderers and torturers. A year after 
Iraq's liberation, it is important to pause and consider what we have 
accomplished together with the Iraqi people. For amidst the episodes of 
violence and tragedy of the loss of innocent life in suicide bombings, 
the good news of what is happening in Iraq often gets obscured or 
ignored. As one soldier recently wrote to the Houston Chronicle, ``The 
reality is we are accomplishing a tremendous amount here, and the Iraqi 
people are not only benefiting greatly, but are enthusiastically 
supportive.''
    The indisputable fact is that after 35 years of enduring 
unimaginable horrors, in the year since its liberation Iraq has seen 
the beginnings of a tremendous transformation for the better:
    For 35 years, the Iraqi people were ruled by terror and Saddam's 
personal fiat. Baathists suppressed dissent through murder, torture, 
and arbitrary imprisonment. They tortured children in order to coerce 
their parents, and raped women to punish their families. Iraqis had no 
real rights, only temporary privileges subject to the whims of Saddam 
and his sadistic sons.
    Today, Iraqis have an interim Iraqi constitution that is the most 
liberal basic governance document in the Arab world. The Transitional 
Administrative Law (TAL) contains assurances of:

        <bullet> Freedom of Religion
        <bullet> Freedom of Expression
        <bullet> Freedom of the Press
        <bullet> Freedom of Assembly
        <bullet> Freedom of Movement

    The TAL guarantees equal rights for all citizens of Iraq regardless 
of ethnicity, denomination, or sex. It acknowledges the Islamic 
character of the majority of Iraqi society and, at the same time, 
affirms the right to freedom of religious belief and practice for every 
Iraqi. It provides for other fundamental pillars of true democracy, 
including separation of powers and an independent judiciary, rule of 
law, fundamental civil rights, and civilian control of the military. 
This constitution emerged from an often heated, but ultimately healthy, 
political debate, one that would have been impossible a year ago--and 
one that is still impossible in many areas of the world.
    Through 35 years of tyranny, money earmarked for life-saving 
medicines were used by Saddam's regime to buy means to end life. Money 
marked for hospitals went to rebuild palaces. Many of Iraq's hospitals 
and clinics that remained open to the public also served as ammunition 
or command bunkers. Today, health care spending in Iraq has increased 
30 times over its pre-war levels, and children receive crucial 
vaccinations for the first time in years.
    After 35 years of tyranny, Iraq's economy was moribund due to state 
control, rampant corruption, and Saddam's misallocation of resources to 
palaces and weapons and to the favorites of his regime. Today, the 
Iraqi economy is on the path of recovery and prosperity. Unemployment 
has fallen, inflation is a quarter of what it was before the war, and 
the New Iraqi Dinar has become the most heavily traded currency in the 
Middle East. This is before the full effect of the $18.4 billion in 
reconstruction grants you helped provide the Iraqi people is felt. This 
is still an area of great concern to us, but we are making progress 
despite years of neglect. It is that progress which the enemy seeks to 
stop today and which we must make increased efforts to accelerate.
    For 35 years, Iraq's oil revenues helped build Saddam Hussein's 
palaces and lined the pockets of Saddam and his cronies. Today, Iraqi 
oil revenue goes to the Development Fund for Iraq, where it helps build 
a new infrastructure and a new future for the Iraqi people. At 2.5 
million barrels per day, Iraqi oil production as reached its pre-war 
levels, and oil proceeds to date exceed $7.5 billion and are projected 
to be $14 billion this year.
    After 35 years of tyranny, Iraq's dilapidated power plants were in 
a state of unimaginable disrepair. What electricity was produced was 
diverted to Baghdad in order to reward Saddam's cronies and punish the 
people whom Saddam despised. Today, power generation has surpassed 
prewar levels and is more evenly distributed, and new, modern power 
plants are being built.
    For 35 years, Iraqi schools were propaganda factories for Saddam's 
cult of personality and Baath party fascism. Today, that fanaticism no 
longer pervades the national education system and its teaching 
materials. 64,000 secondary teachers and 5,000 school principals and 
administrators have been retrained in modern teaching methods, and 72 
million new textbooks will be distributed before the end of the school 
year. To date, coalition forces have rehabilitated more than 2,500 
schools. The Iraqi people have clearly demonstrated their preference 
for the new educational system, as school attendance this year has 
surpassed pre-conflict levels.
    After 35 years of genocidal repression of Iraq's Marsh Arabs, the 
historical marshlands of southern Iraq were close to extinction. A lush 
ecosystem the size of New Jersey had been turned into a barren desert 
by Saddam's vindictive attempt to destroy a people whose history goes 
back thousands of years and make of them an example to warn anyone who 
would challenge his rule. Today, the marshlands are gradually being 
restored, and that ancient culture is being revived.
    For 35 years, the Iraqi people's only link with the outside world 
was the poisonous propaganda of Saddam's state-run media. Today, Iraqis 
have a wealth of independent news sources. One hundred seventy 
newspapers are currently published in Iraq, and the Iraqi Media Network 
reaches more than 80 percent of the Iraqi population. The market in 
satellite dishes is booming.
    For 35 years, Iraqis had no voice in their government or their 
nation's future. Today, more than half of the Iraqi population is 
active in community affairs and one in five belongs to a non-
governmental organization. Ninety percent of Iraqi towns and provinces 
have local councils, which we think is a pretty good sign that the 
Iraqi polity is moving in the right direction. Recently, in the 
overwhelmingly Shia province of Diyala in southern Iraq, 17 towns have 
held local elections--their first genuine elections ever--and in almost 
every one secular independents and non-religious parties did better 
than the Islamists.
    Perhaps most importantly, in the year since Iraq has been 
liberated, no new mass graves have been filled with the bodies of 
innocent Iraqi men, women, and children capriciously murdered by a 
brutal regime, and the torture rooms and execution chambers have been 
shut down.
    Despite all the violence and uncertainty caused by the enemies of a 
free Iraq, it is clear that Iraqis sense dramatic improvement in their 
everyday lives and anticipate much more. According to a recent Oxford 
Research International poll, despite the difficulties we all read about 
56.5 percent of Iraqis said their lives were much better or somewhat 
better than a year ago. Despite the prevalence of alarmist quotes 
depicting some Iraqi ``man-on-the-street'' lamenting the good old days 
under Saddam Hussein, only 18.6 percent of those polled said they were 
much or somewhat worse off than a year ago. A full 71 percent expect 
their lives will be much or somewhat better a year from now.
    Moreover, the Iraqi people are expressing their optimism with their 
feet. Despite the continued threat of violence in Iraq, and the 
horrific terrorist attacks against Iraqi civilians intended to derail 
progress in Iraq, as several thousands of Iraqi refugees are returning 
to their homeland.
 the coalition's strategy to achieve victory in iraq: capacity building
    Despite the violence of recent weeks, we need to continue to move 
forward on all fronts implementing the coalition's strategy to set 
conditions that will ensure a free Iraq that is stable and at peace 
with its neighbors. Events of the past month have taught us several 
lessons learned that have influenced our policy decisions. These 
lessons include:

        <bullet> The importance of local initiative for fast action: 
        local commanders should get a special allocation of 
        reconstruction funds.
        <bullet> The importance of Iraqi leadership and the need to 
        intensify our efforts to train and develop Iraqi leaders

                <bullet> We need to cross-attach coalition and Iraqi 
                liaison officers, and more heavily embed coalition 
                trainers and mentors.
                <bullet> We need to continue to recruit vetted former 
                senior (Colonel--Brigadier) Iraqi officers for the 
                Iraqi Armed Forces and Ministry of Defense.
                <bullet> We need to speed police advisors and 
                specialized trainers to police stations and academies.

        <bullet> The importance of having an Iraqi rallying point and 
        looking for ways to shorten the process by which Iraqis quickly 
        create a government that embodies Iraqi nationality and 
        sovereignty.

                <bullet> We need to continue to install and highlight 
                an Iraqi chain of command: new defense minister, 
                commander of the Armed Forces, chief of staff, new 
                interior minister.
                <bullet> We need to carry out de-Baathification process 
                in a way that is non-punitive to those with clean 
                records.
                <bullet> We need to strengthen the legitimacy of an 
                Iraqi interim government and the constitutional 
                process.
                <bullet> We need to focus the Iraqi media spotlight on 
                political activities of leading Iraqis, including 
                Governing Council members.
                <bullet> We need to continue to encourage local 
                elections.

        <bullet> The importance of equipment and support and the need 
        to accelerate the equipping of Iraqi security forces.

                <bullet> We need to rush delivery of critical items 
                (weapons, ammunition, vehicles, radios)
                <bullet> We need to upgrade required items in light of 
                current experience.
                <bullet> We need to enhance protection for security 
                forces and police fixed sites.

    Our strategy involves three interdependent lines of operations to 
build indigenous Iraq capacity and transition responsibilities from the 
coalition to Iraq rapidly, but not hastily. While these lessons to be 
learned from the violent events of the past few weeks affect the way we 
pursue these three lines of operation, these are still the three key 
elements that will bring success in Iraq.
    The first element involves building capable Iraqi security forces 
to achieve stability. Accordingly, we have redoubled our efforts to 
recruit, train, equip and, most importantly, mentor Iraqi security 
forces--Police, Iraqi Civil Defense Corps, Army, Border Police, and the 
Facilities Protection Service. Over the next few months our aim is to 
certify the ability of these forces, that they are ready to assume 
greater responsibilities from coalition forces. Similarly, through 
technical assistance and mentoring by U.S. prosecutors and judges of 
their Iraqi counterparts, we have been helping to build the capacity of 
the Iraqi criminal justice sector: the Judicial Review Commission has 
reviewed and vetted all currently sitting judges and prosecutors; the 
Central Criminal Court of Iraq, established to deal with those who have 
committed the most notorious crimes in Iraq, is investigating and 
trying cases; and every pre-war local criminal court in Baghdad is 
open, fully functional, and every week more cases are set for trial or 
tried as compared to the week before.
    The second element involves nurturing Iraq's capacity for 
representative, self-government with the aim of creating a government 
that the Iraqi people will feel is theirs and that moves us out of the 
position of being an occupying power. While many think that July 1 will 
be a magical date on which Coalition Provisional Authority (CPA) will 
suddenly transition all of its responsibilities to a new Iraq 
government, it is actually just one step in a process. Already, free 
Iraqis have been gradually assuming responsibility for governmental 
functions for quite some time. Many Iraqi ministries report to the 
Governing Council rather than the CPA. Iraq now has a functioning 
judiciary to provide equal justice for all. At the local and provincial 
levels, elected assemblies are up and running. When the Interim 
Government assumes office on July 1, its most important task will be to 
prepare the way for elections to establish the Transitional Government 
in January of 2005. That government in turn will be replaced by 
elections for a fully constitutional government at the end of 2005.
    The last element of the strategy involves the reconstruction of 
Iraq's infrastructure and the restoration of essential services that 
are providing better lives for Iraqis and putting people back to work. 
Iraq has tremendous potential. It has well-educated and industrious 
people. It has fertile land and water resources and it has abundant 
natural resources. Our strategy aims to put Iraq on course to realizing 
that potential and to setting conditions for Iraqis to reap greater 
prosperity in the future.
                  lessons learned and challenges ahead
    Although the progress the Iraqi people have made in their climb up 
from tyranny has been both encouraging and impressive, significant 
challenges still remain.
Security in Iraq
    When planning the military campaign to liberate Iraq, this 
administration and the combatant commanders chose to launch a campaign 
that emphasized speed rather than mass. The astonishing speed of this 
military campaign enabled us to avoid many of the nightmare scenarios 
that were predicted before the war. Lest anybody forget, in part thanks 
to this war plan we managed to avoid most of the horror scenarios we 
feared going into this war:

        <bullet> Iraq's oil fields were not turned into an ecological 
        and economic disaster;
        <bullet> Massive destruction of dams and bridges was prevented;
        <bullet> Large-scale refugee flows were not generated;
        <bullet> There was no humanitarian crisis from food or medical 
        shortages;
        <bullet> No friendly governments in the region collapsed 
        because of the pressures of a protracted war.
        <bullet> Iraq's neighbors did not intervene, nor did Israel;
        <bullet> Ethnic conflict did not break out in mixed populations 
        in northern Iraq or elsewhere; and
        <bullet> There was no ``Fortress Baghdad'' with street-to-
        street fighting and heavy civilian casualties.

    The avoidance of these calamities was not by accident, but rather 
the result of careful planning.
    Because we did not wait to mass half a million forces in theater 
before launching Operation Iraqi Freedom, Saddam was not able to 
organize the large-scale urban warfare campaign about which so many 
military analysts warned. The historically unprecedented speed of the 
campaign may have led many Iraqi forces, such as the Fedayeen Saddam 
and Mukhabarrat, to disperse throughout the country rather than stand 
and fight in the streets as anticipated.
    In order to destroy the last vestiges of Saddam's tyranny, it was 
always necessary that we defeat these forces. The current violence is 
not an issue of reconstruction planning, nor is it due to a lack of 
forces. Overall, the decision to emphasize speed rather than mass was a 
deliberate choice, recommended by the Combatant Commander, General 
Franks, but approved by the President and the Secretary of Defense and 
concurred in by the Joint Chiefs of Staff. Like all choices it involved 
necessary tradeoffs, but overall it has saved lives and helped to avoid 
terrible humanitarian and environmental disasters.
    The timing of the current violence was not entirely unexpected. 
President Bush warned that we could expect increased violence in the 
months leading up to the transition to Iraqi sovereignty. We knew that 
the enemies of democracy in Iraq would do everything they could to 
disrupt the transition to sovereignty. This expectation was confirmed 
when we intercepted a letter from Abu Musab Zarqawi to his Al Qaeda 
colleagues in Afghanistan. In this letter, Zarqawi expressed 
disappointment that previous mass attacks were failing to shatter the 
unity of the Iraqi people. He advocated stepping up attacks to kill 
large numbers of Shi'a in order to provoke a sectarian civil war in 
Iraq. Some of the recent violence, including the attacks on Shi'ite 
worshippers in Karbala and Baghdad during the Ashoura holiday in early 
March which killed 140 Iraqis, bear Zarqawi's hallmark.
    However, the same political situation that is driving such attacks 
also is a source of optimism for the Iraqi people and their coalition 
partners. Zarqawi recognized that the fast-approaching turnover of 
sovereignty would further weaken his cause, saying:

          ``With the spread of the [Iraqi] army and the police, our 
        future is becoming frightening. The problem is you end up 
        having an army and police connected by lineage, blood and 
        appearance to the people of the region. How can we kill their 
        cousins and sons and under what pretext, after the Americans 
        start withdrawing? This is the democracy . . . we will have no 
        pretext.''

    Zarqawi's letter strongly suggests that we are seeing an upsurge in 
violence precisely because the terrorists and extremists in Iraq 
believe we are winning and that their time to derail democracy in Iraq 
is running out.
U.S. Government Transition after CPA
    We face another daunting challenge as we execute the transition 
from the Coalition Provisional Authority to a sovereign Iraqi 
government bolstered by a U.S. embassy less than 90 days from now. 
Fortunately, planning for this transition is well underway within the 
Defense and State Departments. LTG (USA, Ret.) Mick Kicklighter and 
Ambassador Frank Ricciardone lead Transition Teams for the two 
Departments, and they have worked hand in glove with the CPA and 
Defense and Army staffs since early January to make the transition a 
success. They have formed an Interagency Transition Planning Team 
(ITPT) and provide the State and Defense leadership for drafting an 
Operations Plan for the transition. Experts from 16 subject matter 
sectors (such as Security, Human Resources and Personnel, Facilities, 
Finance, Medical and Health Services, etc.) from State and Defense 
coordinate closely to draft the highly detailed, time-phased plan. The 
ITPT as a whole meets almost daily, with sector leads meeting with 
their teams more often as required. General Kicklighter and Ambassador 
Ricciardone meet several times each week to ensure that planning and 
implementation of the plan are on track.
Transitional Administrative Law
    While the ITPT sets the course for the U.S. Government transition, 
the TAL establishes a clear way forward for drafting and ratifying a 
permanent constitution for Iraq and the election of a government in 
accordance with its terms. This political transition is scheduled to 
evolve over three phases:

        <bullet> Phase I (June 30, 2004)--Iraqi Interim Government
        <bullet> Phase II (January 2005)--Iraqi Transitional Government
        <bullet> Phase III (January 2006)--Iraqi Government under 
        Permanent Constitution

    According to the timeline laid out in the TAL, the Iraqi Interim 
Government will take power on June 30. This Interim Government will be 
selected by procedures being developed through intensive consultations 
among Iraqis, led by Ambassador Brahimi, the U.N. Secretary General's 
Special Advisor on Iraq. We believe the ideas put forth by Mr. Brahimi 
are promising and we look forward to more details from the U.N. CPA 
officials will remain in close contact with Mr. Brahimi, members of the 
Iraqi Governing Council and other Iraqis as these procedures are 
completed in May. The Interim Government will serve until the 
Transitional National Assembly (TNA), is elected in either December 
2004 or January 2005.
    The TNA will then elect a three-person Presidency Council comprised 
of a President and two Deputies, who will appoint by unanimous vote the 
Prime Minister and, on the Prime Minister's recommendation, a Council 
of Ministers. The Prime Minister and Council of Ministers must obtain a 
vote of confidence from the TNA before taking office. Together, the 
TNA, the Presidency Council and the Council of Ministers will comprise 
the Iraqi Transitional Government.
    In addition to being the legislature, the TNA will also draft a 
permanent constitution for Iraq, which will be submitted for popular 
ratification by October 15, 2005. Elections under this new constitution 
are to be held by December 15, 2005, and the newly elected government, 
operating under the permanent constitution, will take office by 
December 31, 2005.
    The TAL provisions relevant to security arrangements also provide 
the appropriate framework for implementing our security strategy in 
Iraq. Article 59(B) of the TAL states that Iraqi armed forces will be 
``a principal partner in the multinational force operating in Iraq 
under unified command pursuant to'' UNSCR 1511. Article 59(C) states 
that the elected Iraqi Transitional Government ``shall have the 
authority to conclude binding international agreements regarding the 
activities of the multinational force,'' and that ``nothing in this Law 
shall affect rights and obligations . . . under UNSCR 1511 . . . which 
will govern the multinational force's activities pending entry into 
force of those agreements.'' Perhaps most importantly, article 26(C) 
ensures that CPA orders and regulations ``shall remain in force until 
rescinded or amended by legislation duly enacted and having the force 
of law.'' This includes CPA Order #17, which provides SOFA-like 
protections for Coalition Forces, and will stay in effect until an 
international agreement is negotiated with the sovereign Iraqi 
government.
    Now, I cannot sit here today and predict the exact form of the 
permanent government. Iraqis will decide to establish the exact 
provisions of their permanent Iraqi constitution, or who will emerge as 
the leaders of the new Iraq. After 35 years of totalitarian 
dictatorship, it is a complicated task to build new political 
institutions and it cannot happen overnight.
    Americans of all people should understand that democracy does not 
guarantee specific outcomes, it opens ideas up for debate. One need 
only look back at our own Constitutional Convention to be reminded that 
with any attempt to establish rule for the people by the people, there 
is always a great deal of uncertainty and controversy, right up until 
the ink has dried and even afterwards. We should not expect Iraqis to 
achieve immediately what we and the British, for example, have labored 
to accomplish over the course of centuries. Throughout the world, 
particularly in Eastern Europe and in East Asia, new democracies have 
emerged in the last 10 or 20 years. They are all different and none are 
perfect. Neither is ours. But even an imperfect Iraqi democracy will be 
an improvement light years beyond what that country has endured for the 
past 35 years.
    Let me say one more thing here. I believe it is wrong to assume 
that Iraqi Arabs and Kurds, some of the most intelligent people in the 
world, can not achieve what Lithuania, Korea, and other newly emerging 
democracies throughout Eastern Europe and East Asia have accomplished 
in the past 20 years. Since the liberation of Iraq a year ago, Iraqis 
have conducted themselves extraordinarily well for a nation so long 
exposed to Saddam Hussein's unique level of sadism. In a remarkably 
short period of time, Iraqi leaders, for all their diversity, have 
shown they are learning the arts of political compromise and that they 
are dedicated to their country's unity.
Iraqi Security Forces
    One institution we are focusing intently on is the Iraqi Security 
Forces, whose performance during the spike in combat activity over the 
past 3 weeks has been mixed. At least half of the security forces stood 
their ground and in Fallujah some ICDC units fought bravely and well. 
Other units did not face the enemy, avoided contact altogether, and a 
small proportion cooperated with the enemy.
    Our disappointment with the security forces has to be tempered with 
realism. Overall, they were not capable by themselves of deterring or 
withstanding the recent attacks, and that fact should not surprise us. 
We have been fielding Iraqi security forces as fast as we could, but we 
never intended for Iraqi security forces to take over responsibility 
for Iraq's security on June 30, much less April 5. Our plan was and is 
for Iraqi forces to develop strength, capability, and experience under 
the security umbrella of the coalition, while the coalition retained 
overall security responsibilities. Recent events provide lessons we can 
apply to increase the impact of what we are doing.
    The first lesson is the need for stronger leaders in the security 
forces. We will build on the leaders whose units fought and we will 
replace those whose units did not. We will integrate Iraqi officers 
with coalition forces and we will embed coalition officers with the 
Iraqi security forces. This cross-attachment provides liaison, which 
produces mutual confidence, and it also helps us develop Iraqi 
leadership. Similarly, we need police advisors and specialized trainers 
to get down to police stations around the country to provide confidence 
and set the example.
    Second, it is clear that the members of the security forces, most 
of whom are Iraqi patriots, need an Iraqi rallying point. They need to 
understand they operate under an Iraqi chain of command, and that at 
the top of that chain of command is a lawfully constituted Iraqi 
government. The chain of command is being put in place now. A defense 
minister has been named, along with a commander in chief of the Armed 
Forces and a chief of staff. A new interior minister has also taken 
office. We need to fill in the rest of the chain, but Iraqis in the 
security forces can see today that there are Iraqis at the top.
    The other and harder part of creating a national rallying point for 
the security forces is the creation of an Iraqi government. This is one 
of the important reasons to maintain the momentum of the governance 
process, including not only the June 30 transition but the important 
steps beyond.
    Third, the Iraqi security forces need more and better equipment. We 
had not planned for them to be fully equipped at this point, but some 
of our ICDC units were outgunned in recent action, so we are relooking 
the equipment requirements. We have also incurred some delays in 
equipping the Iraqi security forces. Part of the delay has been caused 
by challenges in the contracting process and we hope those problems 
have been fixed. We need to make up some of our lost time, but any 
delay is unacceptable.
    The greatest factor in the mixed performance of the security forces 
was an intangible: fear. The fear of becoming a casualty is doubtless 
ever-present; almost 300 members of the Iraqi security forces have been 
killed and almost 700 wounded. But fear of the future is a much greater 
factor. The enemies of a democratic future for Iraq have so terrorized 
the cities of central Iraq that many members of the security forces 
doubt that they or their families can be protected from the retribution 
that may follow their participation in operations alongside the 
coalition. The intimidation is crude but often effective, especially in 
a society in which keeping your head down was an essential survival 
technique for over 30 years. That fear takes time to overcome.
    The enthusiasm of Iraqis to go into combat alongside the coalition 
is also colored by their perception of our commitment to the new Iraq. 
If they sense that we will not see them through to a new constitution, 
an election, and strong Iraqi institutions, we should not be surprised 
to see them melt away or even work a deal with those who would shoot 
their way to power. That is why it is so important in this time of 
stress to show that our commitment to their freedom is rock-solid.
Afghanistan
    We also confront challenges in Afghanistan where the United States, 
its coalition partners, and NATO have committed to helping the Afghans 
build a moderate, democratic, and representative government. Despite 
some setbacks, Afghanistan has made enormous progress on several 
fronts.
    In January of this year, the Afghan people reached a critical 
milestone when they adopted a constitution laying the foundation for 
strong democratic institutions and guaranteeing civil liberties such as 
freedom of religion and equality between men and women. The Afghans 
have made steady progress in disarmament, with 40 percent of the heavy 
weapons around Kabul secured. A nation-wide heavy weapons survey is 
identifying all remaining heavy weapons in the country for removal by 
June 2004. The Afghan Ministry of Defense will likely meet its goal of 
9,500 Afghan National Army troops by the summer. The 7,646-strong force 
has already contributed to the success of Coalition stability 
operations in the south and east. The army allowed the central 
government to respond effectively to the recent unrest and factional 
fighting in Herat and Meymaneh.
    With the more than $2 billion that you helped provide, the 
President was able to commit personally to accelerate progress in 
Afghanistan's reconstruction and security. This commitment has allowed 
us to increase the number of Provincial Reconstruction Teams throughout 
Afghanistan. The coalition recently established its 13th team in the 
southern province of Oruzgan. We hope to set up three more in the south 
and east by June of this year. Countries leading PRTs include the U.K., 
New Zealand, and Germany. These teams play an active role in defusing 
regional tensions among rival warlords, engage in public works 
projects, and help provide security for reconstruction activities 
through presence patrols and assistance to local police and security 
forces, among other things.
    Operation Mountain Storm is underway in the south and east, where 
al Qaeda networks and the Taliban continue to threaten stability and 
reconstruction. We are following up these combat operations with 
focused reconstruction and humanitarian assistance. One vehicle for 
this focused reconstruction and humanitarian assistance will be the 
Regional Development Zone, which will be rolled out in the less 
developed and more insecure regions.
    We are improving relations between Afghanistan and Pakistan and 
enhancing cooperation in counterinsurgency operations along the Afghan 
border with Pakistan. In 2003, we established a Tripartite Commission 
made up of U.S., Afghan, and Pakistani authorities that meets regularly 
to share military intelligence and address common security concerns.
    We are actively engaging NATO countries to expand their security 
presence in Afghanistan. NATO recently completed an operations plan for 
expanding the International Security Assistance Force beyond Kabul and 
Konduz. We are lobbying NATO countries to contribute the resources 
necessary for this expansion.
               false pessimism about the iraqi transition
    But while it is important not to view the accomplishments in Iraq 
and Afghanistan through rose-colored glasses, some critics seem to have 
given themselves over completely to the darkest of pessimism. To some, 
all progress in Iraq is illusory, every silver lining has a cloud.
    It is important to address and correct the misperceptions about 
developments in Iraq. The American people need to know what their 
forces are accomplishing in Iraq, how the efforts of our servicemen and 
women are transforming the lives of 25 million Iraqis for the better, 
and transforming a region that has for too long accommodated despotism 
to the detriment of its freedom starved populations. Both our friends 
and our enemies, in Iraq and Afghanistan, need to know that we have the 
will and resolve to accomplish our objectives.
    For example, some say the June 30 date for the transfer of 
sovereignty is completely arbitrary, driven more by the demands of U.S. 
electoral politics than by actual conditions in Iraq, and that 
therefore the deadline should be extended. The choice of an early date 
as opposed to a later date was not arbitrary at all. If you will 
recall, our original plan envisaged a sovereign Iraqi government only 
at the end of a multi-step process of drafting a new constitution and 
holding elections by the end of 2005. The President decided to shorten 
this timetable, for two key reasons having to do with our strategy in 
Iraq.
    First, the Iraqis seemed to hold back from taking responsibility as 
long as the CPA was in total charge. A shorter timetable was seen as a 
necessary incentive to prepare the Iraqis for sovereignty. For without 
the sense of urgency and accountability that a fixed deadline imposes, 
Iraqi leaders have been unable to resolve the difficult issues required 
to conduct elections and shape a new government.
    Second, an early end to the occupation is essential to our 
political strategy to defeat the terrorists. A sovereign Iraqi 
government will be better able to marginalize its extremist opponents 
politically while coalition forces defeat them militarily. As the 
letter from Zarqawi demonstrates, such a transformation is the worst 
possible scenario for those who oppose the emergence of democracy in 
Iraq. They fear it, and that's why they are trying so hard to derail 
it.
    Moving ahead is important to inspire Iraqi confidence that the 
transition is moving forward and that their country will not be 
occupied indefinitely. But it is important also to make clear that 
coalition forces will not leave on July 1--there will still be threats 
to security in Iraq. But, on July 1, Iraq will be governed by an Iraqi 
government. This is in accordance with the expressed wishes of the 
Iraqi people. In a recent public opinion survey, 60 percent of Iraqis 
said that U.S. and other coalition forces should remain in Iraq for 
more than 1 year, until security is restored, or until an Iraqi 
government is in place.
    Some say the transfer of authority to Iraqis will not be genuine, 
that it will only be symbolic. This is also not true. On July 1, an 
Iraqi government will be given responsibility for day-to-day governing 
of Iraqi state affairs. Iraqis will control all 26 ministries with 
strong U.S. support. The Iraqi Police, Border Patrol, and Facilities 
Protection Forces--80 percent of the Iraqi Security Forces--will be 
under the new Iraqi Interior Ministry. The Iraqi Civil Defense Corps 
and Iraqi Army will, for purposes of operational control, be under the 
unified command of the Multi-National Force Iraq, commanded by General 
Sanchez. However, administratively they will be under the command of 
the Ministry of Defense. These arrangements are similar to those 
utilized in Germany and Korea during the Cold War, put real power into 
the hands of our Iraqi partners, and go beyond any token symbolism.
    Some say that we are in Iraq with an ``illegitimate'' coalition 
that is just window dressing for this administration's unilateralism. 
However, the Coalition's mission to reconstruct Iraq has been an 
international effort from the start. Thirty-four Nations besides the 
United States have forces on the ground in Iraq, spearheaded by the two 
multinational divisions led by the British and the Poles. These 34 
nations include Britain, Japan, and Italy--three G-7 countries--plus 
Poland, South Korea, and many others. Jordan and the United Arab 
Emirates are training Iraqi police forces. Over 70 nations participated 
in the Madrid Donors' Conference, pledging between $14-19 billion 
dollars for Iraqi reconstruction, including significant pledges from 
the World Bank and IMF.
    Thirty-four of our closest friends have troops that are bravely 
fighting alongside us in Iraq. British, Italians, Bulgarians, Thais, 
Poles, Danes, Estonians, Ukrainians, and Spanish have been killed while 
trying to advance freedom and democracy in Iraq and it is wrong to 
denigrate their efforts. Perhaps most significantly, more than 250 
Iraqis have died in the line of duty fighting for a free Iraq since 
June 1.
    Some say that just as we should have waited for the United Nation's 
permission to go to war, we should bring the United Nations into Iraq 
today. This is a misleading statement, as this administration has made 
a significant effort to involve the United Nations in the 
reconstruction of Iraq. The Coalition's ongoing efforts in Iraq have 
repeatedly received the endorsement of the UN. U.N. Security Council 
Resolution 1483--passed May 22, 2003--supports the formation of the CPA 
and an Iraqi Interim Administration. UNSCR 1500--passed August 14, 
2003--welcomed the establishment of the Governing Council. UNSCR 1511--
passed October 16, 2003--authorizes a multinational force under U.S. 
command. All three of these resolutions were unanimously endorsed by 
the U.N. Security Council.
    The administration has worked closely with the U.N. Secretary 
General throughout the past year. Before his tragic murder by 
terrorists, U.N. envoy Sergio Viera de Mello was instrumental in 
establishing the Iraqi Governing Council. Since then we have welcomed 
the proposals of the new U.N. envoy, Lakdar Brahimi, regarding the 
creation of the Iraqi Interim Government. Since the tragic bombing of 
the U.N. Headquarters in Baghdad last August--which Zarqawi boasts was 
his doing and which was clearly aimed at driving out the U.N.--security 
for the U.N. has been a major challenge. However, the U.N. 
representative for Security Coordination's Office has been in Baghdad 
since mid-January. A U.N. Election Commission headed by Carina Perelli 
has in Iraq this month. Ambassador Brahimi has already conducted two 
important missions to Iraq and we look forward to his return next 
month.
    Some say the recent attacks against Coalition forces by Muqtada al-
Sadr's militia signal the start of a major Shi'a uprising that would 
pit Iraq's Shi'a--who are a majority of the population--against the 
coalition. In reality, however, Sadr does not have widespread support 
in the Iraq Shi'a community. A recent ABC News poll showed that only 
one percent of Iraqis named al-Sadr as the National leader they trust 
most. Last week in Najaf, Iraqi residents of that city distributed 
leaflets against Sadr that said: ``We don't want anyone, whoever he is, 
to surround himself with armed bodyguards and return us to an era of 
slavery for the Iraqi people.'' Immediately after al-Sadr urged his 
followers to attack U.S. forces, the Shiite clerical establishment 
issued a statement calling for Sadr to stop ``resorting to violence, 
occupying public buildings, and other actions'' that make him an 
outlaw.
    That is what Muqtada al-Sadr is, an outlaw. He does not represent a 
``legitimate voice'' in Iraq, but rather a threat to the legitimate 
rule of law in Iraq. Immediately after the liberation of Iraq he 
ordered his followers to begin taking over the mosques of moderate 
Shiites. He has been indicted by an Iraqi judge for complicity in the 
assassination of a prominent moderate Shi'a cleric, Ayatollah Abdel 
Majid al-Khoei, in April 2003.
    Muqtada al-Sadr's reliance on armed gangs to deny Iraqi men and 
women their basic freedoms, his use of intimidation and possibly murder 
against his political rivals, and his imposition of vigilante law and 
illegal courts are incompatible with the New Iraq that most Iraqis 
want.
    Some say we have no plan for the scheduled transition to Iraqi 
sovereignty on July 1. Such statements ignore the progress made in our 
discussions with the U.N. over the last 2 months. U.N. envoy Ambassador 
Brahimi just announced on April 14 his general concept for the Iraqi 
Interim Government that will govern from July 1 to early 2005. That 
concept is the product of weeks of consultation by U.N. and coalition 
officials with Iraqis. Ambassador Brahimi remains confident that the 
process of setting up an Interim Government could be completed in a 
relatively short period of time. It is worth recalling that some 
permanent members of the U.N. Security Council complained that CPA's 
plan was moving too slowly to sovereignty.
    As for the shape of the U.S. presence, the Command and Control 
relationships are in the process of being finalized. DOD will create 
the Office of Security Cooperation (OSC) that will be headed by General 
David Petraeus. OSC will consist of the Coalition Military Assistance 
Training Team (CMATT) and the Civilian Police Advisory Training Team 
(CPATT). General Petraeus will have authority and responsibility for 
effectively using available resources and for recruiting, equipping, 
training, and positioning the Iraqi Security Forces.
    Some say the new Iraq will be dominated by the Shi'a majority that 
will inevitably establish an Iranian-style theocracy in Iraq. Although 
the eventual shape of the permanent Iraqi government will be for the 
Iraqis themselves to determine, thus far events on the ground are cause 
for cautious optimism. Over the past 2 months, 17 local elections have 
been held in overwhelmingly Shiite provinces in Southern Iraq. In 
almost every case independents and representatives of non-religious 
parties did better than the Islamists.
    In addition, certain key provisions of the TAL suggest Iraqis have 
already chosen a more tolerant course. First, the TAL reflects a 
unanimous consensus of the Governing Council that includes Shi'ite 
representatives, Sunni Iraqis, Kurdish Iraqis and others. These Iraqis 
embraced a democratic form of government that reflects the principle 
that there shall be neither the tyranny of the majority nor tyranny of 
the minority. The rights, beliefs and practices of all Iraqis are 
protected.
    The TAL also achieves a reasonable balance with regard to the role 
of Islam in Iraq, combining clear guarantees of religious and other 
freedoms with recognition of Islam's role in Iraqi society. Article 
13(F) states that ``Each Iraqi has the right to freedom of thought, 
conscience and religious belief and practice. Coercion in such matters 
shall be prohibited.'' Article 7(A) states that ``Islam is the official 
religion . . . and is to be considered a source of legislation.'' No 
law may contradict ``the universally agreed tenets of Islam, the 
principles of democracy, or the [individual] rights'' granted in the 
TAL. The exact meaning of this will of course have to be worked out in 
practice. But it incorporates the view that the ``universally agreed 
tenets of Islam'' are compatible with democracy and individual rights.
    Some say this administration is leading the American people into 
another Vietnam-like quagmire that can never be won. As Senator McCain, 
former Senator Fred Thompson, and many others have pointed out, that 
comparison is more emotion than analysis. In Vietnam, the Communists 
were an entrenched movement, with a strong nationalist credential, 
external support from two major Communist powers, and a friendly 
population in many parts of the country. In Iraq, the extremism in the 
Sunni triangle represents a small minority of the Iraqi population 
seeking to restore the regime of terror that gripped Iraq for more than 
three decades--plus an admixture of foreign jihadists and Iraqi 
extremists, some of them associated with Al Qaeda. While we do not know 
how much these groups work together--and while their long term goals 
may diverge--they are united in the common purpose of defeating us and 
preventing a free Iraq from emerging. They offer no positive vision to 
Iraqis but only visions of death and terror.
    One possible resemblance with the Vietnam experience, however, is 
the enemy's hope that it can shape perceptions here--demoralizing the 
American people as well as our servicemen and women in the field. That 
was a decisive factor in the outcome in Vietnam. That is why Senator 
Kerry's strong statement that America must stay the course in Iraq is 
so important. That is the message, we in Washington, must convey on a 
bipartisan basis not only to our own people, not only to our servicemen 
and women, but also to the Iraqis, both friend and foe.
    It seems that this message is starting to get through to Bin 
Laden's associate Zarqawi. In the same letter I quoted previously, he 
lamented that America would not be pushed out ``no matter how numerous 
its wounds become and how much of its blood is spilled.'' That is an 
accurate description of this country's courage and staying power in a 
just cause. Conveying that message can shorten the conflict.
                  conclusion: only one option--to win
    Finally, some say there are no good options in Iraq. This is not 
true. In fact, there is only one option in Iraq--to continue moving 
ahead and helping the Iraqi people build a free and prosperous 
democracy. This will not be easy. Only the most naive person would 
think that. It will be a long road. After the abuse it has suffered, it 
will take time for Iraq to catch up even with the new democracies of 
Europe and Asia, much less long-established ones like our own.
    But Iraqis recognize these challenges and embrace them as a 
revolutionary opportunity to build a free nation and to better their 
lives. Recently, Nesreen Berwari, the woman serving as the Iraqi 
Minister of Municipalities and Public Works said: ``On April 9, 2003, 
Iraqis were offered the opportunity to begin to dream their future. 
Before April 9, 2003, we were not allowed to dream. We could not 
imagine life with the kinds of positive challenges we face today.'' 
Minister Berwari's optimism persists even though she recently survived 
a second assassination attempt on her life which killed her bodyguard.
    From the start of the global war on terror it has been clear that 
we would have to face many difficult challenges and endure many 
sacrifices in order to ensure the safety of our citizens and our way of 
life. But as Minister Berwari suggests, these should be seen as 
positive challenges not as excuses for inaction or retreat. When has it 
ever been the American way to back down from such a challenge?
    Last October, in his farewell speech, General John Keane aptly 
described the American character in the face of challenges such as we 
face today in Iraq. General Keane said:

          ``I want to tell you something about this war against terror 
        we are fighting in Iraq and around the world. The foreign 
        terrorists, the Baath Party sympathizers, the Islamic 
        extremists who wantonly kill Americans and innocent people from 
        many nations, have no idea what they are up against.
          Their strategic objective is the political and moral will of 
        the American people. They want to destroy our confidence. They 
        think they know us because they have heard of Lebanon in 1983, 
        or Somalia in 1994, or the U.S.S. Cole in 2000. They think we 
        are morally weak and we will lose our resolve. But their 
        knowledge is superficial and their understanding is shallow.
          To understand America and Americans, they need to understand 
        the Marne in 1918, or Tarawa in 1943, Omaha Beach in 1944, or 
        the Chosin Reservoir in 1950. They need to understand that a 
        nation that produces Alvin York and Audie Murphy; John Pershing 
        and George Marshall; Chesty Puller and George Patton; Randy 
        Shugart and Gary Gordon; produces heroes in every generation. 
        They are out there now . . . performing every day.
          Our enemies are cunning, but they are ignorant and their 
        ignorance will be their undoing. They do not know our will, our 
        courage, or our character.''

    Last summer, a colonel in the 101st Air Assault Division told me 
that he explained the job in Iraq to his soldiers like this: He told 
them that what they're doing in Iraq is every bit as important as what 
their grandfathers did in Germany or Japan in World War II or what 
their fathers did in Europe and Asia during the Cold War.
    Those soldiers are helping to reshape history in a way that will 
make America and the world safer. Like the joint effort to pull down 
Saddam's statue a little over a year ago, our troops are supporting the 
Iraqi people in their effort to overcome their tyrannical past and 
build a better, more peaceful future.
Needed Enhance Authorities
    One of the most important ways in which Congress can support the 
global war on terrorism is to support three special authorities we have 
requested:

          (1) $500 million to train and equip military and security 
        forces in Iraq, Afghanistan, and friendly nearby regional 
        nations to enhance their capability to combat terrorism and 
        support U.S. operations in Iraq and Afghanistan. It is critical 
        that this authority include security forces because the 
        terrorism threat in Iraq is inside its borders. Security 
        forces--not the New Iraqi Army --play the primary role in 
        confronting this threat.
          (2) The Commanders Emergency Response Program ($300 million) 
        to enable military leaders in Iraq and Afghanistan to respond 
        to urgent humanitarian relief and reconstruction needs. This 
        has been a remarkably successful program. With quick turnaround 
        projects averaging about $7,000 each, commanders not only help 
        people in their operations area, but also gain their support in 
        defeating terrorists and building themselves a better future. 
        As we have already done in fiscal year 2004, we propose to 
        expand CERP to Afghanistan, as well as to continue the program 
        in Iraq.
          (3) Increased drawdown authority ($200 million) under the 
        Afghanistan Freedom Support Act, to provide additional help for 
        the Afghan National Army. During this pivotal year, this 
        authority is critical for advancing democracy and stability in 
        Afghanistan. During my visit to Afghanistan, everyone I met 
        gave very high marks to the professionalism and competence of 
        the ANA.

    The President's fiscal year 2005 budget does not request specific 
appropriations for these three authorities, and therefore the 
Department would need to reprogram funding to use them. This 
underscores the importance of Congress increasing the Department's 
General Transfer Authority (GTA) to $4 billion--which would still 
represent just one percent of total DOD funding. Higher GTA also would 
give us a greater ability to shift funds from less pressing needs to 
fund must-pay bills and emerging requirements. As we have seen in the 
past 3 years, such requirements have become a constant feature of our 
military programs.
    This administration looks forward to continuing to work with the 
Members of Congress to help support our Armed Forces throughout the 
world who are doing their part to make American and her people more 
secure. Thank you.

    Chairman Warner. Well, Mr. Secretary, we on this committee 
have the highest regard for General Keane. I hope he is doing 
well.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Thank you, Mr. Chairman, Senator Levin, 
members of the committee. Once again I thank you for your 
unwavering support of our Armed Forces and, more specifically, 
our men and women in uniform as they fight this all-important 
war on terrorism.
    As Chairman Warner said, I just returned from visiting Iraq 
and Afghanistan. Certainly, the spike in violence that we have 
all seen in central Iraq over the last week is a challenge, no 
doubt about it. We mourn every coalition soldier that we lose.
    But I can assure you today that we are as firm as ever in 
our resolve to help create a free, prosperous, a democratic 
Iraq. The violent minority, a small marginal minority, cannot 
be allowed to defeat the hopes of the Iraqi people. This is no 
popular uprising. This violence is a desperate attempt by 
frustrated, isolated groups, such as the insurgents in Fallujah 
described by Secretary Wolfowitz and Sadr's thugs, to derail 
the progress that we are making.
    According to recent polls, as Secretary Wolfowitz said, the 
majority of Iraqi people want Iraq to succeed and their are 
positive about what the future holds, thanks in large part to 
the efforts of our service men and women. I know you all are as 
proud as I am of how well they are performing. They are so 
tremendously dedicated. They understand their mission very 
well. They also understand what a huge difference they are 
making.
    The contrast between our troops and the anti-coalition 
forces they are fighting could not be greater. In Fallujah we 
have seen the enemy unload weapons from ambulances, use mosques 
as operating bases, deliberately put children in the line of 
fire as human shields, and attack innocent civilians 
indiscriminately by firing mortars into marketplaces. Our 
service men and women, on the other extreme, are going to 
extraordinary lengths to conduct the most humane operations 
they can. That means at times we accept greater risk in order 
to avoid civilian casualties.
    Make no mistake, we are hitting the enemy very hard and we 
are devastating them. But our troops are also very 
compassionate. Their strength of character in the end I believe 
will be a major factor in determining Iraq's future.
    I see the same thing in Afghanistan as well, with 12 
Provincial Reconstruction Teams now working on security and 
civil affairs for the Afghani people.
    Let me close by sharing a letter that a member of my staff 
received from a private first class. This young man enlisted 
after 1 year of college. In fact, he was in college on an ROTC 
scholarship. But because after September 11 he saw an 
opportunity to make a difference, he is now serving in one of 
the more dangerous areas in central Iraq.
    He describes how he went on a mission to look at the 
structural integrity of some of the bridges. In the course of 
the patrol, they talked to many of the Iraqis, especially the 
children. They had their medical corpsman take care of the 
children's medical problems. By the time they drove off, 
everyone in the town was smiling and waving at them.
    I will quote, and here is what he said: ``What I am trying 
to say to you guys is this''--and ``you guys'' are his parents. 
``We are making a difference here. An area smack dab in the 
infamous Sunni Triangle, known for its ruthlessness, is 
gradually, patrol by patrol, becoming safe and free.''
    ``Patrol by patrol,'' that means we still have a long way 
to go in this war, beyond the transfer of sovereignty in Iraq, 
as Secretary Wolfowitz said, and elections in Afghanistan. But 
let us not forget that our troops are making a huge difference 
every day, and they know it.
    We are truly blessed with amazing men and women to do this 
important work, and I include in there their families and for 
the Reserve component, the Guard and the Reserve, the employers 
who support them so well.
    Again, I thank this committee for its strong support.
    Chairman Warner. Thank you very much, General.
    Mr. Grossman.

 STATEMENT OF HON. MARC GROSSMAN, UNDER SECRETARY OF STATE FOR 
                       POLITICAL AFFAIRS

    Mr. Grossman. Mr. Chairman, Senator Levin, members of the 
committee, thank you all for the opportunity to testify before 
you today. Senator Warner, I thank you for putting my full 
statement in the record, and I am pleased to summarize what I 
have to say, I hope in a short way.
    Before I begin, let me add my voice to the committee's and 
to my fellows here at this table to pay tribute to all of 
those, military and civilian, who are today serving our country 
around the world and specifically in Iraq and in Afghanistan.
    I also want to thank the committee for their support of the 
State Department, because without your support and without 
Congress's support we would not have been in a position a year 
ago, 2 years ago, to do what we have had to do in Afghanistan 
and Iraq, and I will talk a little bit more about that. But I 
thank you in the very beginning for the strong support of 
Congress for the Secretary's goals in making the Department an 
effective institution.
    I also would like to say, as you did, Mr. Chairman and 
Senator Levin, that we are delighted with the President's 
nomination yesterday of Ambassador Negroponte as our first 
ambassador to the new Iraq and we look forward to his 
confirmation hearings and his confirmation by the Senate. We 
thank you for your words of support to Ambassador Negroponte.
    Mr. Chairman, Senator Levin, in your letter of invitation 
to me you asked me a series of questions about how the 
transition was going to go between the CPA and a new embassy. I 
wanted today to take a few minutes to talk about where we stand 
in that transition and try, as specifically as I can, to answer 
your questions.
    First let me say that in my view we have the guidance we 
need about how to do this. We have the direction we need about 
what we are supposed to do. As I hope to convince you, we also 
have a plan about how to move forward between now and June 30, 
July 1, so that a U.S. embassy and a United States ambassador 
representing the United States of America are there to 
represent us in Iraq.
    Our guidance obviously, Mr. Chairman, as you have quoted, 
comes from the President. Our central commitment, he said last 
Tuesday, is the transfer of sovereignty back to the Iraqi 
people on June 30. It is important that we meet that deadline.
    Our specific direction, as you can imagine, comes from 
Secretary Powell and he has set as the goal of the State 
Department to make sure that we are ready to take on this 
responsibility on the 1st of July. I might also say how proud 
we are of Lieutenant General Kicklighter and also Frank 
Ricciardone who are spearheading this effort for us. Now 
Ambassador Negroponte will come and join us and add effort and 
add focus to this, to the effort that we are making.
    I can tell you that the Secretary's involvement in our 
transition planning continues daily. We send to the Secretary 
each evening a report on what has gone on during the day to 
move issues forward. We are also sending him a weekly 
consolidated summary. To execute our plan we have obviously 
been working closely with all of our interagency colleagues, 
not just DOD and Joint Chiefs of Staff (JCS). We have consulted 
with Congress, with our allies, with our coalition partners, so 
people know what it is that we are doing and how it is that we 
are moving forward.
    As an early step, one of the I think very best ideas of 
Ambassador Ricciardone and General Kicklighter, the transition 
planning team sent out very expert people to Iraq to try to 
tell us what were the main sectors that needed to be dealt with 
in this transition. They came up with 15, 16 sectors that we 
are now moving forward on every day. These sectors are broken 
down into individual tasks or milestones. Every one of them 
needs to be accomplished.
    Although we list on our major charts 15 or 16 of these 
milestones, in fact the sectors relate to more than 500 
milestones that we have. Just to show you that, we have a 
series of charts that we are using to make sure that those with 
the responsibility to do these jobs are doing them. Senator 
Warner and Mr. Levin, I would invite members of the committee 
or members of the committee staff to come and have a look at 
these. They are all on the web and at the State Department on 
our classified systems, and people are welcome to come and look 
at them at any time and see how it is that we are doing.
    There is responsibility, there is a completion date, there 
is a desire to get these things done, and we intend to do them. 
It is obviously a living document. New issues come up each day. 
New responsibilities have to be assigned. But we are doing our 
very best to keep to this plan.
    I would like to take today, of these 15 or 16 items, 4 of 
them just to talk about briefly. First, let me talk about 
people. State Department officers, as both Ambassador Wolfowitz 
and General Myers know, have been in Iraq from the very 
beginning, with General Garner in the Office of Reconstruction 
and Humanitarian Assistance (ORHA) and now under Jerry Bremer 
in CPA.
    We have 170 people in Iraq today. Like Secretary Wolfowitz 
and General Myers, we are also immensely proud of our people's 
work that is being done in Iraq. I can tell you that they have 
come from dozens of Washington agencies, dozens of missions 
overseas, foreign service, civil service, from brand-new 
officers to sitting ambassadors.
    The question we are asking ourselves now is how big will 
this embassy be on the 1st of July, and one of the questions 
you asked me in your letter of invitation. We the State 
Department have so far announced positions for 142 Americans 
employees and 155 locally-engaged staff. In addition, Secretary 
Powell has written to all of his cabinet colleagues asking them 
to identify the contributions that they wish to make to this 
embassy, and to date he has received 10 replies for requests 
for a presence in our mission in Baghdad, for a total of 254 
Americans and 280 locally hired personnel, looking forward to 
the fiscal year 2005.
    Long-term, because these 10 are not the only people who 
will look for representation at the mission, we look for a 
total of between 350 and 400 permanently assigned Americans 
from probably 12 or 15 cabinet agencies that will serve under 
the chief of mission in Iraq. I would also note that a number 
of people who work at CPA today we hope will also move under 
the embassy and allow us to continue with the great expertise 
that they have developed.
    I can also report to you that, of this announced 142 
positions for our new embassy at the State Department, we have 
had over 200 bidders on these jobs. We have not had any problem 
at all enticing people to be assigned to Iraq. Of the 142 
positions that we have announced, we have assigned 97 people, 
another 32 are pending, and we will have all of these people 
assigned well in time to meet our obligations.
    We also, Senators, are starting to begin the process to 
hire locally hired people, Iraqis, which is a big challenge, as 
you might imagine. But we have hired our initial Iraqi 
employees and they are undergoing training here in Washington 
so they can help us then hire more.
    Mr. Chairman, one of the questions that is around and was 
in your letter of invitation was what is going to be the 
responsibility of the American ambassador there, given the 
obviously large military role that will remain in Iraq after 
the 1st of July. I can tell you that the American ambassador, 
once confirmed by the Senate, will carry with him to Iraq a 
letter from the President, as all our ambassadors carry letters 
from the President, that spells clearly his authority.
    It will say that he, as the chief of mission and personal 
representative of the President reporting through the Secretary 
of State, will have full responsibility for the direction, 
coordination, and supervision of all United States Government 
executive branch employees in Iraq, except those under command 
of a U.S. area military commander or on the staff of an 
international organization.
    Of course, as Paul and I have talked about a lot, our 
ambassador and our military commanders will need to work very 
closely together. We do this around the world. We will be able 
to do this successfully in Iraq.
    Mr. Chairman, the second of these areas is security. 
Obviously, our top priority is security. It was our top 
priority before the last couple of weeks. It remains our top 
priority and we have already begun the security upgrade of the 
planned interim embassy buildings and have selected a site for 
a future new embassy compound based largely on security 
features.
    We have 32 officers from the State Department's Diplomatic 
Security Service already in Iraq to define the mission security 
requirements and begin to meet them, as well as to help protect 
CPA officers and visitors. Deputy Secretary Armitage and our 
Assistant Secretary for Diplomatic Security were in Iraq over 
the past few days to continue this consultation.
    Iraq is, not just for our military colleagues, but for us 
as well and for all of our civilian colleagues, a dangerous 
place to work. Our people know that, but it is worth saying out 
loud. Protecting our people in a wartime environment is 
difficult, it is expensive, but we will continue to meet our 
responsibilities.
    Mr. Chairman, also in terms of a building, I have laid out 
in my statement our plan for creating interim facilities for 
the 1st of July and then our plan for building an embassy after 
that. I just want you to know it is there and I am glad to talk 
about it and we are glad to consult about it at any time.
    Then finally is the question of finances, how much is it 
going to cost and do we have the money. Let me just share with 
you the current thinking on the financial resources needed to 
ensure a smooth transition to Embassy Baghdad, and if I could 
just emphasize as much as I can that the costs I report to you 
today are a snapshot. They are where we are on April 20, 
because we have some responsibilities to meet and we believe 
that they will be costly, but we can meet them.
    In order to open an embassy on the July 1, we have to, as I 
said, meet basic security needs, technology needs, housing 
needs, for our people. So far Congress has provided us money 
with which to do some of this job. In fiscal year 2004, we have 
$97 million for an interim embassy facility and interim 
operations. In addition, we expect to have available, in the 
fourth quarter, a portion of the operating expense budget 
appropriated to the CPA--that is about $198 million--and 
pursuant to the fiscal year 2004 supplemental, up to one 
percent of the Iraqi Relief and Reconstruction Fund which could 
be transferred, which is about $184 million.
    We are also now working to determine the joint mission 
costs, which I would say to you are going to be in the range of 
$500 to $600 million for the balance of fiscal year 2004, and 
how we will allocate those costs among the various embassies. 
In addition, we are trying to figure out and look for the 
amount of money that we need to move forward to operate our 
mission in 2005, which could be on the order of a billion 
dollars.
    We are working closely with CPA, with the DOD, the Office 
of Management and Budget, to refine these estimates. We look 
forward to providing you as accurate information as we can and 
we will consult with you and your colleagues before anything is 
made final.
    Mr. Chairman, I have talked in my statement a little bit 
about Iraq's transition to sovereignty, but I think Deputy 
Secretary Wolfowitz, with his charts and comments, has made 
many of the comments that I would have wanted to, and also 
about the Iraqi Interim Government.
    Might I just jump, if I could, to talk for a moment about 
the U.N. Security Council, since both you and the ranking 
member had raised this issue. Obviously, we are looking to go 
for another U.N. Security Council resolution. Both President 
Bush and Secretary Powell have discussed this. We are now in a 
conversation inside the administration about what kind of 
resolution might be appropriate, how to go forward with it, 
when to go forward with it, and the possible elements of that 
resolution.
    As you both said in your statements, the new resolution 
should extend a hand to this new Iraqi government. It could 
also deal in regularized reconstruction activities, including 
the future of the Development Fund for Iraq; deal with the 
continuing need for security to enable the Iraqi people to 
complete the political process. It could encourage other 
nations, as you both said, to get involved on both security and 
reconstruction efforts. A new resolution could structure a role 
for the U.N. in this new political framework, particularly in 
supporting progress towards elections.
    Mr. Chairman, you both, and the ranking member, talked 
about Afghanistan. Let me just be brief, if I could, about 
those two issues since I think they are extremely important and 
we do need to keep paying attention to them. We have tried to 
pursue a policy in Afghanistan that has to do with increased 
security, reconstruction and economic growth, and the growth of 
constitutional, democratic, and effective government.
    These things are all related and as we move forward on one 
and have success on one we believe that they will have positive 
outcome on the others. As you both said, the challenges in 
Afghanistan remain daunting and we need to pay particular 
attention to them.
    You asked me, in your letter, about elections. President 
Karzai announced that elections for the presidency and the 
lower house of parliament would take place in September, and we 
are doing all we can to support the U.N. effort to help the 
Afghans have a successful election. This announcement is 
consistent with Afghanistan's new constitution, which said that 
these parliamentary and presidential elections ought to be held 
together.
    As you said, there was the Bonn agreement, there was the 
loya jirga of 2002, the constitutional loya jirga of 2004, and 
we believe that we can make progress here toward these 
elections.
    The U.N. reports that about 1.8 million Afghans have 
registered to vote as of last week, with registration so far 
focused on urban centers, and the number will rise 
significantly as people reach out to other Afghans. I would say 
just parenthetically that 29 percent of registered voters are 
women and that percentage is steadily rising, and over the past 
2 weeks women have represented 39 percent of those registered.
    Finally, a word about narcotics because, as you say, this 
is a very important challenge to what we are doing in 
Afghanistan. The narcotics production and trafficking is 
probably the single most serious threat to our common mission 
in Afghanistan and, just as you and the ranking member said, 
all indicators point toward a significant increase in poppy 
cultivation this year, and we should make no bones about that. 
This is a real challenge that we are going to have to deal 
with.
    We are working with President Karzai. I know that you saw, 
a couple of weeks ago at the Berlin conference, he called for a 
``jihad against drug trafficking,'' and we are doing all we can 
to fight this problem with him.
    Mr. Chairman, in the carve-up of responsibilities in 
Afghanistan, the United Kingdom has the lead on 
counternarcotics initiatives and between the United Kingdom and 
the United States, we now have a very comprehensive strategy to 
try to deal with some of this problem. The United Kingdom's 
efforts started this month and ours will start the beginning of 
next month. We have put about $40 million extra into a 
government-led eradication program. We are training teams to do 
eradication. President Karzai has set the goal of eradicating 
25 percent of the crop this year and we want to help him 
succeed in meeting that goal.
    Just let me end by saying that, although we have talked a 
lot about Iraq here and Afghanistan has come at the end of your 
statement and at the end of my statement, this is something we 
are paying tremendous attention to and I would be glad to talk 
about this and anything else in the question period.
    [The prepared statement of Mr. Grossman follows:]
                Prepared Statement by Hon. Marc Grossman
    Mr. Chairman, Senator Levin, and members of the committee. I 
appreciate the opportunity to come before the committee today.
    Before I begin, I would like to pay tribute to the men and women 
who are serving their country and the cause of freedom in Iraq. 
Secretary Powell, Deputy Secretary Armitage and I are immensely proud 
of the Americans--civilian and military--who demonstrate the highest 
degree of dedication, determination and courage as they work to bring 
security, democracy and prosperity to Iraq. I also want to thank our 
many coalition partners for their steadfast support.
    Thank you also for your support of the State Department.
    I know that you saw the President's announcement yesterday of his 
nomination of Ambassador John Negroponte to be the first Ambassador to 
the new Iraq. We are delighted.
    Before coming here today, I read closely the letter of invitation 
from the committee. You had these questions: How are we going to ensure 
a smooth transition from CPA to an Embassy? How are we going to put in 
place the right people, resources and organizational structure to do 
the work of the American people, without interruption, on July 1?
    To what kind of Iraqi Government will the American ambassador be 
accredited? What powers will that government have and how will it be 
formed? What is the role of our coalition partners, the United Nations 
(U.N.) and the international community in the weeks and months ahead?
    These are the right questions. They are the same ones that we are 
working through. We do not yet have all the answers. As Secretary 
Powell said earlier this month to your colleagues here in Congress, 
``Creating a democratic government in Iraq will be an enormous 
challenge, but Ambassador Bremer--with the Iraqi Governing Council, the 
United Nations and our coalition partners--is committed to success.'' 
What did the Secretary say next? ``When the State Department assumes 
the lead role this summer in representing and managing U.S. interests 
in Iraq, we will carry on that commitment. We're already thoroughly 
involved, and we will succeed.''
    We have the guidance we need, the direction required, and a plan 
for a successful transition in Iraq. I am pleased to report today on 
what we are doing to establish effective American representation in, 
and support for, the new Iraq.
                       guidance, direction, plan
    Our guidance comes from President Bush. He repeated it last Tuesday 
night. ``One central commitment'' the President said of our mission to 
liberate Iraq, ``is the transfer of sovereignty back to the Iraqi 
people. We have set a deadline of June 30. It is important that we meet 
that deadline. As a proud and independent people, Iraqis do not support 
an indefinite occupation--and neither does America.''
    The President went on to describe that day: ``On June 30, when the 
flag of free Iraq is raised, Iraqi officials will assume full 
responsibility for the ministries of government. On that day, the 
Transitional Administrative Law, including a bill of rights that is 
unprecedented in the Arab world, will take full effect. The United 
States, and all the Nations of our coalition, will establish normal 
diplomatic relations with the Iraqi government. An American embassy 
will open, and an American ambassador will be posted.''
    Our specific direction comes from Secretary Powell. The Secretary 
has set the State Department in motion to support the President's goal 
of a smooth transition on June 30.
    After the Coalition Provisional Authority (CPA) and the Iraqi 
Governing Council signed the November 15 Agreement and established the 
June 30 transition date, the Secretary called Ambassador Francis 
(Frank) Ricciardone back to Washington to head our transition team. In 
his first day on the job, Ricciardone went to the Pentagon to meet with 
his counterpart as the Iraq Transition Team leader for the Department 
of Defense (DOD), LTG (ret.) Mick Kicklighter. Ricciardone and 
Kicklighter head one interagency team.
    Our interagency team has established a cell in Baghdad under 
Ambassador John Holzman. Ambassador Holzman works on transition 
planning and implementation in immediate consultation with CPA 
Administrator Bremer and CJTF-7 Commander General Sanchez.
    The Secretary's involvement in our transition planning continues 
daily. Each evening we send the Secretary a consolidated summary of the 
Department's transition-related activities for the day. The notes 
demonstrate a broad range of interagency, bilateral and multilateral 
requirements, and highlight issues to solve and those resolved. We also 
provide the Secretary a more in-depth weekly report that highlights key 
challenges and the steps we are taking to address them.
    So, following the President's guidance and Secretary Powell's 
direction, we have developed a plan to get us to--and through--June 30.
    To execute our plan, we have and continue to work closely with our 
interagency colleagues, and we consult regularly with Congress and 
coalition partners in Baghdad, in Washington, and in capitals.
                     transition from cpa to embassy
    We are proceeding in close coordination with our interagency 
colleagues and with CPA. This chart demonstrates our path forward.
    As an early step, the transition planning team established teams in 
key sectors which we thought critical to ensuring a successful 
transition on June 30. We also sent assessment teams to Iraq to examine 
the situation on the ground and report their findings.
    These sectors are listed on the chart behind me.
    Each of these sectors is broken down into individual tasks or 
milestones that need to be accomplished. The sectors actually represent 
more than 500 milestones. Behind these milestones are individual tasks.
    Responsibility for each task has been assigned to a particular 
agency or office, and target completion dates have been established. As 
you can see, there is a great deal of green in the individual tasks' 
matrix. This is a living, working document.
    In the personnel sector, for example, there are 26 individual 
milestones that have been identified to date. All but four are 
``green,'' indicating that they are either completed or on schedule. On 
the chart, however, the personnel sector is still yellow. We are going 
to remain conservative in our planning, recognizing that there is no 
room to ``round up'' in this exercise.
    We at the State Department are glad to brief you or your staff on 
any of the tasks represented here. Let me offer full access to our 
Transition Planning Team intranet website to any of your staff willing 
to visit us in the Department of State and use computers with access to 
our intranet.
    Today, I would like to spend a few minutes going into some detail 
on our planning and progress in four key sectors of transition 
planning: people, security, buildings, and money.
                                 people
    State Department officers have been in Iraq from the beginning, 
alongside Jay Garner and ORHA and under Jerry Bremer and CPA. We have 
more than 170 people in Iraq today. These men and women have come from 
Washington and dozens of missions overseas, Foreign Service and Civil 
Service, from our newest Junior Officers to sitting Ambassadors. We are 
proud of their professionalism and sense of service.
    How big will our new Embassy in Baghdad be?
    The State Department has announced positions for 142 American 
employees and 155 locally engaged staff.
    In addition, in January of this year, the Secretary asked his 
Cabinet colleagues to identify contributions their agencies might offer 
in Iraq. To date, 10 agencies have requested a presence in Embassy 
Baghdad for a total of 254 American and 280 locally hired personnel for 
fiscal year 2005. Long term, we estimate a total of 350-400 permanently 
assigned Americans from some 12-15 agencies, other than State, will 
serve under the Chief of Mission in Iraq.
    A number of CPA staff will continue after July 1 in a temporary 
capacity under Chief of Mission authority to ensure the continuity of 
the transition process and support Iraq reconstruction efforts. The 
transition team, working closely with CPA, is currently identifying the 
number of staff that will carryover.
    Thanks to the eagerness of so many State Department people to 
volunteer for service in Iraq, we have made excellent progress in 
assigning them to the future Embassy. More than 200 people have 
requested to be assigned to the new Embassy--many of whom have already 
served in Iraq. Of the 142 Foreign Service positions announced to date 
for Embassy Baghdad, we have formally assigned 97 people. Thirty-two 
more assignments are pending.
    We have also already begun interviewing for the local hire 
positions, and have hired our first employees. These first hires are 
undergoing training here in Washington in order to prepare to help us 
hire others for service in the Embassy. In the short run, however, 
pending the Embassy's ability to bring on all the direct-hire Iraqi 
personnel that we ultimately will need, the Embassy will rely on Iraqi 
and third country staff now under the U.S. Army's ``Logcap'' contract 
to provide many basic support services.
    We have heard questions about the role of the American ambassador, 
given the large military presence that will remain in Iraq after July 
1.
    The American ambassador, once confirmed by the Senate, will carry 
with him to Iraq a letter from the President--as all our Ambassadors 
do--that spells out clearly his authority in Iraq. It will say that he, 
as the Chief of Mission and personal representative of the President, 
reporting through the Secretary of State, will have full responsibility 
for the direction, coordination, and supervision of all United States 
Government executive branch employees in Iraq, regardless of their 
employment categories or location, except those under command of a U.S. 
area military commander or on the staff of an international 
organization.
    Of course, the Ambassador and the military commander will have to 
work closely together to ensure that their respective operations are 
fully coordinated and best serve the interests of the United States in 
Iraq.
    One last comment on State personnel. The response from the 
professional men and women in the State Department has been exemplary. 
Many of those who have asked to serve in the new embassy have already 
served in Iraq over the past year. Without the additional personnel 
made possible through congressional support for the Diplomatic 
Readiness Initiative, we would have been unable to provide this kind of 
support to CPA, or be in such good shape heading for June 30.
    We look for your continued support to ensure that new requirements 
like Iraq are permanently funded to ensure the personnel resources 
remain available to respond to crises.
                                security
    Our top priority is to keep our people safe. This is a dangerous 
mission. We have already begun the security upgrade of the planned 
interim Embassy buildings, and have selected a site for a future new 
embassy compound based largely on its security features. We have 51 
armored vehicles in Iraq and another 98 are on order. These vehicles 
have already saved American and Iraqi lives.
    Thirty-two Diplomatic Security (DS) staff are already in Iraq to 
define the Mission's security requirements and to begin to meet them--
as well as to help protect CPA officers and visitors.
    There are difficult questions related to security still to be 
answered. The Deputy Secretary and Diplomatic Security Assistant 
Secretary Frank Taylor were just in Baghdad to keep trying to answer 
these questions.
    Iraq is, and for some time will remain, a dangerous place to live 
and work. Protecting our people in a wartime environment is difficult 
and expensive, but we must continue to spare no effort or expense to 
meet this challenge.
                               buildings
    Director of Overseas Building Operations Chuck Williams traveled to 
Baghdad in February to complete plans for interim and potential 
permanent mission facilities. We have identified a building in the 
green zone to serve as the Embassy from July 1 until a more permanent 
facility can be established. This building, which we refer to as the 
temporary Chancery, is already under renovation and will be ready for 
occupancy in advance of the transition.
    The temporary Chancery will serve as the office of the Ambassador 
and a limited number of staff. In addition, until we build a new 
Embassy compound, we will continue to use the former Republican Palace, 
where CPA is currently located, for most non-public operations, and we 
will continue to use the current residence that is being occupied by 
Administrator Bremer.
    Most embassy employees will be housed in trailers currently being 
occupied by CPA personnel. We have already contracted for an additional 
75 trailer units to accommodate 150 personnel to ensure that we have 
adequate and appropriate space to house our staff until permanent 
facilities can be established.
    The location of our temporary and potential permanent Embassy sites 
are noted on this photograph of central Baghdad. We have begun the 
planning process to develop a new American Embassy facility.
                           financial outlook
    Finally, I would like to share our current thinking on the fiscal 
resources needed to ensure a smooth transition to Embassy Baghdad, and 
the continued operation of the mission thereafter.
    I need to emphasize that the costs I report to you today are only a 
snapshot.
    In order to open an Embassy on July 1, we must meet basic security 
needs and must make an investment in technology and communications 
equipment. Congress has provided in fiscal year 2004 $97 million for an 
interim embassy facility and interim operations. In addition, we expect 
to have available the fourth quarter portion of the operating expense 
budget appropriated for the CPA ($195.8 million), and, pursuant to the 
fiscal year 2004 supplemental, up to 1 percent of the Iraq Relief and 
Reconstruction Fund, available for transfer ($184 million).
    The State Department must be prepared to cover both its initial 
start-up and operating expenses, as well as follow-on costs from the 
CPA to assure continuity of operations. There are significant 
challenges in the funding demands that we are working are way through, 
and it is clear that we will need to make sure that all agencies cover 
their respective share of joint costs.
    We are now working to determine those joint mission costs which may 
be in the range of $500-$600 million for the balance of fiscal year 
2004 and how those costs will be allocated among agencies. In addition, 
we estimate that the costs in fiscal year 2005 to operate the U.S. 
mission could exceed $1 billion. We are working closely with CPA, DOD, 
and Office of Management and Budget (OMB) to refine these estimates and 
will provide you as much accurate information as quickly as we can. We 
will consult with you and your colleagues before anything is finalized.
                    iraq's transition to sovereignty
    Let me speak briefly about the political process in Iraq, and the 
restoration of Iraqi self-government on June 30.
    Here, too, our guidance and direction is clear. The President, on 
the night he announced the start of Operation Iraqi Freedom, March 19, 
2003 said: ``We come to Iraq with respect for its citizens, for their 
great civilization and for the religious faiths they practice. We have 
no ambition in Iraq, except to remove a threat and restore control of 
that country to its own people.''
    The plan for restoring Iraqi sovereignty is laid out in the 
November 15 agreement. That agreement, signed by CPA and the Iraqi 
Governing Council, called for a Transitional Administrative Law, 
encompassing a basic bill of rights for all Iraqis. The agreement 
called for the selection of an interim Iraqi government to oversee the 
preparation of national elections, and the transfer of governing 
authority to the interim government by June 30, 2004. The agreement 
established a timeline for national elections, the drafting and 
ratification of a new constitution and the election of a government 
under that constitution by December 31, 2005.
    There have been changes since November 15. But the basic framework 
and timeline still holds.
                    transitional administrative law
    The first step was the Governing Council's unanimous agreement on 
the Transitional Administrative Law (TAL) nearly 2 months ago. This 
marked an important achievement. As Secretary Powell said on March 8, 
``Just imagine the impact that this document is going to have, not only 
in Iraq but in that part of the world. The rights of all citizens, to 
include women, committing this Arab nation to democracy; a free and 
independent judiciary; the military firmly under civilian controls.''
    The TAL provides for equal rights for all Iraqis, without regard to 
gender, sect, opinion, belief, nationality, religion or origin. It 
confirms Iraq as a single state with Federal structures, affirms 
civilian control of the Iraqi security services and the independence of 
the judiciary. Finally, the TAL establishes the general framework for 
national elections by January 31, 2005, the drafting of a permanent 
constitution by August 15, 2005 and the transition to a 
constitutionally-based post-transition Iraqi government by December 31, 
2005.
                      the iraqi interim government
    Following the U.N. Secretary General's February 23 report and the 
signing of the TAL on March 8, the Governing Council on March 17 asked 
the U.N. to return to Iraq to advise and assist on forming the Iraqi 
Interim Government and preparing for elections for the Transitional 
National Assembly. On April 5, Ambassador Brahimi returned to Iraq to 
resume intensive consultations with Iraqis for this purpose.
    As President Bush said last Friday, ``We welcome the proposals 
presented by the U.N. Special Envoy Brahimi. He's identified a way 
forward to establishing an interim government that is broadly 
acceptable to the Iraqi people. We thank the U.N. and Secretary General 
Annan for helping Iraqis secure a future of freedom. We're grateful 
that Mr. Brahimi will soon return to Iraq to continue his important 
work.''
    In our consultations with the U.N. and Iraqis, we have made clear 
that while Ambassador Brahimi and Iraqis will chose the specific 
formula for the interim government, there are fundamental criteria that 
must be met.
    First, the interim government should represent the diversity of 
Iraq.
    Second, it should not have a law-making body. The structure of the 
government should be effective, simple and, in order to avoid deadlock 
in the interim period, should not be overly large.
    Third, the process of selecting the government should be as simple 
as possible.
    Fourth, the interim government should have the necessary 
authorities to lead Iraq into the community of nations, undertake 
agreements to push forward economic reconstruction, and prepare the 
country for elections.
    We were pleased by the sketch Ambassador Brahimi provided of his 
proposed way forward and believe his idea fits well with our vision.
    Ambassador Brahimi envisions establishing by mid-May an interim 
government led by a Prime Minister that also includes a President and 
two deputy presidents. A council of ministers would report to the Prime 
Minister. An Advisory Body, selected in July by a National Conference, 
would serve alongside the Executive but have no legislative authority.
    We look forward to further discussions with Iraqis and in New York 
with the Secretary General as we consider the way forward. We also look 
forward to Ambassador Brahimi's return to Iraq in the weeks ahead to 
continue consultations with Iraqis countrywide.
    I would also highlight Ambassador Brahimi's statement regarding the 
central importance of elections. We agree. In fact, the call for 
national elections in early 2005 was a key part of the November 15 
agreement.
    In this regard, we are grateful for the continued work of the U.N. 
election team, headed by Carina Perelli. The team has been in Baghdad 
since late March and is working closely with our officials and experts 
to accelerate election preparations. As Ms. Perelli has said, the 
timeline for elections by January 2005 is very tight. A top priority 
remains establishing an independent Election Commission as soon as 
possible. We look forward to further discussions with the U.N. on the 
way ahead.
                                 unscr
    President Bush and Secretary Powell have both discussed a new U.N. 
Security Council resolution on Iraq. We are considering what kind of 
resolution might be appropriate and are looking at possible elements 
that would be in the resolution. For example, a new resolution could 
extend a hand to a new Iraqi government. It could deal with 
reconstruction activities, including the future of the Development Fund 
for Iraq and with the continuing need for security to enable the Iraqi 
people to complete the political process. It could encourage other 
nations to get involved on both the security and reconstruction 
efforts. A new resolution could structure a role for the United Nations 
in the new political framework, particularly in supporting the process 
towards elections.
                                 july 1
    So, as I sit before you on April 20, what do I think Iraq will look 
like on July 1? There will be an American ambassador, running a large 
but recognizable Embassy. His highly experienced deputy chief of 
mission and country team will include representatives from a broad 
range of USG agencies. There will still be more than 100,000 U.S. 
troops on the ground, helping provide security and train Iraqi army and 
police forces. When the Ambassador drives off to call on Iraqis, he 
will be meeting with the Prime Minister and the President of a 
sovereign Iraq.
    But our work will not be complete. Iraq will still be in 
transition; elections will need to be held; a permanent constitution 
will need to be drafted; economic reconstruction will remain 
unfinished. The United States is committed until we reach our 
objective--a democratic, prosperous Iraq governed by a duly-elected, 
representative government, at peace with itself and its neighbors.
    We have guidance; we have direction; we have a plan. We are already 
executing that plan.
                              afghanistan
    I would also like to take a moment to address your questions 
regarding the political developments in Afghanistan and the threat 
posed by increased levels of poppy cultivation and narcotics 
trafficking.
    On the occasion of President Karzai's visit to Washington in 
February 2003, President Bush joined President Karzai in reaffirming 
their common vision for an Afghanistan that is prosperous, democratic, 
respectful of human rights, and at peace. The two Presidents pledged to 
work together to ensure that Afghanistan is never again a haven for 
terrorists.
    The Secretary of State has worked closely with others in the 
Cabinet--and with support from Congress--in making the President's 
vision a reality. When he was in Kabul last month, the Secretary 
repeated our long-standing commitment to rebuild Afghanistan and help 
establish a democracy that the international community and every Afghan 
can be proud of.
    With guidance from the President and direction from the Secretary 
of State, we have developed a three-fold, integrated plan for 
Afghanistan. Carried out under the guidance of Ambassador Zalmay 
Khalilzad in Kabul, our strategy focuses on security, reconstruction 
and good governance.

        <bullet> Improved security will create conditions for 
        accelerated reconstruction and stronger government;
        <bullet> Reconstruction and economic growth will boost 
        stability and confidence in the government by giving Afghans a 
        stake in a peaceful future and evidence that their leaders can 
        deliver on their promises; and
        <bullet> The growth of constitutional, democratic, and 
        effective government will create a political arena for the 
        resolution of differences and discredits those who would return 
        Afghanistan to the violence of the past.

    While the challenges in Afghanistan remain daunting, we have made 
real progress on all three tracks of this strategy.
    On the security track, the Afghan National Army is already 
deploying to regional hotspots, reasserting the role of the central 
government, and the Afghans are well on the way to fielding 20,000 
newly trained police officers. We and our friends in NATO will continue 
to contribute on the security front. Just last month in Brussels, NATO 
reiterated that Afghanistan would remain its number one priority.
    On the reconstruction track, we are continuing to focus on 
rebuilding the road network linking major cities as well as on building 
schools, clinics and irrigation systems, and creating the environment 
for investment, job creation and economic growth.
    With respect to democratic governance, I am happy to report that 
Afghanistan's regional leaders are beginning to focus less on their 
militias and more on how to compete in a democratic political process.
    Let me now briefly turn to two specific areas that the committee 
noted in your letter of invitation: elections and counternarcotics.
                               elections
    Last month President Karzai announced that elections for the 
presidency and the lower house of parliament would take place in 
September. This announcement is consistent with Afghanistan's new 
constitution, which calls for ``best efforts'' to ensure that 
Parliamentary and Presidential elections are concurrent.
    Afghanistan has already passed three major milestones on the road 
to constitutional democracy:

        <bullet> The Bonn Agreement of December 2001 set an agreed 
        framework for political reconstruction.
        <bullet> The Emergency Loya Jirga of June 2002 inaugurated a 
        representative government, with President Hamid Karzai as 
        President and all major ethnic groups represented.
        <bullet> The Constitutional Loya Jirga, on January 4, 2004, 
        approved Afghanistan's first nationally mandated constitution 
        in 40 years--a constitution that Afghans can be proud of and 
        that can provide a solid foundation on which to build the 
        functioning elements of a stable democracy.

    Elections are now the fourth major milestone, and we are committed 
to working with the Afghans to ensure that they too are successful.
    The U.N. reports that 1.8 million Afghans have registered to vote 
as of last week, with the registration effort focused on urban centers. 
The number will rise significantly in coming months with the onset of 
Phase 2 registration where registration teams fan out into every 
district--to reach men and women of every ethnic group of Afghanistan. 
U.N. data show that many Afghans are traveling significant distances to 
register--a sign of the people's enthusiasm for democracy.
    About 29 percent of registered voters are women, and that 
percentage is steadily rising as the registration process continues. 
Over the last 2 weeks, women have represented 39 percent of those 
registering.
    Meanwhile, efforts are underway to register political parties, pass 
an elections law, and put in place the necessary logistics and security 
to carry out the elections in September. A massive voter education 
effort is also moving forward.
    Some 350,000 Afghan men and women have participated in civic 
education meetings and millions of posters and leaflets have been 
distributed. In coming months, over 1,200 civic education workers will 
be in all provinces working side by side with partners in the NGO 
community.
    Most Afghans have never voted and have had no direct exposure to 
democracy, so this will be a learning experience for the country. It is 
essential that the election not only perform the function of selecting 
leaders, but that it set the stage for future elections by giving 
Afghans an authentic experience of democracy. Equally as important is 
providing a credible electoral process that the world can point to as 
an unqualified success. This requires dedication and resources.
    The U.N. estimates that $224 million will be needed in all, of 
which approximately $160 million has been provided or pledged to date. 
The United States accounts for over $50 million--almost one third--of 
what has been contributed to date.
                            counternarcotics
    Narcotics production and trafficking is probably the single most 
serious threat to our common mission in Afghanistan. All indicators 
point toward a significant increase in poppy cultivation since last 
year.
    We continue to work closely with President Karzai and members of 
his government, and they are firmly committed to fighting the drug 
industry in their country. Two weeks ago President Karzai called for a 
``jihad'' against drug trafficking. He views drugs as a key factor in 
supporting corruption, the warlord militias and other key challenges 
facing Afghanistan. As he said at the recent donors conference in 
Berlin, ``the fight against drugs is the fight for Afghanistan.''
    We are working closely with the United Kingdom, which has the lead 
on counternarcotics initiatives in Afghanistan. We have a comprehensive 
strategy that includes integrating eradication, building law 
enforcement and interdiction capacity, and alternative development. 
Crop eradication initiatives supported by the United Kingdom are 
underway in coordination with provincial governors.
    Next month the United States will begin implementing a nearly $40 
million central government-led eradication program, using a 150-member 
eradication team that will manually destroy poppy crops. An additional 
three 150-member teams will be trained and deployed by mid-June. 
Combined with the eradication conducted by provincial governors, we are 
striving for a goal of destroying 25 percent of the crop this year.
    In Afghanistan, too, we have guidance and direction from the 
President and Secretary of State. We have developed a plan in 
cooperation with our many allies on the ground to help build an 
Afghanistan that is prosperous, democratic, respectful of human rights, 
and at peace. We will stay the course to ensure that Afghanistan is 
never again a haven for terrorists.
    With that I will be pleased to take your questions. Thank you.

    Chairman Warner. Thank you very much, Mr. Secretary.
    We will now proceed to a round of 6 minutes for each 
member.
    My question is going to come down to one sentence after I 
make a preliminary observation. What is the status of the 
American GI on the morning of July 1, 2004? I am going to 
assume that there is an Iraqi Interim Government in place 
following the procedure that you have alluded to today. I would 
like to know, what is the probability of the status of forces 
agreement likewise being in place and what are the guidelines 
that will be followed in writing that up?
    By way of background, I make the following observations. We 
are using interchangeably now the terms that on July 1, 2004, 
there will be a transfer of power to the Iraqi Interim 
Government. Others, including the President, have said there 
will be a transfer of sovereignty. Well, the word 
``sovereignty'' can mean everything.
    So I would like to know, who is going to give that GI the 
orders and what is he expected to do? Now, we have the 
Transitional Administrative Law (TAL) which says as follows: 
Iraqi Armed Forces will be, ``a principal partner in the 
multinational force operating in Iraq under a unified command 
pursuant to United Nations Security Council Resolution 1511.''
    So I go to that, and that is very generalized. By the way, 
that was dated October 16, 2003, and an awful lot of 
developments have occurred since that time. But it generally 
says, authorizes a multinational force under a unified command 
to take all the necessary means to contribute to the 
maintenance of security and stability in Iraq, and so forth and 
so forth.
    I think this has to be updated and clarified, and to the 
extent that you can advise this committee this morning--and I 
put the question to all witnesses: Who is going to give the 
orders to the security forces on June 30, 2004, and should 
there be a difference of views between, say, the U.S. military 
commanders as to what should be done to meet whatever 
contingencies may arise on June 30, 2004, and thereafter, who 
is going to reconcile those differences between the 
professional military and a brand-new government that will have 
been in office for but a day?
    Mr. Secretary, can you lead off?
    Secretary Wolfowitz. I will and I am sure that General 
Myers and Ambassador Grossman can supplement here.
    The question you ask obviously is a crucial one. We have 
spent a lot of time studying it. I would emphasize it is not a 
unique situation. We went through transition to a sovereign 
government in Afghanistan, as I noted earlier, in December 
2001. We have been operating with our forces in Bosnia with a 
sovereign government since the Dayton Accords of 1995. Indeed, 
if you look around the world there are many, many countries 
where you have sovereign governments and American forces under 
American military commanders, not the least Korea.
    Each one of these cases is different. In the case of Iraq, 
the principal authority is in fact the authority that you 
cited, provided by----
    Chairman Warner. I beg your pardon? The what is?
    Secretary Wolfowitz. In the case of Iraq, the principal 
authority is the authority in U.N. Security Council Resolution 
1511, which creates a multinational force to provide for 
security in Iraq until a permanent constitutional government is 
established, which would be the end of next year; and that that 
force is under the command of an American commander.
    As you also noted, the Transitional Administrative Law 
(TAL) has the Iraqi Governing Council placing Iraqi forces 
under that command, as part of that command. In fact, Iraq is 
one of the most important, if not the most important, members 
of that coalition force. That provides enormous authority and 
discretion to our commanders.
    Should there be another U.N. Security Council resolution--
and I think Ambassador Grossman can comment on the likelihood; 
I think it is very likely--we would, I assume, either continue 
that authority or specify it in any further detail if it were 
necessary or useful.
    Further, we have CPA Order No. 17, I believe it is, that 
goes into more detail about the rights and privileges and 
immunities that pertain to foreign forces providing for 
security in Iraq.
    Finally, after an elected government, transitional elected 
government, takes power, takes office next January, and only 
then----
    Chairman Warner. Excuse me, Mr. Secretary. We can get to 
January. I am still worried that, say there is a major 
insurrection that occurs early on in July and our military 
commanders have to decide to the extent that force must be 
applied. We have seen recently in the Fallujah operations where 
there has been some honest differences of opinion between 
members of the Iraqi Governing Council, the current governing 
body, and our military commanders as to the timing, the 
quantum, and the use of force.
    Fortunately, as you say, Fallujah may be taking on a 
brighter status here if these negotiations continue to be 
fruitful. But given military operations, you cannot sit down 
and deliberate over an extensive period of time what to do. You 
have to react and react very swiftly.
    If you are going to give them sovereignty and at the same 
time our military commander, as I believe you are saying, has 
the authority to make those decisions as to how to apply force, 
I see a basic conflict of interest here.
    Secretary Wolfowitz. But Mr. Chairman, the issue, as I 
think your comment correctly implies, is political, not legal. 
We have that issue today with a different legal framework. The 
use of force in someone else's country has always got potential 
political ramifications and political controversy. We have had 
this on numerous occasions with President Karzai's government 
in Afghanistan, and the answer there is you have to be prepared 
to discuss, to negotiate, and also at the end of the day to use 
the authority that is granted to us.
    That I would say describes the way we are proceeding in 
Fallujah. It is the way we will have to proceed until such time 
as Iraq is fully in control of whatever forces are there.
    General Myers, do you want to?
    Chairman Warner. The safety and welfare of the American GI 
may be at risk in a matter of hours if there is indecision and 
a lack of, I think, specific authority as to who can make what 
decisions.
    General, can you address this?
    General Myers. Sure. I do not think I am going to say 
anything different than what the Secretary said, but there is 
nobody that believes, Iraqi or coalition, that on July 1 the 
security situation is going to dramatically change. It is going 
to be what it is and it is going to go over the transition.
    Chairman Warner. Right. Let us hope it improves.
    General Myers. Certainly, certainly.
    Chairman Warner. That is a goal.
    General Myers. But from June 30 to July 1 we do not--there 
is not going to be a change to the security situation, nor in 
the responsibility of the coalition forces, as outlined in the 
U.N. Security Council Resolution 1511, which is the basis for 
our action even today and will be the basis for our action in 
the future, if we do not get a new U.N. Security Council 
resolution, and I will let Secretary Grossman speak to that.
    The way we have structured our military forces for the 
post-1 July period is to have a partnership with Iraqi forces 
that goes from the tactical level all the way up to the 
political level in Iraq, to the ministry of interior, to the 
ministry of defense. The command and control, the command post 
that we will have set up, will be in partnership with Iraqi 
security forces, and that is the way it is set up.
    I do not see a problem with our authorities right now, 
given the TAL, given the CPA mandates, and the U.N. Security 
Council resolution we just talked about. Our forces will have 
the authority and the wherewithal to do what they need to do to 
provide security, as they must, for Iraq.
    Chairman Warner. So irrespective of the word total 
``sovereignty'' or power turn over, General Abizaid or his 
deputies can make the decision to use or not to use force in 
their own judgment? They may consult the government, but it is 
their decision as to how, when, and where to apply force?
    General Myers. That is correct. As I said, I mentioned the 
word ``partnership.'' As we proceed down this path, we want 
this to be more of a partnership.
    Chairman Warner. But partners disagree and you cannot have 
a lot of disagreement.
    General Myers. Right. But I said in the end--or I was going 
to say, in the end, Mr. Chairman, we are going to have to do 
what we have to do.
    Chairman Warner. Secretary Grossman, do you agree?
    General Myers. We think we have the authority to do that as 
well.
    Secretary Wolfowitz. Just as we do in Afghanistan, for 
example, or in Bosnia.
    Mr. Grossman. I have nothing to add except to say, as both 
have invited me to, I certainly believe we will be seeking a 
new U.N. Security Council resolution, and one of the elements 
of it will be to see if we cannot just maintain our authorities 
under 1511, but see if we can get others to join us in carrying 
them out.
    Chairman Warner. So we transfer sovereignty, but the 
military decisions continue to reside indefinitely in the 
control of the American commander; is that correct?
    General Myers. That is correct.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Myers, what options are you looking at should we 
need an increase in the number of U.S. troops in Iraq?
    General Myers. We have done a scrub of forces that could be 
available essentially immediately, in the next few weeks to the 
next couple of months, in case we need more forces. We have a 
fairly extensive list of those forces and the support that goes 
with them, and in the closed session I would be happy to talk 
in a little bit more detail. But we have done that look. That 
has been presented to Secretary Rumsfeld, and we are going to 
continue to refine that list as we look at those forces.
    Obviously, we have set ourselves some administrative 
guidelines to try to protect time home back from overseas and 
so forth and we are looking at that. But we do have forces that 
have been identified.
    Senator Levin. Has the Third Infantry Division been alerted 
about the possibility of an earlier redeployment to Iraq than 
had been earlier planned?
    General Myers. Sir, I will check. Senator Levin, I will 
check. I do not have that list in front of me. Like I say, I 
will do it in the closed session. I do not think so. I do not 
think the Third I.D. has been alerted.
    Senator Levin. Now, prior to the war there was a joint 
staff assessment as to the number of U.S. forces that would be 
needed or expected to be needed 1 year after the commencement 
of Operation Iraqi Freedom. What was that assessment?
    General Myers. The only assessment I know of is that there 
was an assessment done by Central Command, I think before 
combat operations began, which had in September 2003 said: Here 
is what we think the troop strength is going to be. This is 
from the field commander at the time, and as I recall that 
number was somewhere around 60,000.
    I do not know--I will tell you personally I did not believe 
that number was correct, and I do not know that many of the 
Joint Chiefs believed that number was correct. But that was the 
number on a chart that I recall. I do not know how long that 
was the number that anybody was standing up to. That is the 
only number I can ever remember seeing, sir.
    Senator Levin. When you say you did not believe it was 
correct, you mean that it was too low?
    General Myers. I thought it was too low, sure.
    Senator Levin. Secretary Wolfowitz and Secretary Grossman, 
the U.N. is attempting to work out a process through Mr. 
Brahimi where the Iraqis will reach a consensus on the form of 
the entity to whom sovereignty is to be restored on June 30. It 
is important that that deadline be met. I think everybody 
acknowledges that, since it has now been set and it is very 
clearly the expectation. But the challenge is immense in order 
to put the pieces together and to get a broad consensus in Iraq 
among its people for such a sovereign government.
    We are talking about a sovereign government, a government 
to which sovereignty is going to be restored. It is going to 
make critical decisions about who will draft a constitution for 
the people of Iraq and other critical decisions.
    Now, I asked Kofi Annan last week if the pieces cannot be 
put together by June 30, then what? Is there a plan B? He said 
there is no time for a plan B; the only alternative would be 
for the Governing Council to continue until an interim 
government, which has broad support of the people of Iraq can 
be put together.
    Now, we hope that Mr. Brahimi will succeed in putting 
together that consensus. But if he does not, does the 
administration have a plan for what to do?
    Secretary Wolfowitz. Senator Levin, I think it is important 
to understand what this interim government is empowered to do 
and what it is not----
    Senator Levin. I wonder if I could just interrupt you, 
because my time is running out. If you could just----
    Secretary Wolfowitz. It is not in fact picking the people 
to write the constitution----
    Senator Levin. I do not care. I am not asking you what is 
in the plan.
    Secretary Wolfowitz. Its main role is to establish a 
framework for elections so that the government, the 
transitional government that comes in in January, is an elected 
government.
    Senator Levin. I understand that. But that plan for a 
government will draft a constitution, the government that it 
drafts the plan for. But my question is----
    Secretary Wolfowitz. No, it will not. It will provide 
elections for a group that then----
    Senator Levin. I agree, I agree with that. My question to 
you is this: If the pieces cannot be put together by June 30, 
does the administration have a plan for what it would then do? 
That is my only question. Either you have a plan or you do not.
    I know you do not want it to happen. Nobody does. 
Ambassador Brahimi does not want it to happen. Kofi Annan does 
not want it to happen. Everybody wants that interim government 
to be established by the people of Iraq, presumably, that will 
have the broad support of people. But if the pieces cannot be 
put together, my simple question is does the administration 
have a plan?
    Secretary Wolfowitz. There are certainly ways to proceed if 
it cannot be done by July 1. But the reason for keeping so much 
pressure on July 1 is, as I said earlier, it will improve the 
security situation in the country enormously if people stop 
thinking of themselves as occupied, if they have some 
confidence, as we have been able to build out of the Bonn 
process in Afghanistan that Mr. Brahimi also led, the sense 
that there is a road to full and complete elected 
constitutional government.
    But this is a 6-month interim appointed group based on a 
consensus that hopefully Ambassador Brahimi will be able to 
distill out of his many discussions in the country.
    Senator Levin. Thank you. It is important not just because 
it will devise a plan for elections for people who will draft a 
constitution, but for the reasons that the chairman and I have 
mentioned before, is that a sovereign country may be able to 
change the status of forces. Those are our forces and we have 
to make sure that they have the military authority to act and 
that if we put in place a sovereign government that means that 
they presumably would have sovereignty to decide what troops 
can do in their own country. That raises significant issues. I 
do not want to go beyond what you have already said.
    Secretary Wolfowitz. Actually, Senator, that sovereignty is 
limited by the U.N. Security Council resolution that arranges 
for the security issues, as I said to Senator Warner.
    Senator Levin. Thank you. One other question. In response 
to my request from November of last year, Under Secretary Feith 
promised in February that he would provide me with numerous 
documents produced by the Office of Special Plans and the 
Policy Counterterrorism Evaluation Group. I have still not 
received the documents that he promised and I would ask that 
you intervene and get me those documents with him.
    But relative to the Feith office, in August and September 
of 2002, Under Secretary Feith presented a briefing to the 
Secretary of Defense and then after that it was presented by 
Under Secretary Feith to the National Security Council staff 
and the staff of the Vice President, and this is relative to a 
relationship, the extent of it, between Iraq and al Qaeda.
    It was a briefing which was very critical of the CIA, 
disagreeing with the CIA's assessment that there was not a 
strong relationship or a clear relationship between al Qaeda 
and Iraq.
    My question to you is this: Were you aware of the fact that 
that briefing was being given to the staff of the National 
Security Council (NSC) and the Office of the Vice President and 
that the CIA was not aware of the fact that the briefing was 
being given to the Vice President, the Vice President's office, 
and to the staff of the NSC?
    Secretary Wolfowitz. I can no longer recall whether I was 
aware or not. There is nothing unusual, Senator Levin, about 
different staffs in the government discussing material, and the 
material under discussion was in fact material generated by the 
CIA. The issue was how to assess various intelligence reports 
produced by the CIA. Essentially the same briefing was 
presented, I believe, previously to a collection of CIA 
analysts.
    Senator Levin. It was a very different briefing in a very 
critical respect.
    Secretary Wolfowitz. There was one slide that was 
different, Senator; that is all.
    Senator Levin. That one slide was highly critical of the 
CIA.
    Secretary Wolfowitz. That one slide listed some assumptions 
that Mr. Feith's staff thought were at issue. One of those 
assumptions it seems to me in fact has been proven out to be 
wrong. That was the assumption that, because bin Laden was a 
secularist--excuse me--an Islamist and Saddam a secularist, 
they were incapable of cooperating. We have since seen 
evidence--in fact, there was evidence, it turns out, in the 
sealed indictment of Osama bin Laden issued in February of 1998 
that said that bin Laden and Saddam had concluded an agreement 
not to attack one another and to cooperate with each other.
    So I think it was perfectly appropriate to ask the question 
whether one should analyze these reports on the basis of an 
assumption which in fact has turned out to be a false 
assumption.
    Senator Levin. But you were not aware, in any event, of the 
fact--you do not remember whether you were aware that the 
briefing to the Vice President's office and the NSC staff was 
being made without the knowledge of the CIA?
    Secretary Wolfowitz. I think it overstates it to--first of 
all, there is nothing unusual about staff talking to each 
other. The only thing----
    Senator Levin. I am just asking, you do not remember 
whether you were aware of it? That is my question.
    Secretary Wolfowitz. I do not remember, but it is also not 
the dramatic event that I think you are describing.
    Senator Levin. There were additional slides to the one that 
you made reference to.
    Secretary Wolfowitz. One additional slide and I think I 
have described it.
    Chairman Warner. We thank you, Mr. Secretary. Thank you 
very much.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I would like to thank the panel for giving us an update 
this morning. There have been some who have suggested that what 
is happening in Iraq has a lot of parallels with what was 
happening in Vietnam, Secretary Wolfowitz. For the life of me, 
I feel I do not see hardly any correlation at all. I am curious 
to know how you respond to those who try and characterize our 
efforts in Iraq as that similar to what happened in Vietnam?
    Secretary Wolfowitz. I am with Senator McCain. I think 
there is no comparison at all, except I guess it is important 
to say that our soldiers fought with enormous courage in 
Vietnam as well and the enemy's people would be better off 
today if they had won.
    But I think, as I have said in my statement, I think one 
enormous difference--and I hope the killers out there, the 
enemies of democracy in Iraq, have gotten this message--is that 
the debate in this country is not about whether to abandon 
Iraq; the debate is about whether to keep 135,000 troops there 
or to add more troops. That is really where the issue lies.
    The other huge difference is that, without being an 
apologist for Ho Chi Minh or his Viet Cong, they at least made 
credible pretensions to doing something for the Vietnamese 
people. The people that we are fighting in Iraq today are a 
combination of killers who abused and tortured that country for 
35 years and newcomers, some from outside, some from inside, 
like Mr. Zarqawi, who makes abundantly clear in this infamous 
letter that we captured that his goal is simply destruction and 
death, and indeed he thinks that the goal in life is to worship 
death and be willing to sacrifice yourself for martyrdom.
    He sees democracy as the enemy, makes no pretense in fact 
of doing anything other than bringing chaos and instability.
    I think it is important, not only in analyzing the problem 
we are up against, but I would be much more concerned if I 
thought we were dealing with a genuine popular uprising. I do 
not want to--again, I want to be sure not to put on rose-
colored glasses. There is a lot of broad dissatisfaction, 
especially in the Sunni Arab community, partly with the pace of 
progress--and the terrorists have done their best to slow down 
the pace of progress--partly because, after all of this 
historical experience, I think Iraqis believe that it is winner 
take all and if the Shia take all now the Sunnis will be 
abused. It is partly misunderstandings, frankly, more 
misunderstandings than actual fact, about the de-Baathification 
policy.
    We need to work harder and we are looking precisely at how 
to work harder to win back the Sunni moderates. I think they 
are, again, I think the overwhelming majority of that 
community.
    But the basic enemy, the enemies of democracy in Iraq, are 
just killers.
    Senator Allard. General Myers, if you read the papers and 
listen to the TV, I think the impression that tends to come 
across is that we do have a lot of battles and a lot of 
conflicts going on in Iraq. I was over in Iraq about a month 
ago. I saw a lot of good things happening around Mosul and a 
lot of the other towns that I was visiting, a lot of 
reconstruction, a lot of positive things.
    What is happening now with the conflict? Just put a general 
picture over there. I have always perceived that north and 
south was pretty much settled and our real problem was the 
Sunni Triangle. So I would like to have you comment about what 
we are seeing now on TV today and reading in the papers.
    General Myers. Well, in the last couple of weeks what we 
have seen are really two different events inside Iraq. One was 
Sadr and his militia, which is fairly small, sent out or rose 
up in several towns in the south. All those towns, with the 
exception of al-Najaf, where his headquarters is, are back 
under Iraqi and coalition control. Coalition forces and Iraqi 
police are on duty in al-Kut, Nasariya, and the other cities 
where there were uprisings.
    These were small and easily contained because Sadr is 
increasingly being marginalized. He is not a popular figure 
with most Iraqis. He is preaching violence against the 
coalition. He has come out against the Transitional 
Administrative Law, which the Iraqi Governing Council has 
approved. My view is he will continue to be marginalized.
    But he is in al-Najaf and Iraqis are negotiating and 
dealing with him right now, as well as some negotiators from 
the CPA and Ambassador Bremer.
    The other fight was the fight that Secretary Wolfowitz 
described, which are these extremists, which by the way if you 
compare and contrast with Vietnam, they are not fighting for an 
ideology. They are fighting to disrupt progress. They have no 
ideology other than to go back to the terror of the former 
regime, if that is an ideology. So as to why they are fighting 
I think is an important question when you try to compare it to 
other events.
    This occurs in the same area as you pointed out, where we 
have had a lot of our instability. Fallujah has been the heart 
of that. We have been in Fallujah from time to time and then we 
come out. As you remember, we went in because of the atrocities 
on the Blackwater Security personnel, the four personnel that 
were killed and later burned and then hung on the bridge.
    We went in because we had to and to find the perpetrators. 
What we found was a huge rats nest that is still festering 
today, and needs to be dealt with. Right now we are dealing 
with it through negotiations and through a ceasefire. I will 
say that the ceasefire is only on the side of the Marines that 
are in Fallujah. It is not on the part of the folks in Fallujah 
that are the extremists and so forth. They are still firing. 
They are using--just I think it was yesterday or the day 
before, a Red Crescent, the equivalent of the Red Cross, 
ambulance trying to get into Fallujah was stopped and weapons 
were found inside. They are trying to resupply themselves with 
weapons and ammunition. I mentioned the mosques and the schools 
and using women and children. They have done that. That was all 
out of Fallujah.
    So that area is still very, very hot, and that extends into 
Baghdad, by the way. Sadr City is still a problem area, 
although it is relatively calm today compared to when Sadr 
was--those uprisings were going on, about a week ago.
    In the north, interestingly enough, with events in Fallujah 
there were lots of demonstrators in Mosul. The demonstrators 
were dealt with by the Sunni, basically the Sunni government in 
Mosul and the Iraqi police in Mosul and the Civil Defense 
Corps. So it is a very different picture in the north right 
now, relatively stable, economically doing quite well.
    It is the central area that has remained the problem, and I 
could go into it, but I do not want to take any more time. Part 
of it is going to have to be dealt with by military force in my 
judgment. Obviously, a big part of it has to be dealt with, by 
making sure we have a strategy that enfranchises the Sunni 
population, and that is being worked very hard. I spent a lot 
of time on that particular subject in Iraq just recently.
    Senator Allard. Thank you for your response.
    Mr. Chairman, I just want to conclude with this brief 
statement. This last Saturday I happened to participate in a 
welcome home for Bravo Company of the 244th Engineering 
Battalion in Fort Collins, Colorado. This is a local unit. The 
report that came back from our troops verifies pretty much what 
you were saying about the morale of our troops in Iraq. They 
were very proud of what they were doing. They were building a 
lot of infrastructure and they felt like they were really doing 
something to improve the country because they were improving 
the infrastructure, sewer and water and roads, and providing an 
education there.
    One of the comments I think that was made at that was: 
there is a lot of pride and a lot of good morale, people feel 
good about what they are doing. They are professional soldiers, 
but they emphasized time and time again: The American people 
need to stand behind us.
    So I think that that is a message that they need to know, 
is that we are very proud of what they are doing and we are 
standing behind them. Thank you.
    General Myers. Thank you, Senator Allard.
    Chairman Warner. Thank you, Senator.
    Senator Kennedy.
    Senator Kennedy. Thank you. Thank you very much, Mr. 
Chairman.
    General Myers and gentlemen, we all do stand behind our 
service men. But we have some responsibilities to find out 
about the policy and where it is going that is requiring the 
presence of those service men and women.
    Mr. Secretary, I must say I found your presentation here 
this morning somewhat disingenuous. I was here when the 
administration made the case for going to war and the case for 
going to war was the threat that the United States was facing 
from nuclear weapons that were going to be provided to al Qaeda 
by Iraq, and here we have your statement is all about the human 
rights violations.
    Everyone knows that Saddam Hussein is a brute, despicable, 
deplorable, murderer. I will include in the record the State 
Department's filing about human rights violations around the 
world, about what the Chinese are doing to the Tibetans, what 
the North Koreans are doing in terms of torture, forced 
abortions, infanticide, what the Burmese are doing, and the 
rest of the world. I want to make that as a part of the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    There was not a word in this presentation about the weapons 
of mass destruction, in this presentation here this morning.
    Now, Mr. Secretary, you were one of the principal 
architects of war with Iraq. It has been on your agenda since 
the end of the Gulf War, 1991. It is now clear that Iraq was 
high on the agenda of the administration from day one, even 
though the outgoing Clinton administration made it clear in the 
briefings during the transition that al Qaeda was the most 
serious threat to our security.
    Dick Clarke, the former counterterrorism czar, wrote that 
when he raised al Qaeda in the first meeting of the deputies in 
April 2001 you, Mr. Secretary, said: ``I just do not understand 
why we are beginning by talking about this one man, Osama bin 
Laden.''
    At every stage, even after September 11, it seems that you 
treated al Qaeda as less than a main threat, as a diversion 
from the real priority, which was Iraq. In his book Bob 
Woodward says that the administration diverted resources from 
the war in Afghanistan to plan for the war in Iraq.
    Now, we have in the newspapers this morning, the Washington 
Post, ``Al Qaeda intends to strike, officials say. U.S. 
intelligence community believes al Qaeda is intent on launching 
terrorist attacks in this country some time between now and the 
November election.''
    Are we not paying a high price and is not the world paying 
a high price because of the administration's obsession with 
Iraq?
    Secretary Wolfowitz. Senator Kennedy, actually I welcome 
the opportunity to correct the record on some of these things, 
although I would have preferred you had not used that word 
``disingenuous.'' I am trying my best to be candid with this 
committee and with the American people.
    But the notion that an invasion of Iraq has been on my 
agenda since 1991 is simply wrong, sir. Until September 11 I 
thought the problem of Saddam Hussein was something that should 
be dealt with by Iraqis, although I was consistently critical 
of the lack of American support for those Iraqis who were 
prepared to liberate their own country. We will never know, 
because history unfortunately only tells you what happened on 
one course of action, but we will never know whether some of 
our problems today might have been avoided if at earlier times 
we had enabled the Iraqis to do the job for themselves.
    Second, Mr. Clarke's book is just full of gross 
inaccuracies. He has Secretary Rumsfeld attending a critical 
September 4 meeting that the Secretary was not even at. He has 
the Secretary in the Pentagon on a secure videoteleconference, 
a rather dramatic, memorable moment, when the Secretary did not 
turn up until an hour later. He puts quotes in my mouth that 
are about 165 degrees opposite of anything I could possibly 
have said. He is simply wrong when he says that I dismissed the 
threat of al Qaeda or the threat of terrorism.
    To the contrary, Senator, one of the concerns I had, I have 
had for many years, was the question of who did the World Trade 
Center in 1993, the most serious act of foreign terrorism on 
American soil prior to September 11, which it turns out was 
done by the nephew of the man who was the mastermind of 
September 11. There is a straight line from 1993 to the tragedy 
of September 11.
    I was concerned that this was obviously not just a rogue 
bunch of misfits operating out of a mosque in Brooklyn, that 
there was international expertise behind it. When I served on 
the Rumsfeld Commission in 1998, we asked for a briefing from 
the Counterterrorism Center, I did, on who was behind it 
because it seemed to me, correctly, that if we are concerned 
about missile attack on the United States we also need to think 
about a terrorist attack on the United States.
    [The information referred to follows:]

    I was fully aware that the Department was using some of the funding 
that Congress provided to respond to the terrorist attacks on the 
United States, to provide support to counter domestic or international 
terrorism, and to support national security to finance unfunded global 
war on terrorism requirements for U.S. Central Command (CENTCOM). In 
July 2002, CENTCOM identified over $700 million of requirements that it 
said that it needed to fight the global war on terrorism to include 
potential preparatory tasks for a possible war against Iraq. After 
reviewing CENTCOM's request, we considered some of requirements as 
being necessary for the broader war on terrorism, which Congress 
authorized. Prior to the passage of the joint resolution by Congress in 
October 2002, the Department limited the funding for CENTCOM's 
requirements to those projects that were designed to strengthen U.S. 
military capabilities in the region or to support ongoing military 
operations. Thus, we considered these projects to be dual use in 
nature, that is, projects that would benefit overall global war on 
terrorism operations by improving military capabilities throughout the 
areas of responsibility for CENTCOM.
    The Department fully funded requirements identified specifically 
for global war on terrorism military operations against the Taliban and 
al Qaeda in Afghanistan and other areas of the world. Given the 
military successes in Afghanistan, the overall costs of military 
operations for global war on terrorism did decline. In August 2002 
costs were about $1.5 billion and in September costs had declined to 
about $1.0 billion. Some of these savings were applied to CENTCOM's 
$700 million request. Congress recognized the decline in global war on 
terrorism operations and rescinded $244 million of Defense Emergency 
Response Fund (DERF) resources in the Fiscal Year 2002 Emergency 
Supplemental (Public Law 107-206).

    Senator Kennedy. Why did we have the diversion, because my 
time is going? Why did we have the diversion, then, of funds, 
if we are going after al Qaeda?
    Secretary Wolfowitz. Because they are part of the single 
conflict.
    Senator Kennedy. Why are we not going after----
    Secretary Wolfowitz. When Mr. Clarke errs, he says there is 
not a shred of evidence about al Qaeda and Iraq. Excuse me. He 
was in charge of counterterrorism----
    Senator Kennedy. No, but I am talking now about--
    Secretary Wolfowitz.--when that secret indictment was 
issued, and he was in charge of counterterrorism, Senator 
Kennedy, when Saddam Hussein for 10 years harbored Abdul Raqman 
Yassin, who was the only bomber from the 1993 World Trade 
Center event who is still at large. His lack of curiosity about 
why the Iraqis were holding a man who was responsible for what 
in the 1990s was the most serious act of foreign terrorism on 
the United States is a mystery to me to this day.
    Senator Kennedy. We will take all the criticisms that you 
have of Mr. Clarke. Can you tell me why the administration 
diverted funds, though, when we were beginning to target Osama 
bin Laden, had him evidently effectively trapped in Tora Bora, 
and then the administration diverted $700 million out of that 
to go to begin the process or advance the process in terms of 
Iraq? If so, how much responsibility do you bear in that?
    Secretary Wolfowitz. Again, I appreciate the opportunity to 
set the record straight. We did not divert funds. We were----
    Senator Kennedy. My time is up, but I am addressing the 
Woodward issue.
    Secretary Wolfowitz. I would be happy to put it in the 
record. We were very careful in making sure that we applied 
money to the broader war on terrorism that Congress had 
authorized, and we specifically withheld funding for those 
projects that were specifically Iraq-related until after the 
joint resolution passed Congress. We were very conscious of 
Congress's authority in this area and we tried as scrupulously 
as I know how to live up to our obligations.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Kennedy.
    Secretary Wolfowitz. Mr. Chairman, with your permission I 
will submit for the record these points that I would have made.
    Chairman Warner. Correct. Did you have adequate time to 
reply to the important question raised by Senator Levin, 
Senator Kennedy, and myself about that $700 million?
    Secretary Wolfowitz. If I could have a few more minutes, I 
would----
    Chairman Warner. I will give you a minute or 2, because it 
is very much on the minds of all of us.
    Secretary Wolfowitz. In the course of--that $750 million 
number comes from a set of tasks that CENTCOM put together in 
the summer of 2002 as things that they would want to have in 
the event of an Iraq contingency. The DOD Comptroller looked at 
this list with a view to those things that were consistent with 
existing authorities in the settlement appropriations, the 
global war on terror, and to distinguish between those and 
things which would be Iraq-specific, as I said.
    Based on that exercise, in August and September of 2002 
$178 million was made available to support CENTCOM's global 
efforts, including funding for communications equipment, fuel 
supplies, humanitarian rations, and improvements to CENTCOM's 
forward headquarters. All the investments were designed to 
strengthen our capabilities in the region or support ongoing 
operational requirements. No funding was made available for 
those things that had Iraq as the exclusive purpose.
    On October 11, as you are well aware, Congress passed the 
Iraq resolution and, consistent with Congressional statutory 
requirements regarding military construction activities, we did 
notify Congress about $63 million in MILCON. After October 25, 
some $800 million was made available over the following months 
to support Iraq preparatory tasks consistent with that joint 
resolution.
    Chairman Warner. Thank you very much.
    Senator Collins.
    Senator Collins. Secretary Wolfowitz, all of us share your 
admiration and your gratitude to the men and women who are 
serving in Iraq. They are the best that our country has to 
offer. That is why I am increasingly concerned about the strain 
that we are putting on our reservists and our guard members, 
their families, and their employers.
    Now, Secretary Rumsfeld testified recently before our 
committee that only 7 percent of the Guard and Reserve have 
been involuntarily mobilized more than once in the past 13 
years. I have to tell you that has not been our experience in 
Maine at all. I have talked to numerous guard members and 
reservists who have been deployed three times in the last 
decade.
    To illustrate my concern, I want to tell you about the 
specific experience of a specific Reserve unit. That is the 
94th Military Police (MP) Company. This unit has been deployed 
2.5 of the past 4 years. They spent 9 months in Bosnia. They 
have now been in Iraq for more than a year. They originally 
were scheduled to come home last fall. Then the Pentagon 
changed the policy to 1 year boots on the ground, so their tour 
was extended.
    That year expired on Easter weekend and they were literally 
on the bus to their plane to take them back to the United 
States when they got the news that once again they would be 
extended. I have to tell you that this has been devastating to 
the families and demoralizing to many of the soldiers who serve 
in this unit.
    General Abizaid testified before us last year that one of 
the most important things for any soldier to know is when they 
are coming home when they are employed in a combat zone. He 
went on to say, ``We owe those soldiers the answer as to when 
that might be.'' Well, the answer has changed time and again, 
and I am very concerned about what the impact is on these 
troops, their families, and their employers.
    I have three questions for you. First, does not the fact 
that we are repeatedly deploying the same reservists and the 
same members of the Guard over and over again suggest that we 
do not have the right mix of skills in the Army? Second, are 
you concerned that changing the rules and extending deployments 
repeatedly, plus having a very high rate of deployment, is 
going to hurt our ability to retain skilled soldiers such as 
those in this unit? Third, is the Pentagon considering any 
extra compensation for the members of units that have been 
involuntarily extended beyond the year that they originally 
thought they were going to have? Actually, it is even longer 
than that because of the change in policy last fall.
    Secretary Wolfowitz. I will ask General Myers to comment 
also, especially on that last question. But the issue you raise 
is a very important issue. We have been, even before this came 
up with your unit, your military police unit from Maine, we 
knew we had a big problem because of a decision that was really 
made I think 20 or 30 years ago, that we would have--it is 
basically a Cold War military, that could not go to war unless 
we are in a condition where the Reserves were mobilized on a 
massive scale.
    From that flowed a decision to take certain military 
occupations--and military police, which is the unit you are 
talking about, was one of them--and put them almost exclusively 
in the Reserves. As a result, I think the unit from Maine was 
deployed to Bosnia as military police. We need military police 
in every one of these, whether you call it peacekeeping, which 
is not Iraq, or stability operations or low intensity war, 
which is what Iraq is.
    If you are part of that 7 percent that is mobilized more 
often, it does not matter to you that it is only, ``only'' 7 
percent. I think the Secretary was clear about that.
    General Schoomaker has put together a plan that will move 
100,000 positions, shift them from the Active Force to the 
Reserve or from the Reserve to the Active Force, so that we can 
begin to cover these needs in a more balanced way with the 
Active Force, so that we are not constantly going back to the 
same well on reservists for certain occupations that do not 
exist. Military police is one, civil affairs is another. That 
is going to take some time, but it is a major part of the fix.
    The second major part of the fix is to increase the 
effective size of the Army. Now, I said ``effective size'' 
because what General Schoomaker's plan is is focused with about 
a 30,000 temporary increase in Active Army manpower to work 
through a plan, as I think you have been briefed but it is 
worth repeating, that will add at least 10 active brigades to 
the 33 in the Army now, and if we get to that point of 10 and 
think we should go further he has a plan to go to 48, which 
would be a 50-percent increase in the number of active combat 
brigades in the Army with this roughly 30,000 personnel 
increase. That 30,000 increase will be mostly temporary, 
particularly if we top off at 43.
    There is no question it would be nice right now to have a 
larger Army. The problem is if we decided now or a year ago to 
have a larger Army, you cannot just--these people do not just 
walk in. It is not like hiring for a check-writing 
organization. You have to grow the units, and once you have 
grown them if it turns out that you have built up something you 
do not need then you go through the pain of the 1990s of 
demobilizing people who you recruited in.
    So it is something the Army and the civilian leadership 
undertake with some care. I think we have a good plan here that 
gives us a chance to get more combat power into the Army, and 
if we ultimately decide a permanent increase is necessary we 
can do that. But none of that, I am afraid, helps your 
wonderful people from Maine.
    On the question of--let me ask General Myers to speak to 
that. I certainly want to look into whether there are things 
that we can do on the compensatory front. General Myers?
    General Myers. Senator Collins, your first question, does a 
repeated deployment mean we have the wrong mix? As Secretary 
Wolfowitz said, absolutely. We are not structured for the 
security environment we are in. To put a little texture on the 
100,000 that the Army is going to be restructuring, they are 
going to take down field artillery battalions, air defense 
battalions, and turn them into--and others, but those are two 
of the primary ones--and turn those into military police units, 
transportation units, petroleum distribution, water 
distribution units, the kind of units that are in very high 
demand, and also put more of those in the active force.
    That work has already started. It will continue for the 
next 4 or 5 years as we rebalance. It is a very important part 
of it.
    Retention. Clearly, this unit has worked very hard. MPs are 
in high demand. I can remember right after September 11 the MPs 
that showed up at Fort Myer, where I live, to provide 
additional security for the post, and there were some active 
duty for a while, and then pretty soon some Guard and Reserve, 
and sometimes forces that were not trained to be MPs that were 
retrained to come up there and help.
    So clearly we have to do a better job with this whole mix. 
The retention issue is huge. I would only say that as we look 
at recruiting and retention this mission is so important that I 
think these people, besides being disappointed, their families 
being tremendously disappointed, and their employers being 
disappointed, what they are doing is so important that I hope 
that that along with other incentives will convince them to 
stay with us.
    This is an important time to serve. I think they realize 
that. They are terrific men and women, as most of these MP 
companies are.
    The third point was extra compensation, and absolutely, we 
are. Within our authorities, we have authority for providing 
extra compensation and for those that are going to be extended 
past the 1 year. We call it, boots on the ground in Iraq. There 
will be additional compensation.
    Senator Collins. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thanks, gentlemen, for your service and for your testimony.
    I agree with what has been said both by members of the 
committee and Secretary Wolfowitz that, and all of you, that it 
is important to look back so that we move forward with success. 
But I am sure that all of us also agree that the emphasis has 
to be on looking forward and moving forward with as much 
success as we can achieve in Iraq and more broadly in the war 
on terrorism.
    The second thing about looking back is that if you spend 
too much time looking back at the various paths that you took 
to get to where we are now we may lose sight of the fact that 
we are all heading in the same direction, that as we focus on 
the now and the future in Iraq I see a very heartening 
consensus emerging, certainly among the American people and 
particularly in the American political leadership community. I 
think we ought not to hold ourselves back from seeing that, 
because it is a source of strength.
    I have not heard anybody in a responsible position, 
certainly no one on this committee, call for a withdrawal or a 
retreat from Iraq. Whether that is because we feel, as I do, 
that the war was a necessary and noble undertaking in pursuit 
of our values, our security, or whether we feel, whether some 
feel that because we are there now, departing hastily would 
cause chaos in Iraq and the region, endanger American security, 
embolden the terrorists--everyone in a position of authority in 
American government, regardless of party, wants to win in Iraq, 
and it is very important for observers not to be confused 
either by the very healthy questioning that goes on at a 
hearing like this or by the crosscurrents of an American 
political campaign.
    We are together in this. It is important that the American 
men and women in uniform understand that we are not only behind 
them--of course we are; they are our sons and daughters, our 
neighbors, our brothers and sisters--but that we are behind 
them in a quest for victory.
    It is very important also that the rest of the world, 
including particularly our enemies in Iraq, understand that. I 
was very pleased that Senator Kerry in a statement last week 
made quite clear that no one in the world should be under the 
impression that the outcome of the American election this 
November will alter the basic thrust of American policy on 
Iraq.
    That policy has drawn closer. People have moved. As you 
said, Secretary Wolfowitz, the debate now is not over whether 
to withdraw troops; it is how many troops to add to secure the 
situation. There has been debate over, as we look back, about 
the extent to which we should have and could have involved the 
United Nations or NATO. The fact is we are involving the United 
Nations now and trying to involve NATO more.
    So that consensus is important through all of the comment 
and controversy to recognize, because it is a source of our 
strength, and it is very much in line with the quote that you 
read from General Keane.
    I want to ask a few questions. First, I want to say, 
General Myers, that I was heartened to hear that the 
administration, the Pentagon, is looking at alternatives for 
sending more troops into Iraq in the short term, because as we 
approach June 30 and the period afterward leading up to 
elections obviously our enemies, the fanatics, the terrorist 
insurgents, the Saddam remnants, will seek to disrupt the 
movement of progress and freedom, and it is very important for 
them to understand that. I am encouraged by that.
    I understand, and I also took heart from the President's 
statement at his press conference last week, that there are 
discussions going on with NATO about the possible increased 
NATO involvement in peacekeeping. I should say not increased, 
but NATO involvement in peacekeeping. It has not been before, 
either on the borders or in the section of Iraq now overseen by 
the Polish forces.
    Secretary Wolfowitz, can you give us any update on that, on 
those discussions with NATO?
    Secretary Wolfowitz. I would be happy to. I want to thank 
you, Senator Lieberman. You have shown extraordinary leadership 
on this issue over more than 10 years. What you just said about 
the message to the Iraqi people and to the enemies of democracy 
in Iraq, that they should not confuse debate in this country as 
a lack of will, is a very important statement.
    I was in Najaf last July and I was struck at both the level 
of confusion about our politics, which I think I could 
straighten out, and the level of paranoia about whether we 
would abandon them as they, I think with some justification, 
felt we had done in 1991. On the latter point, the question 
came in the form of: Are you Americans just holding Saddam 
Hussein as a trump card over our heads? It sounds like 
paranoia, but if you have been through what they have been 
through it is not so paranoid.
    I was delighted a couple weeks later when we could tell 
them: Well, we have the two sons and we are after the father. 
It was a huge event in December to have captured Saddam 
Hussein. It will be an even bigger event, frankly, Senator, 
when a new Iraqi government has the legal authority to try him 
and bring him to justice.
    Senator Lieberman. I agree.
    Secretary Wolfowitz. As early as December 2002, I spoke to 
the NAC in Brussels and proposed a range of possibilities for 
the alliance role in Iraq, including the use of NATO collective 
assets, the provision of support services for those allies who 
would participate, and, most of all, a NATO role in postwar 
humanitarian and stability operations.
    The alliance did decide to play a role. It has provided 
planning and other support services for the Polish division 
which is in the critical central-south area, to include force 
generation, planning, and communications support. We have 17 of 
the 26 allies with us and 7 partners.
    We are asking NATO to look at ways it could expand its 
contribution, including to assume leadership of that 
multinational division currently led by Poland, to possibly 
provide an additional multinational unit led by NATO, and to 
provide additional logistics support for coalition operations. 
Of course, any decision in that regard would be a political 
decision that would have to be taken by allies.
    I do think in this regard, a successful transition to a 
sovereign government in July, hopefully another U.N. Security 
Council resolution might ease some of the concerns, at least of 
some of our allies, about joining in that kind of consensus 
decision. NATO, as you well know, is an organization that 
operates on consensus and there are limits to what it can do 
when only--only--17 of 18 or 19 members are supporting 
something.
    But I think it has already made a big contribution. We 
would like to see more.
    Senator Collins. Thank you.
    General Myers.
    General Myers. Senator Lieberman, can I just add onto that? 
In terms of Afghanistan, I think NATO has over 6,000 forces in 
there and they are responsible, sir, for the security in Kabul. 
They are doing a very good job of that. They want to expand 
their responsibilities. They have the ambition to expand their 
responsibilities, in Afghanistan by establishing some NATO-led 
Provincial Reconstruction Teams. There are a couple right now. 
There is one led by the Germans. We are in discussions with the 
Italians on another one. New Zealand has one. The Brits have 
one.
    We are looking at others. It remains to be seen whether 
they will have the resources to do that, but that is their 
ambition. That is what we are in discussions on with them. It 
is a long way from Europe, but they understand the importance 
of that and I am optimistic, as Secretary Wolfowitz is, that 
beyond their role of providing the force generation capability 
for this Polish division in the center-south region of Iraq, 
that perhaps they can play a larger role in the future.
    Senator Lieberman. That is very encouraging. I thank you 
all.
    Remember--there have been discussions about comparisons to 
Vietnam. Remember that there is a doctrine, a military doctrine 
that emerged from Vietnam that bears the name of the current 
Secretary of State, the Powell doctrine. Generally applied, it 
is to make sure that we do not ever go into combat again 
without all necessary forces.
    Mr. Chairman, I thank you. My time is up. I do want to say 
that I hope the committee will focus on the end of Secretary 
Wolfowitz's statement where he calls for three enhanced 
authorities, which I would guess that we will all agree on one, 
for $500 million to train and equip military and security 
forces in Iraq, Afghanistan, and friendly nearby nations, to 
enhance their capability to combat terrorism; second, 
commanders' emergency response program to enable military 
leaders in Iraq to respond to urgent humanitarian relief and 
reconstruction; and third, an increased drawdown under the 
Afghan Freedom Support Act to provide additional help for the 
Afghan National Army.
    I hope, in the spirit that I began my statement, that 
together we might on this committee take the lead in responding 
to those requests as rapidly as the urgent circumstances on the 
ground require.
    Chairman Warner. Senator, we will do that. I think I share 
with you the importance of those requests.
    Senator Sessions.
    Secretary Wolfowitz. Thank you very much for that last 
intervention.
    Senator Sessions. Thank you also, Senator Lieberman, for 
those excellent comments.
    I would like to join with Senator Collins in her concern 
about guard units that have been extended. We have an MP unit 
from Alabama that has been extended and I know how painful that 
is for family members who were on the verge of expecting them 
home. But we trust, and we will be in contact with you as we go 
forward, that this was required.
    One of the great strengths of America is that we are self-
critical. We have heard today a litany of mistakes. We have 
been hearing about how many errors we made prior to September 
11. But I would like to make a point or two that I think must 
be made, and that is we need to recognize how much progress has 
been made to date on the war on terrorism, which President Bush 
told us from the beginning would be long and difficult, years 
in effect, and he stated that.
    But there have been a number of accomplishments. Pakistan, 
when confronted and challenged, it was playing footsy with the 
Taliban and al Qaeda, chose to be with us and the civilized 
nations, and making a big difference in the world right now. 
That is a great nation that chose to abandon terrorism.
    The Taliban chose wrongly. They rejected our call and they 
have been removed from power, and al Qaeda bases in Afghanistan 
have been eliminated and their leaders, the ones that still 
exist, are hiding in caves somewhere in the mountains.
    Saddam Hussein failed the opportunity he had to avoid 
military action and he has been removed from power, found 
hiding in a cave, a hole in the ground, like the rat that he 
is.
    Libya has come in now and renounced terrorism after that 
event, and Muamar Qadafi actually appears to be seriously 
wanting to join the civilized nations of the world.
    Abdul Khan, the Pakistan scientist who was involved in 
proliferation of nuclear technology to North Korea, to Iran, to 
Libya, has confessed and told what he was doing. While we were 
signing treaties prohibiting that, he was doing it. That 
activity on his part was ended as a result of military action 
and encouraging leadership by the President.
    Most unexpected and most blessed to date is we have not had 
another attack on this country. I would not have thought that 
was possible, that we would have gone almost 3 years without 
another attack. I know that we can expect our elections to be 
in danger, that some will try to disrupt that and maybe achieve 
a Spanish result. But I do not think the American people will 
lose their poise if that were to happen. Pray God it does not.
    These are not mistakes. These are accomplishments. No war 
comes out like you expect it completely. It is no doubt that we 
are facing today a troubling surge of violence in Iraq. The 
Iraqi people have had a history--have not had a history of law 
and order or representative government. The severe oppression 
under which they have suffered has clearly scarred them, 
keeping emotions raw, paranoia widespread, and fear high. Their 
history has been that the winner, the leader, is the one who 
uses violence and power to achieve power.
    Thus, as that government formation moves forward there 
remains a window of opportunity for these terrorists, these 
violent guys who want to take control of this country by power, 
to seize power. There is a window of opportunity for them. They 
are using every tool at their disposal, fomenting hatreds, 
distorting religion, and utilizing violence to create 
instability.
    Our challenge has proven difficult indeed. I had hoped 
things would be doing better now. The war went better than I 
ever thought it would go and this has been more difficult in 
recent weeks than I expected for sure.
    We have made progress in a number of areas in Iraq, as you 
have stated. Our goal, a free, stable, and prosperous Iraq, is 
noble and important for us and the world and the war against 
terrorism. The President, this Senate by over a three-fourths 
majority, and the American people have set the goal. No one 
wants to achieve it more than you do, the members of this 
panel. No one knows the situation better than you. You are 
tireless and dedicated to this goal.
    My advice to you is to stay the course, stay fixed on the 
goal, and continue to be flexible. Every war throughout history 
is different from the ones preceding it. Adjust as you go, 
learn from the situation, keep your eye on the goal of a free 
and prosperous Iraq.
    There is going to be a lot of difficulties as we go 
forward. There will continue to be unexpected difficulties. But 
if we keep our poise and our head about us I believe we can 
make it.
    The critics and second-guessers are vocal. Those who say 
thanks for the accomplishments and who pray daily for our 
troops are not so visible, but they are many. This will test 
the American people and Congress.
    Prime Minister Tony Blair has said, however, that it is our 
destiny at this time in history to lead. Our soldiers must know 
we support them completely. So despite the naysayers, we will 
meet the challenge, I believe, that is before us. The whole 
world for decades to come will benefit from our constancy and 
courage, and I salute you for it and I particularly salute the 
men and women in uniform who are putting their lives on the 
line to make this a safer world and a better Iraq.
    General Myers, I understand General Petraeus will be going 
to Iraq. If you would tell us when you expect him to arrive and 
what ideas you may have for strengthening the local police and 
security forces that I believe is critical to our long-term 
success, and what if anything this Congress can do to help you 
achieve that goal?
    General Myers. Senator Sessions, thank you for your tribute 
to our men and women in uniform. As Secretary Grossman pointed 
out, there are lots of other men and women from lots of 
different countries, some wearing uniforms, some not, that show 
a great deal of courage in that country day in and day out.
    As far as General Petraeus, I think he is in country now. 
He was certainly going to arrive this week. I think he has 
arrived. He will be--he comes off a very successful tour as the 
division commander of the 101st Division. They were in northern 
Iraq. He showed a great deal of innovative thought in how he 
worked with the local governance in that area, helping to 
improve their economies, and so forth, and did a terrific job, 
I think in everybody's estimation.
    He is going back to work security cooperation. The Defense 
Department has the responsibility for all security forces, 
which include the Iraqi police, the New Iraqi Army, the border, 
the Civil Defense Corps, and the Facilities Protection 
Services.
    As Secretary Wolfowitz said, we have not equipped them as 
fast as we needed to do, and that is one of the issues that we 
have to work. I think we have solved all the hurdles that we 
either had here in Washington or in Baghdad. Those hurdles have 
been solved. We have contracts. Equipment is arriving. I have 
seen the--there is in fact a very good British officer that 
showed me the plan for equipping the police, great detail in 
terms of equipment and where in the country and so forth. They 
have it mapped out. We have the resources to do that. We have 
just got to follow through.
    We have to continue the training of all these forces. In 
particular, the police have undergone some training, but there 
is a large number of police that have not been trained. We need 
to do that. Then once they are trained and they go to their 
individual police stations, what needs to happen is they get 
the proper mentoring, because in some cases the leadership may 
not be all that good in these police stations. So you get one 
of these recruits that has been trained and you have to keep 
their enthusiasm up and keep them on the right track.
    We have civilian police from around the world that the 
State Department is organizing, that is to do that, that task.
    Then I think General Abizaid is exactly right. As he has 
said I think many times and that we are now saying, and 
Secretary Wolfowitz said earlier, they have to feel like they 
are responding to Iraqi authority. We have to connect those 
dots between the local police station and the province on up to 
the ministry of interior in Baghdad and to the political 
leadership that will stand up 1 July.
    That part has yet to happen, but there are efforts under 
way to make all that happen. I think what Congress has done to 
ensure we have the funding for the equipping and training of 
these forces right now is adequate, and it will just, it will 
take some time. It is certainly going to take beyond 1 July.
    We think by the end of this year that we will have clearly 
the majority of these forces properly equipped and trained and 
in the field and connected to their command authority, if you 
will.
    Senator Sessions. Well, General Petraeus did a great job 
with the 101st in Mosul and I think a lot of us have confidence 
in him, and we want to support you in that effort.
    General Myers. Thank you. He will do very well.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Mr. Secretary, you urge us all to show will and resolve and 
you emphasized that by those very compelling letters from those 
young privates and captains who are showing will and resolve. 
But around here in Washington the usual measure of will and 
resolve is the budget, and when General Schoomaker, General 
Jumper, and General Hagee were here they said that without a 
supplemental appropriation by October 1 they could be running 
out of money in critical accounts for this operation. 
Commentators like Anthony Cordesman have suggested there is a 
$50 billion hole that has to be filled by a supplemental.
    When will the Department of Defense show its will and 
resolve by sending a supplemental up to Congress?
    Secretary Wolfowitz. Senator Reed, if we think one is 
necessary, when we think it is necessary. We had a session with 
the same chiefs that you quoted, I think about a week ago, to 
precisely address where we stand with this process. What 
happens is as you go through the year certain accounts start to 
run short because you are spending more money on them than you 
planned, and clearly the unanticipated higher level of 
deployment leads to some accounts being overspent and you hear 
about that quickly.
    Other accounts spend slower than was planned and they start 
to have surpluses there, and I can assure you people do not 
come running down the hall with their hair on fire to tell you, 
I have a surplus in my account.
    We have a process called the mid-year execution review, 
which is conducted by the DOD Comptroller. It is under way now. 
As a result of that meeting with the Secretary, we have speeded 
up the schedule by a week so that if there is a problem we can 
identify it sooner rather than later and come for help if we 
need it.
    One kind of help we really do need and that is general 
transfer authority. In fact, at the end of my testimony those 
three points that Senator Lieberman pointed out--I also said 
that most of all in this kind of wartime situation where you 
are dealing with unpredictable events it is important to have 
more rather than less flexibility.
    I think we asked for $4 billion, which is 1 percent of our 
budget, last year and it was cut by roughly half. The more 
flexibility, the sooner we can rebalance accounts. Of course we 
can reprogram. That takes time. But the sooner people know that 
money is going to be available from an account that has a 
surplus into an account that has a deficit, the better we can 
manage the resources we have.
    The bottom line, though, Senator--and I think you and I 
agree on this--is the troops need to have what they need and we 
need to make sure they do.
    Senator Reed. Well, I think the bottom line, Mr. Secretary, 
is you need a supplemental up here. This is not a shortage of 
several billion dollars. This is a growing shortage and, as you 
point out, when the chiefs testified the anticipated force 
level would be 105,000, not 135,000 as it is today.
    General Myers, is it your professional judgment that there 
are adequate resources without a supplemental to continue 
operations without seriously harming other important Defense 
Department programs?
    General Myers. Senator Reed, we are evaluating that right 
now. I have to withhold judgment for just a little bit more 
time. Obviously the extension of the First Armored Division, 
the Second Light Cavalry Regiment, and their combat support, 
combat service support is going to increase our costs. The 
operations tempo is also higher. So we know that we have 
additional costs that we have to find funding sources for.
    We also know there will be execution issues with some of 
our acquisition systems and so forth. So I think we need to 
wait until the OSD Comptroller can look at these, these issues, 
before we can have a firm decision. We thought before, with 
what the services were identifying as shortfalls, that we could 
bridge the gap between, for the last month of this fiscal year 
and cover our expenses. I think we just have to ensure 
ourselves that is still true given the higher expenses that we 
have right now.
    Senator Reed. General Myers, another issue has become 
relevant in the last few days, certainly since the terrible 
attack on the contractors in the Fallujah area. That is the 
huge number, 20,000 estimated, of armed security contractors. 
This presents a problem today, but it certainly will present 
even a greater problem after July 1. What rules of engagement 
will they operate under in this new sovereign Iraqi entity? Can 
an Iraqi minister of interior hire 200 former Special Forces 
for his own private army? What is their status?
    This is to me a startling departure from previous doctrine 
of using these contractors in security positions. What is your 
view and what are you going to do about it?
    General Myers. What we are doing about it is providing 
Central Command and General Abizaid and General Sanchez with 
the policy guidance that will allow them to handle this issue. 
You raised the questions. We do have a lot of contractor 
support, not only in the security area but also in a lot of our 
logistics capability--truck drivers.
    Senator Reed. Relatively noncontroversial.
    General Myers. Right. But still it raises issues as to 
their status, their arming, and so forth. You are right, the 
security forces are probably the--and we are providing that 
guidance to Central Command so they know how to handle this 
situation.
    By the way, I would just say parenthetically that when I 
was there one of the issues I looked at was the coordination 
between the coalition military forces and security forces. I am 
assured there is a pretty robust mechanism for security forces 
inside Iraq to make sure that they have the latest intelligence 
or information and that they share information back and forth.
    I was a little bit worried about that after the Blackwater 
issue in Fallujah and some of the things I heard about that. I 
think General Sanchez and his folks do a pretty good job of 
that.
    Senator Reed. Just a final point. My time has expired.
    General Ikenberry conducted a report or a review of 
security forces several months ago. We have been endeavoring to 
obtain a copy of that report, if it is classified certainly 
under those classified terms. It seems to me unfortunate that 
it takes us weeks and weeks and weeks to get reports which you 
have acknowledged, both the Secretary and uniformed leadership, 
exist, that you have, that you reviewed, and that we cannot get 
access in a timely way.
    I just think it is unfortunate, more than unfortunate. I do 
not think it is appropriate. Can you assure us that we will get 
access to this report within days?
    Secretary Wolfowitz. I will check on that, Senator, and I 
can not assure you. I will do my best to see if it is 
appropriate--
    Senator Reed. Why can you not assure me, Mr. Secretary? 
This is a report that was prepared by an officer in the United 
States Army to inform the Department of Defense, but also this 
is the Armed Services Committee. We should have access to those 
reports in a timely fashion. If they are classified, we can go 
up to 407. We can read them under the circumstances and the 
classifications.
    It seems to me this is unacceptable that you, the Deputy 
Secretary of Defense, say: I will try, but I cannot promise you 
you will get a report.
    Secretary Wolfowitz. Senator, we try to give you everything 
that we can. We also have to make sure that we manage the whole 
process of reports like this and reviews like this so that 
people give us candid opinions. Quite frankly--
    Senator Reed. Well, no; we deserve a candid opinion, Mr. 
Secretary.
    Secretary Wolfowitz.--we put a lot of effort into getting 
this Ikenberry mission out there against some people who did 
not really want to have people looking and examining how we 
were doing. Lessons learned are a wonderful thing. We need to 
do lessons learned. We also need to manage and we need to 
manage between the Executive and Congress in an appropriate way 
so that people do not begin to fear every time someone comes 
out to do an Ikenberry report or to do an assessment or do a 
lessons learned it is time to shut up and not give them any 
information because the next thing you know----
    Senator Reed. Mr. Secretary, that is totally unfounded. We 
are constitutionally required to supervise the activities of 
the DOD. We have just as much of a right to get this 
information as you do. You seem to be saying we do not. You 
seem to be saying that we cannot get access to reports prepared 
in the course of business of the DOD. Is that what you are 
saying?
    Secretary Wolfowitz. Senator, I will do my best. I have not 
looked at this issue. I would like to get you the report. If I 
can get it for you----
    Senator Reed. What you seem to be saying, Mr. Secretary, if 
you do not want the contents of that report disclosed to us, 
you will not get it for us. If those contents are embarrassing 
to the administration, you will not get it for us. If those 
contents suggest that the problems we saw 2 weeks ago were 
understood or anticipated or should have been----
    Secretary Wolfowitz. Senator, that is not the issue. Please 
do not do that.
    Senator Reed. Well, what is the issue, Mr. Secretary?
    Secretary Wolfowitz. The issue is how to protect the 
decisional processes that I think are in the country's 
interest, the candor that is required in pre-decisional 
documents, and the equally important responsibility to keep 
Congress informed. I believe that you can see this report, but 
I do not know.
    Senator Reed. Mr. Secretary----
    Chairman Warner. Senator, I must say there are seven 
colleagues waiting. It is an important issue. Senator Levin and 
I will address the issue.
    May I also thank you for bringing up the question on the 
contractors. General Myers, that is a matter that is before the 
committee for review right now, because they are providing an 
absolutely essential service, not only to our security side but 
the logistics side. We have to do what we can, particularly 
those that have affiliation with the coalition partners.
    Senator Reed. Mr. Chairman, I appreciate the fact--I 
apologize to my colleagues. This is an astounding statement by 
the Deputy Secretary of Defense, saying that if he wants us to 
get the information he will give it to us, but if he does not 
he will not.
    Secretary Wolfowitz. This is not a personal thing, Senator 
Reed.
    Senator Reed. It is not for any legal reason----
    Secretary Wolfowitz. I think you know that there are issues 
about what documents are pre-decisional and what things need to 
be shared. Let us be clear. The Ikenberry report is something I 
did personally push for because I thought it was important to 
have a thorough examination of this issue, and it met some 
resistance because people are afraid sometimes to have things 
examined.
    I said, and I repeat, I will do my best, if I am 
permitted--it is not me personally--to make that report 
available to Congress.
    Chairman Warner. Senator Levin and I are now reviewing, in 
the context of some requests by Senator McCain, the committee 
and others, as to how we are going to work out a smoother and a 
more understandable exchange of information.
    Senator Reed. Mr. Chairman, would you indulge me for one 
moment?
    Chairman Warner. Yes.
    Senator Reed. My understanding is that reports that are 
prepared by the DOD are classified and that, subject to those 
classifications, people have access to it. I assume we have a 
sufficient clearance level on this committee to have access to 
the report I am talking about and probably everything that is 
prepared at the DOD. If I am in error----
    Secretary Wolfowitz. Senator Reed, I am going to do 
everything I can to get you the report. I just did not want to 
promise something I am not sure I can deliver. I will do my 
best.
    Chairman Warner. Senator Reed, we just simply have to move 
on in fairness to my colleagues and your colleagues on both 
sides here.
    Senator Cornyn.
    Senator Cornyn. Thank you, gentlemen, for being here today.
    I for one agree, I believe, with the comments of Senator 
Lieberman and Senator Sessions and those who have associated 
themselves with the importance of this committee conducting 
proper oversight, and particularly in dealing with matters that 
are of present concern and planning for the future. I think we 
are at our best when we do that. I think we are at our worst 
when we look back and try to dissect lessons learned while we 
are still at war in the battlefield. That unfortunately, 
particularly in a supercharged political environment leading up 
to a November election, I think is not as constructive as we 
could or should be in dealing with the present and plans for 
the future.
    But unfortunately, in this environment when questions are 
raised and statements are made and not responded to, or when 
the context of the answer is not made clear, unfortunately that 
has to be addressed. So it is in that context that I want to 
ask two questions.
    Over the weekend we heard some unfortunate claims, one 
related to the $87 billion supplemental that I wanted to ask 
you about; and one goes to the very nature of the conflict that 
we are currently engaged in in the war on terror. The first 
question I have involves the $87 billion supplemental that 
Congress passed to fund the war on terror. It was said this 
weekend that even the generals in Iraq said that moneys in that 
bill had no impact on their ability to continue to fight. It 
was also said that that vote would never--that vote would never 
have prevented, that is a negative vote against that 
supplemental, would never have prevented any of the body armor, 
ammunition, or anything from getting to our troops.
    Now, I had heard that statement earlier and it caused me to 
ask in another hearing, a SASC hearing at which the Vice Chief 
of Staff of the Army, General Casey, appeared. I asked him 
about that $87 billion appropriation and if it had not passed 
what the consequences would have been to our troops. He was 
unequivocal. He said: ``This supplemental appropriation has 
enabled us to significantly increase the protection for our 
soldiers throughout the theater of Afghanistan and Iraq.''
    I asked him: ``If Congress had not stepped up and funded 
the $87 billion supplemental, that would have meant or resulted 
in increased casualties as a result of the failure to provide 
those up-armored high-mobility multipurpose wheeled vehicles 
(HMMWVs) and body armor?'' General Casey agreed that: ``It 
would have meant more casualties or the Army would have had to 
gut the Army budget to find the money to do this, that is pay 
for the body armor or up-armored HMMWVs by other means.''
    My question for you, Secretary Wolfowitz and General Myers. 
Did the $87 billion supplemental have an impact on the ability 
of our men and women to fight and win the war on terror in 
which we are currently engaged?
    Secretary Wolfowitz. Senator Cornyn, I cannot imagine how 
we could continue conducting operations without that 
supplemental. It not only provided for basic operations, but it 
also provided substantial amounts for things like body armor 
and up-armored HMMWVs and various force protection measures.
    There were two different pieces of the supplemental, of 
course. There was the roughly $67 billion that goes directly to 
our troops, which is absolutely indispensable. Then there is 
the $18 billion, $18.6 billion of reconstruction funds, which 
are spending slower, but they are already having an impact. I 
think it is very important. As we said in testifying on the 
reconstruction funds, that money can help to create Iraqi 
security forces that can take the place of Americans. That 
money can help to create a positive political environment 
inside Iraq that will make our forces safer.
    So really the whole $87 billion I think--and it covers 
Afghanistan as well--was essential to this war on terror.
    Senator Cornyn. General Myers?
    General Myers. Really, I do not know how I can add anything 
more to that. That supplemental is absolutely essential to our 
ability to operate in Iraq and Afghanistan. Secretary 
Wolfowitz, I think we approved $750 million for force 
protection initiatives alone and we can do more if required in 
that regard.
    But the general just paying for our operational tempo, if 
we did not do that General Casey would be right, you would gut 
the Army budget, and not only the Army budget but the Air Force 
and the Marine Corps and the Navy budgets as well. So it is 
absolutely essential to our operations.
    Senator Cornyn. This last week I was at the Red River Army 
Depot, where they are providing additional armor or metal 
containers essentially to upgrade HMMWVs for additional armor 
and protection for troops currently in the battlefield. It is 
that kind of additional protection which I believe has led to 
the greater security and greater likelihood of success of our 
troops in the field.
    My only other question really relates to the nature of the 
conflict in which we are engaged, in which at least count I saw 
we had 135,000 troops currently in Iraq fighting this conflict. 
It was said this weekend again--a reiteration of an earlier 
claim--that the war on terrorism is not primarily a military 
operation, but that it is an intelligence-gathering, a law 
enforcement, and public diplomacy effort. Now, I disagree with 
that completely and I believe that indeed treating the war on 
terror previously, after we had been attacked, after the World 
Trade Center bombing in 1993 for example, as a criminal 
investigation and a law enforcement matter, as we have seen 
before the 9/11 Commission, has led to insecurity and 
endangered American lives because of the lack of information-
sharing, among other things.
    But I would just ask your response, Secretary Wolfowitz. Do 
you agree that what we are engaged in in Afghanistan and Iraq 
is not primarily a military operation, but is rather an 
intelligence-gathering, law enforcement, and diplomatic 
mission?
    Secretary Wolfowitz. Senator Cornyn, I think that I 
resisted these comparisons initially when people said this is 
like the Cold War, it is going to be as long as the Cold War 
and as difficult as the Cold War, in the immediate aftermath of 
September 11. Increasingly, I think it has all those 
characteristics and then some, and it requires all the elements 
of national power, as the President has said over and over 
again, including military, including intelligence, including 
law enforcement, including diplomacy, including economic 
assistance--all of those things working hand in hand, 
reinforcing one another.
    The fact is that one of the biggest successes in the 
intelligence-law enforcement arena in this war on terrorism was 
capturing the mastermind of September 11, Khalid Sheik Mohamed, 
in Pakistan. I would note, by the way, for those people who say 
we were diverted by Iraq, it was done the month before 
Operation Iraqi Freedom that we captured this villain.
    But we would never have gotten him in Pakistan if he were 
still hiding in Afghanistan, if they still had that sanctuary. 
It is important to take the sanctuaries away from these people. 
At least in the case of Afghanistan and Iraq, it could not have 
been done except by military means.
    But then we see the case of Libya, where the military 
without doing anything plays a critical role in supporting 
diplomacy, which achieved an enormous amount, in part thanks to 
some great work by the intelligence people that uncovered what 
Qadafi was doing.
    So all these things have to work together. That is point 
number one. Point number two: I really do think, if there is a 
single lesson from September 11, to me it is that we cannot 
wait until after the fact to find the perpetrators of events, 
of terrorist acts, and either bring them to court or bring them 
to trial, or if they are foreign countries punish them with 
some kind of cruise missile retaliation. We have to do 
preventive action.
    Preventive action in the last resort may sometimes be 
military. But when I say ``preventive action,'' I mean on a 
very broad scale. I think one of the most important kinds of 
preventive action we could be undertaking as a country, and we 
are starting to--I would like to see us do more--is to help 
countries like Pakistan that are trying to redo their education 
system, so that instead of breeding terrorists in these 
madrassas that preach nothing useful and a lot of hatred, young 
poor Pakistani children can go to a school where they learn how 
to succeed in the modern world.
    So all of those instruments are necessary. It is a very 
broad effort. It is a big mistake to suggest that it can be 
narrowed.
    Chairman Warner. We thank you, Senator.
    Senator Cornyn. Thank you. My time has expired.
    Chairman Warner. We thank our witness.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Secretary Wolfowitz, I am a little confused about the 
development of the security forces within Iraq. It was my 
understanding that what we were going to do is build up the 
Iraqi security forces, therefore we could take down our 
presence militarily because of the increasing capacity of the 
Iraqis to support themselves for their security needs.
    I thought I just heard you say that by staffing the Iraqi 
security forces we would make it safer and we would be able to 
do that. Then I thought I heard you earlier say that they were 
having trouble because they needed stronger leaders and they 
need to fight for Iraq and they need more and better equipment. 
I am a little confused about that, but I suspect you and I can 
resolve that, that confusion.
    What I would like to do is to give you an idea and see how 
this fits with where the plans for the Iraq political 
transition would fit in. I have been advocating for some time 
that at the point of handover on June 30 that the new sovereign 
government at that point would ask the U.N. to help with this 
transition, this governmental transition from the interim to 
the transitional and then the constitutional government, by 
helping them develop and carry out free elections; and that the 
new sovereign government would then ask the NATO countries to 
come in and NATO as a group to come in and provide security--
not the United States asking for another U.N. resolution.
    We have not had a great deal of success in getting other 
countries to come in and I do not believe we are going to get 
the U.N. to come in until there is security. It seems to me 
that we can decide the chicken or the egg here and we say that 
both have to be accomplished at the same time, the U.N. come in 
and NATO come in, which I hope would reduce our presence, which 
I am going to ask General Myers to give us some idea of what 
additional NATO forces we might receive.
    I thought I heard that the administration's approach, from 
Secretary Grossman, is for us to ask for U.N. help. I have met 
with ambassadors from Germany and France and run this by them 
and they did not make any commitment, of course, but they did 
not say no to considering whether if the new Iraqi government 
would ask, which would be different than an occupying force or 
an occupying presence such as the United States represents 
right now, which is creating some of the consternation between 
us and other countries.
    Secretary Wolfowitz. Some good questions. If I could go 
back just briefly and see if I can clarify what may have 
sounded like confusion. I do not think it is. I think the 
difference lies in when Iraqi security forces can actually 
assume the role we would like to see them assume.
    I would also like to stress, the most important thing is 
not so that we can reduce our numbers, although that is clearly 
something we would like to do, but even more important so that 
we can have Iraqi forces out in front and on the streets. Just 
to give you one important, obvious example, if you have to go 
into a mosque because it is being used as a military base, and 
we have had that happen, having Iraqis go in and do that kind 
of work is much, much better.
    Senator Ben Nelson. Are they doing that?
    Secretary Wolfowitz. They are in some cases, and in some 
cases we do not have them. As you might expect, the results are 
generally better when they can do it.
    Now, we never thought that by this April they would be 
ready to operate independently, and the report Senator Reed was 
asking about was in fact stimulated by my concern that things 
were not moving as fast as they should have. I think we have 
found through General Ikenberry's efforts some ways to speed 
things up, and it is important.
    But particularly when in some cases they were literally 
outgunned by the enemy, then it is not surprising that they had 
problems. There are other problems, leadership problems, 
training problems. I think it is the right course. We should 
not--we should push it, we should push it faster. We should not 
assume success until we have success.
    On the question you asked about other countries, and 
particularly NATO and NATO countries, contributing, Ambassador 
Grossman or General Myers might want to add to this, but I 
think, first of all, one reason why we would very much like to 
see this transition take place on July 1--and I cannot stress 
enough times, from a political point of view the last thing you 
want is to be undergoing a transition like this in the middle 
of an American political season. But from a military point of 
view and an Iraqi security point of view, the sooner you have 
an Iraqi government that can ask allies to come in, the better 
off we will be. The sooner we have an Iraqi government that can 
try Saddam Hussein, the better off we will be.
    So that will be a step forward, number one. Number two, I 
do think there are quite a few countries who are not going to 
come in until it is safer to come in. They may say it is the 
lack of this or the lack of that or this U.N. resolution or 
that. The fact is this is not peacekeeping; it is combat. Until 
it becomes peacekeeping, a lot of countries are probably going 
to still stay on the sidelines.
    Finally, some countries have real capabilities and others 
do not. The country that has the potential to have real 
capability is Iraq itself. In pure numbers they are now the 
largest member of the coalition. In number of people killed in 
action, it is over 250 Iraqi police and Civil Defense Corps and 
Army have been killed fighting for a new Iraq.
    Senator Ben Nelson. In the line of action?
    Secretary Wolfowitz. In the line of duty, since June 1. It 
is second only to the United States. It is not a number I want 
to see grow on either side, but they will probably--who knows. 
I should not predict. But they are up there fighting. The 
better we equip them, the better we train them, the more they 
will be fighting. It is their country; they should fight for 
it.
    Chairman Warner. Thank you very much, Senator.
    I wonder, Secretary Grossman, would you like to contribute 
to this important question?
    Mr. Grossman. Yes, sir, just in a----
    Senator Ben Nelson. If I might ask, it was because I heard 
you say that we would secure a U.N. resolution as opposed to 
the Iraqi government doing it. That is what caused me some 
confusion about the timing.
    Mr. Grossman. Senator Nelson, if I could, I think as we 
have all of us here today paid tribute to those people who are 
contributing in Iraq, I think it is worth noting that, although 
the U.N. left in large numbers after the murder of Brahimi, I 
give great credit to the people who, on behalf of the U.N.--
United Nations Childrens' Fund (UNICEF), World Food Program--
local Iraqis have continued to work. I think it is worth saying 
that, in terms of our immunization program and our food 
programs, without UNICEF, without World Food Program, we would 
not be able to accomplish that task.
    Second, I think that it is important to know that the Iraqi 
Governing Council, along obviously with the CPA, invited 
Ambassador Brahimi to come back. It is the Iraqi Governing 
Council that has invited this very admirable Ms. Pirelli who 
works on elections for the United Nations to come back.
    So I agree with you completely that I would hope that in 
the 1st of July a new interim authority, a new interim Iraqi 
government, would be very much welcoming further United Nations 
help and support, and we will be there with them.
    In terms of seeking a Security Council resolution, I would 
imagine from all that I have heard from Iraqis they would 
seek--they would welcome a Security Council resolution. But I 
do think that that is some of the responsibility that we take 
on as permanent members of the Security Council. So I think if 
we drive forward for it, it is a good thing for us, I am sure 
Iraqis will support it.
    Chairman Warner. Thank you very much, Senator.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Warner. I just observe to one of your responses, 
Mr. Wolfowitz, the sooner the Iraqi government gets in the 
sooner they can invite other nations to join. But let us make 
it clear from what you said, once they join and contribute 
forces, it is the Commander in Chief, the President of the 
United States, that has control over the use of those forces. 
Am I not correct?
    Secretary Wolfowitz. Absolutely. We can repeat it multiple 
times. It is very important.
    Chairman Warner. Everybody talks about giving sovereignty. 
You look at the definition, it is everything. It is 
sovereignty, but the security remains clearly within the 
control, as we have stated, with the U.S. President on down.
    Senator Dole.
    Senator Dole. Secretary Wolfowitz, there have been charges 
that the war on Iraq took our focus off of al Qaeda and the war 
on terror as a whole. Just like you, Mr. Secretary, I found the 
memo written by captured al Qaeda operative Zarqawi to be very 
interesting and compelling. In noting concern that the 
Mujahadeen may lose its foothold in Iraq, he wrote:
    ``There is no doubt that our field of movement is shrinking 
and the grip around the throat of the Mujahadeen has begun to 
tighten. With the spread of the army and the police, our future 
is becoming frightening.''
    Can you elaborate on this memo and its significance, 
please?
    Secretary Wolfowitz. It is pretty amazing. When I first 
read it I wanted to make sure that we were absolutely certain 
this was not some forgery that someone had presented to us 
hoping to get paid for it or otherwise manipulate us. I have 
been assured multiple times that, no, the circumstances of our 
obtaining it were that we captured it off of a senior terrorist 
who was carrying it, I think in the form of a computer disk, 
from Iraq back to Afghanistan, and it was in response to 
apparently a query from Mr. Zarqawi's al Qaeda friends in 
Afghanistan as to whether they should send people to Iraq.
    I think it is important to emphasize, since it is a strange 
name and, even though Secretary Powell spent some time talking 
about Mr. Zarqawi at the U.N. in February of last year, I am 
surprised how often people are completely unaware of who he is. 
He is not some local figure. He ran a terrorist camp in 
Afghanistan, a training camp, for a number of years when bin 
Laden was in charge there.
    We use the word ``al Qaeda-associated,'' I think primarily 
because we are not sure about whether he has formally pledged 
allegiance to bin Laden, whether he to some extent runs his own 
operation. But it is a substantial operation. It is credited 
with being involved in planning terrorist plots that were 
broken up in London, in Paris, and one that was pulled off 
successfully in Casablanca.
    He is a world terrorist. He has murdered probably, we 
believe, our diplomat in Jordan, Ambassador Foley. He is wanted 
under a warrant in Jordan for attempting to assassinate a 
senior Jordanian official. In fact, when the Jordanians went to 
the Iraqi government in 2002 to ask to have him extradited, he 
miraculously just disappeared.
    This man, we have been surprised, frankly, at the extent of 
his network in Iraq or the size of it. It is not a few tens. It 
seems to be at least some scores of people.
    But what is most striking in that letter that you cite is 
the length in which he describes this sense of desperation. He 
even uses the word ``suffocation'' at one point, in part 
because--and I think I quoted it in my testimony and I will 
paraphrase it--the Americans, he says, the most cowardly of all 
peoples, are not going to leave no matter how many wounds they 
suffer.
    It is interesting. Though he calls us cowardly, he 
understood that we are not. He understood that we are not 
leaving. Therefore he lays out, his strategy has to be--and he 
seems to have a sense of desperation that he needs to do this 
before there is a sovereign Iraqi government, although he does 
not use precisely that phrase.
    The strategy has to be to promote chaos and division in 
Iraq by attacking four targets he identifies: the Iraqi 
security forces, the Kurds, the Americans, and most importantly 
the Shia. That seems to conform with both the attacks we saw in 
Irbil, two suicide bombers who blew up some 150 people in an 
horrific incident; and then, even more significantly, the 
attacks on the Shia population in southern Iraq.
    I think that the exposure of that letter plus our offensive 
operations that have captured by now more than 30 of his people 
may have set him back. The exposure of the letter I think 
helped to make sure that the Shia understood that if there were 
more bombings he was the man responsible.
    I guess I would just like to conclude with this point, the 
only comment I would make on Senator Sessions' eloquent 
intervention earlier. One of our great assets I think is the 
sheer evil of our enemy. They attacked us on September 11 
believing that we would be divided and that we would retreat. 
They failed. They attacked Indonesia and Bali, believing this 
would cause the Indonesians to waver and weaken, the 
Australians to pull out, because mostly Australians killed. 
They failed.
    They attacked synagogues in Istanbul and the British 
Cultural Center in Istanbul, thinking that this would divide 
Turkish Muslims from Turkish Jews and Turks from British, and 
they failed.
    With the unfortunate exception of Madrid, they have failed 
time and time again. In Saudi Arabia, May 12, they attacked an 
American compound, residential compound, in Saudi Arabia. It 
has led to the largest, most successful crackdown on al Qaeda 
that we have--up until May 12 we were not successful in getting 
the Saudis to undertake.
    Most importantly, they have attacked innocent Iraqis, 
innocent international aid workers, innocent Kurds, Shia, and 
Sunni alike in Iraq, and I think they are failing. But we have 
to keep at it to make sure they do.
    Senator Dole. Thank you.
    Mr. Secretary, I would like you to respond to another 
quote, please. This time, George Shultz in an excellent opinion 
piece in the Wall Street Journal just recently, and I quote: 
``The most important aspect of the Iraq war will be what it 
means for the integrity of the international system and for the 
effort to deal effectively with terrorism. The stakes are huge 
and the terrorists know that as well as we do. That is the 
reason for the tactic of violence in Iraq. The message is that 
the United States and others in the world who recognize the 
need to sustain our international system will no longer quietly 
acquiesce in the takeover of states by lawless dictators who 
then carry on their depredations, including the developing of 
awesome weapons for threats, for use, for sale, behind the 
shield of protection that statehood provides.''
    Would you comment on the significance of this statement as 
it relates to what you have seen in Iraq and what you are 
seeing?
    Secretary Wolfowitz. I think I remember reading that whole 
article.
    Senator Dole. Excellent.
    Secretary Wolfowitz. Mr. Chairman, if I could add it to the 
record of this hearing. It is, as most things that George 
Shultz does, it is a terrific piece.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Secretary Wolfowitz. In my less eloquent way, let me just 
say I think what he points out correctly is that you cannot go 
after terrorist networks and ignore what states do to support 
terrorism. I mentioned earlier in my testimony this division of 
the Iraqi International Service called M-14 that was the so-
called Anti-Terrorism Section. It was not anti-terrorism. These 
are the people who developed over many years the kind of 
explosives expertise that was then handed off to terrorists. 
These are the people who conducted their own assassinations, 
who today in Iraq are allied with terrorists.
    To simply say, well, Saddam Hussein harbored Abu Nidal and 
Abu Abbas, but they were not al Qaeda, it seems to me ignores 
the basic point that, given what we saw on September 11 and 
given what we know terrorists might do with even more terrible 
weapons, we simply cannot afford--we have to have a zero 
tolerance policy. We can no longer afford to have states in the 
business of using terrorism as an instrument of national 
policy.
    Hopefully, we can get the world to change without having to 
undertake one military operation after another. But I think 
there is no question, as Secretary Shultz says in that article, 
that what happened to the Taliban and what happened to Saddam 
Hussein is a very salutary lesson for other states that may be 
tempted to continue on that course.
    Senator Dole. Thank you very much. My time has expired.
    Chairman Warner. Thank you very much, Senator.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Books like this are amazing to me, how high-level people 
will reveal their supposedly top secret information or disclose 
proceedings at the highest level meetings. I guess my colleague 
Senator Reed has left, but if we want to get some of these 
documents he was requesting from the Deputy Secretary of 
Defense I think we should ask Mr. Woodward to get us copies, 
because he seems to get everything quite readily.
    But one of the other insights I got from reading through 
this is that--I and I think the people who elected me and sent 
me to Washington delude ourselves that we have some, in the 
Senate, some legitimate and constitutional role, and then to 
find out how contemptuously we are regarded in the executive 
branch, starting with the President himself, who was quoted as 
saying here in a meeting where Senator Levin, who was then the 
chairman of the Armed Services Committee, referenced some deep 
concerns that the U.S. military had just prior to the 
resolution. The President said: ``It would be nice if they''--
meaning the military--``expressed their reservations to the 
President, rather than just someone in the Senate.''
    But it goes beyond that. In my reading of this book, it 
goes clearly into the duplicities and the deceptions that were, 
and misrepresentations, that were made to Members of Congress. 
Those who want to look at--those who are preventing others of 
us from looking at the misuse of intelligence information 
before the congressional resolutions were adopted and 
thereafter should look at what was said, according to the 
quotes in this book, to Members of Congress by highest 
administration officials, that are even more emphatic in their 
representations of intelligence information that turned out to 
either be erroneous or intentionally misrepresented.
    I find it just horrifying. So when we get into these 
matters of the lack of legitimacy for anyone to question 
anything that has been decided, anything that has been done or 
has not been done, anything that has been represented, that has 
been found to be totally untrue, and find once again, as we 
have in other times in history, that anybody who raises those 
questions is guilty of either failing to support our Armed 
Forces, whose heroism is beyond belief and description, which 
we all recognize--and those of us who have been there, who have 
seen them, have talked to their families, those who are over 
there now, who are anxiously awaiting to find out whether their 
loved ones are coming back alive or not, those who are not 
coming back at all, those families--to have it be suggested 
that any of us here lack that support because we are raising 
questions about what decisions were made and what pretexts were 
given for entering into this war and what has transpired since 
and what happened in the last weeks--and the statement at the 
conclusion, Mr. Deputy Secretary, of your remarks that if they, 
meaning the--well, I will read the whole paragraph here:

        ``The enthusiasm of Iraqis to go into combat along side 
        the coalition is also colored by their perception of 
        our commitment to the new Iraq. If they sense that we 
        will not see them through to a new constitution, an 
        election, and strong Iraqi institutions, we should not 
        be surprised to see them melt away or even work a deal 
        with those who would shoot their way to power. That is 
        why it is so important in this time of stress to show 
        that our commitment to their freedom is rock solid.''

    Mr. Secretary, I can only speak for myself. I am not going 
to presume to speak for others. But my commitment to their 
freedom is rock solid, my commitment to our troops is rock 
solid, and that is exactly why here we should have had the 
opportunity, and we have had very limited opportunity, to find 
out the realities of the military situation. Rather, we have 
been given a series of just glossy overstatements of what 
transpired over the last year and how bad Saddam Hussein is, 
which we know.
    The fact that there are not any weapons of mass destruction 
and that our Armed Forces are now, as the ranking member said, 
suffering greater casualties than at any other time--what we 
hear is that, well, he is a really bad man, he is a really 
really bad man.
    That is not the point here. The point is we have a right to 
know and we should be told what is going on over there in 
factual terms, in military terms. I have sat through now most 
of the last 3 hours and watched other parts of it on television 
to find out that virtually nothing has been said. So I find 
this extremely disappointing, but I find it a continuation of 
this attitude that Congress is just to be duped and basically 
led along to this and the less that is presented to us that we 
can actually know what is going on the better, and as long as 
we can be led to believe whatever suits the purposes of those 
who are carrying this out then fine, just ignore us or lie to 
us or use us in whatever way you possibly can get away with. I 
find it just abhorrent.
    I would like to ask General Myers one question regarding 
the transition that is described here, the political 
transition. What is the military equivalent of that? We have 
had our troops over there. We have seen the first evidence of 
the Iraqi security forces, how they have responded and failed 
to respond, and I gather it is a mixed situation over there in 
the last couple weeks.
    What is the Iraq military transition for our Armed Forces 
getting out with a victory, the victory that we all want 
secured, the freedom we all want secured?
    General Myers. Senator Dayton, what we are going to be 
doing simultaneous to that--and if you go back, I think the 
chart goes to--well, we can see; we can look at April there. We 
will stand up shortly this new Multinational Force Iraq, that's 
what it is going to be called. We are going to have an 
overall--the coalition commander will be U.S. It will be 
General Sanchez that will be overall responsible for security 
in Iraq.
    Below him he will have a couple of significant offices. One 
will be the tactical commander, that is Lieutenant General Tom 
Metz. He and Sanchez are working side by side right now, and 
General Metz will take the tactical situation. Then we talked 
about General Petraeus coming over to work the office of I 
think security transition we call it now--I think that is 
right--which will work the equipping and training of the Iraqi 
security forces, police on through border patrol--important 
functions.
    Throughout that organization will be woven Iraqis who will 
be part of the police and the new Iraqi army and all those 
other Iraqi security force entities, will be woven in that. It 
is envisioned that this commander of the Multinational Force 
Iraq will be very close to our chief of mission over there, 
that they will be a team that will work those issues that they 
are going to have to work together, because there is going to 
have to be a lot of collaboration, as there is in Afghanistan 
with our Ambassador Khalilzad and General Barnow. They have 
offices that are essentially feet apart, 20, 30 feet apart.
    Senator Dayton. General, excuse me, but my time is limited 
here. Sir, we are given here the political transition through 
2006. This is the Armed Services Committee. I would like to 
know, what is the military transition through 2004, 2005, 2006 
as it affects American forces, because, as Senator Collins and 
others have said, we have a lot of people back in my State of 
Minnesota who want to know when their men and women are coming 
home.
    General Myers. Right, and I was going to get to that. I was 
talking about the command and control structure, which is very, 
very important to our military transition, and if we do not do 
that right we are not going to----
    Senator Dayton. All right, I accept that. I apologize.
    General Myers. No, I was too long, I guess.
    Our forces will continue. We are looking at the next 
rotation of forces and the rotation after that and, as we have 
done between the first rotation and the one we are currently 
in, trying to stretch this out so it does not all occur in one 
lump of time. We are looking at those forces that will support 
it out into the future, certainly as far as that chart goes.
    Obviously, we do not have perfect clarity on the forces 
that are going to be needed in 2005 and 2006. So we are 
planning for that. We are basing that on estimates that we get 
from General Abizaid, and as we get closer and closer that will 
be further and further refined. But we are planning for a 
presence there to help with security throughout that period.
    Senator Dayton. Mr. Chairman, my time has expired. But I 
would ask that, either in the closed session or subsequently, 
we get some statistical representation of what that transition 
is going to look like, please.
    General Myers. We would have to do it in closed session.
    Senator Dayton. All right. Thank you.
    Senator Sessions [presiding]. Thank you, Senator Dayton.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    I want to thank all three of you for sitting through quite 
a long session. These are very, very important times and 
important questions to have answered.
    I believe very strongly that the only way that we lose in 
Iraq, Afghanistan, really this whole global war on terrorism, 
but especially right now in Iraq, is if we lose the support of 
the American people, if it is a political loss, if the American 
people somehow are not behind the President, behind Congress, 
in support of what is going on over there. The reason I say 
that at the beginning is because the politics of what is 
happening here in the United States affects the support of the 
American people, and there are comments that have been made, as 
a matter of fact--and I want to get your sense of the political 
comments that are made here, how it affects the military 
operation and the morale of the terrorists and the insurgents 
over in Iraq.
    Recently, I think Senator Kennedy even said that ``Iraq is 
George Bush's Vietnam.'' Two days later, al-Sadr declared that, 
``Iraq will be another Vietnam for America and its occupiers.'' 
Iran's Islamic Revolution Guard Corps Press Office warned ``A 
fate more horrifying than Vietnam awaits America in the morass 
of Iraq.''
    With those kinds of statements following the statements 
made in the United States, I believe in free speech as strongly 
as anybody, but I also believe that there is responsibility 
with free speech, especially when we are in critical times.
    How does that affect what is going in with our military and 
the whole military strategy in Iraq?
    Secretary Wolfowitz. Senator Ensign, I guess the way I 
would answer--and I am actually glad I have an opportunity to 
comment on a couple things Senator Dayton said--we simply 
cannot allow the enemy to deny us the right to hold free 
debate. Our men and women out there in the front lines are 
fighting so that we can have a free country and a country where 
we debate freely, and I think everybody in that debate has to 
think about what their proper role is.
    But what I have said, I said it clearly in my testimony, I 
applaud what Senator Lieberman said. I think it is very 
important that we do what we can to send a message to the enemy 
that, do not confuse American debate for American weakness. I 
think that is critical.
    Senator Dayton, the reason I talked about the nature of the 
Saddam Hussein regime is because that is still the enemy. We 
are still fighting them. They are still threatening Iraqis in a 
way that is part of our challenge. It is not getting into old 
debates.
    As far as I know, everyone was working off the same 
intelligence. I think it was Senator Rockefeller actually who 
characterized the threat as imminent, which is not a 
characterization I would have used. I do not think anyone is, 
to use your words, lying or deliberately misrepresenting. I 
think we are trying our best. Sometimes we do it publicly and 
sometimes we do it in classified sessions. I think on virtually 
a weekly basis we have had classified briefings to this 
committee or to the full Senate on the nature of the operations 
in Iraq.
    There is no question that part of the battle there is an 
information warfare battle. When those people took those four 
American bodies and burned them and strung them up, they had 
Somalia on their minds, I am sure. They probably told each 
other, ``This is Mogadishu all over again.''
    But I think we are winning, as that letter from Zarqawi 
makes clear. We are not leaving. He knows we are not leaving. 
It is suffocation for him. Some of what we are seeing--I do not 
mean to diminish it. We are all very concerned about the level 
of sophistication of the Fallujah-based attacks.
    Let me--Senator Dayton, if you think we have not been 
talking about the character of the military operation, let me 
just say I think we have been. We are trying to say Sadr is a 
very different kind of problem, both militarily and 
politically. He is a marginal figure with not very capable 
forces. In the Sunni heartland we are dealing with a different 
problem where politically we are not comfortable with our 
position vis a vis the Sunnis and where militarily we are now 
facing an enemy that at least stands and fights in squad and 
occasionally company-sized units.
    But I think that the end result of this action is going to 
be to set them back further.
    Senator Ensign. Mr. Secretary, if I just may interrupt very 
quickly because I do not have a lot of time. I want to get to 
another question.
    Secretary Wolfowitz. Sorry.
    Senator Ensign. I appreciate the free debate that we have 
in this society and I think it is very important that we have 
that free debate. I just think that it needs to be emphasized 
that there is responsibility with that debate. Part of that, as 
you said, is that when we are debating to emphasize once again 
that that does not mean that we are going to back down from 
what is going on.
    We do not want to have what happened in Spain, where 
terrorist attacks decide what happens internally within the 
United States. We are free and independent. We debate, but when 
we go overseas we are united in our purpose to defeat 
terrorism.
    Now, a question on the oil----
    Chairman Warner. Senator, we have to make it pretty brief.
    Senator Ensign. Okay, this is going to be a very brief 
question and maybe I can get it in writing. Two quick questions 
and I will take the responses back in writing.
    One is on the Oil for Food program that we had and the 
corruption involved with the Oil for Food program. It has to do 
with countries that were involved at the U.N. Security Council 
level with the Oil for Food program and the corruption that was 
involved. Could we have at any time, in your opinion, ever 
gotten their support? I mean, there is this talk of more 
internationalizing the efforts in Iraq. Could we have--was 
there any way to get their support?
    The second question has to do with the drug problem that we 
have going on in Afghanistan. I asked this, it was in a 
classified session but it was not a classified question, I 
asked this last year on the drug problem and the support of 
terrorism. Last year there was not a lot of import put into 
this, and I thought at the time that it was one of the biggest 
problems that we had in Afghanistan and in other parts of the 
world, in supplying the money to the terrorists.
    At that time, as a matter of fact, there was not a lot of 
import put on the question. So I would like the response--
whether it is in a classified response I am not sure. But the 
bottom line is how much money is from the drugs and also what 
is our strategy for agressively dealing with that.
    Thanks, Mr. Chairman.
    Secretary Wolfowitz. Can we reply for the record, but if I 
could make a quick comment on this?
    [The information referred to follows:]

    [Deleted.]
    The Department of Defense (DOD) is serious about addressing the 
narcotics problem in Afghanistan. The growing narcotics trade is 
endangering the U.S. and coalition success in Afghanistan and 
corrupting the governmental institutions we are trying to build. We are 
addressing the problem in two areas. First, we are working with U.S. 
Central Command, the Combined Forces Command-Afghanistan and U.S. 
Embassy Kabul to quickly review and improve our strategy. 
Counternarcotics is a major piece of our overall strategy for 
Afghanistan. Second, we are participating in an NSC-chaired interagency 
working group to improve the implementation of an integrated U.S. 
counternarcotics strategy. In both areas, we are working closely with 
the U.K., which is the lead nation for the counternarcotics effort. DOD 
representatives communicate with U.K. representatives on a daily basis 
in Afghanistan and on a weekly basis here in Washington.
    Secretary Rumsfeld was in Afghanistan on August 10 and his 
discussions with Afghan, U.S. and U.K. representatives focused on the 
narcotics problem. Deputy Assistant Secretary of Defense for 
Counternarcotics Mary Beth Long was in Afghanistan earlier developing 
the details of the problem with the Afghan Minister of Interior and his 
police chiefs; the U.S. Central Command staff in Qatar; the Commander, 
Combined Force Commander-Afghanistan (CFC-A) and U.S. Embassy Kabul.
    But we are not just talking. Thanks to your support for the $73 
million supplemental funds last year, DOD is:

        <bullet> Assisting the Afghan National Police, Highway Police 
        and Border Police with personal and communications equipment 
        and refurbishing 14 provincial police stations.
        <bullet> Providing tactical and narcotics related training and 
        equipment to the U.S. Drug Enforcement Administration and 
        Afghan Counternarcotics Police to establish an urban 
        interdiction force.
        <bullet> Providing a mix of 4-6 refurbished and leased MI-17 
        helicopters to the Afghan Minister of Interior for police 
        interdiction operations.
        <bullet> Developing an Afghan narcotics information fusion 
        center for the police, to include equipment and training.
        <bullet> Refurbishing and constructing the Spin Boldak border 
        crossing point on the Afghan-Pakistan border, a major smuggling 
        route.
        <bullet> Developing an Afghan Minister of Interior public 
        outreach program to communicate a government message in support 
        of counternarcotics activities.

    U.S. forces have instructions to seize and destroy narcotics and 
related material during the course of normal military operations, when 
the situation permits. U.S. forces occasionally come across refined 
narcotics and take appropriate action, in accordance with guidance 
issued by the U.S. Central Command.
    As we work with the U.K. to implement the above near-term 
initiatives, we will also focus attention on the long-term approach. To 
that end, it would help if Congress would reconsider the Department's 
request to expand the coverage of the Fiscal Year 2005 Defense 
Appropriation Act authority to train and equip Afghan military forces 
to include Afghan police forces, as well as the Army. Although we have 
this authority in our counternarcotics program, that program does not 
have sufficient funds to undertake a large security force training 
program.

    Chairman Warner. It is a very important question and I 
associate myself with that question.
    Secretary Wolfowitz. Then go to Mr. Grossman on the second 
one.
    On the first one, just very quickly. I think the notion 
that--I cannot predict what France might have done if we had 
waited 6 months or 12 months or 18 months. But the notion that 
we would not lose anybody by waiting is wrong or at least not 
knowable. I think if we had had this May 12 bombing in Riyadh 
not after the liberation of Iraq and after we were able to tell 
the Saudis we were going to finally take our Air Force out of 
Saudi Arabia after 12 years of bombing Iraq out of Saudi 
Arabia, we might have had very different results.
    We had some people who were with us in critical ways in 
that war who could have been shaken by any number of events. So 
the notion that if we had simply waited we would have had more 
people I think fails on both counts.
    Ambassador Grossman might say something on the 
counternarcotics.
    Mr. Grossman. If I might just very quickly, first of all I 
would be glad to try to answer the question in specifics on the 
numbers because I think it is very important. But I think you 
make an extremely important point, Senator, which is that drugs 
fuel terrorism. I have testified in this committee on a number 
of times about what we are doing in Colombia. Two years ago we 
started to call people what they are, which is narcoterrorists. 
There is not a separation there. Around the world, as you say, 
particularly in Colombia, but I think in Afghanistan, we will 
find there is this connection. I would be glad to answer the 
question, but it is something we take very seriously. They are 
narcoterrorists and we ought to call them that.
    Senator Ensign. Just real quickly, Mr. Chairman, the reason 
I brought that up as a question is because my question last 
year is, why are we not going all out with the military 
against, for instance, in Afghanistan. We are more limited in 
what we can do in Colombia, but we are not limited in what we 
can do in Afghanistan on these poppy fields. Obviously we are 
limited in what we can do in Pakistan. But once again, 
Afghanistan is someplace where we have our military there to 
affect a great deal of the drug trade, and I just did not see a 
huge effort going toward that.
    Chairman Warner. That question needs to be answered. Now, I 
am going to have to ask you to do it for the record----
    Secretary Wolfowitz. We will do it for the record.
    Chairman Warner. --because we have colleagues here.
    Secretary Wolfowitz. We are increasing our effort, is the 
short answer.
    [The information referred to follows:]

    Although the narcotics economy has plagued Afghanistan for nearly a 
century, it grew significantly after Soviet withdrawal in 1989 and 
continued apace throughout the 1990s, as provincial, warlord-dominated 
governance prevailed in a country without. any strong, central 
governing authority. Since the fall of the Taliban, even though general 
political and economic circumstances are stabilizing, impoverished 
Afghans continue to produce and trade all forms of opiate products. The 
country's weak security environment and limited enforcement 
capabilities have also allowed narcotics production and trade to 
continue. In 2003, Afghanistan produced three-quarters of the world's 
illicit opium, approaching historically high production levels.
    We do not know to what extent al Qaeda profits from the drug trade 
in Afghanistan. We have anecdotal reports of drug trafficking by 
elements aligned with al Qaeda, but there is no evidence that such 
activities are centrally directed. We remain concerned, however, about 
the possibility that substantial drug profits might flow to al Qaeda 
and continue to be vigilant. for signs that this is occurring.
    The involvement of anti-government Afghan extremists in the drug 
trade is clearer. In 2002, U.S. troops raided a heroin lab in Nangarhar 
Province linked to the Hizb-I Islami Gulbuddin and officials from the 
United Nations and the Government of Afghanistan (GOA) report that the 
Taliban earn money from the heroin trade. Based on the information 
available, however, we can neither quantify how much these groups earn 
from the drug trade nor can we determine what percentage of their 
overall funding comes from drugs.
    In addition, extremists and terrorists in Afghanistan may sometimes 
turn to the same network of professional smugglers used by drug 
traffickers to move personnel, material, and money.
    Along with the international community, we have been working 
closely with President Hamid Karzai and the GOA to create permanent 
interdiction institutions and strengthen criminal law enforcement. 
President Karzai has declared a ``jihad'' against the narcotics 
economy--focused on growers, refiners, and traffickers--stating that 
``Narcotics is one of the things which threatens our dignity, our 
economy, our agriculture. It threatens our government and our roots--
and it is against our religion. . . This is a widespread jihad which 
covers the entire country.'' Our recent successes include a tripartite 
counternarcotics campaign that integrates law enforcement, poppy 
eradication, and alternative economic development as a substitute for 
drug cultivation. We are also working with the GOA to establish a 
national eradication force that effectively targets the drug industry 
and its links with extremist groups. 

    Chairman Warner. I cannot overemphasize the importance of 
that question, because I asked it when I was in Afghanistan 
just weeks ago.
    Senator Akaka.
    Senator Akaka. Mr. Chairman, thank you very much.
    Secretary Wolfowitz--and General Myers, if you would add to 
this question--I would like to ask some questions about our 
forces, our force requirements and force deployment tempos. One 
of the things that DOD has been looking at for the last few 
years is whether we can reduce the burden on our forces by 
decreasing our participation in some longstanding operations. 
Obviously, our actions in Iraq have really eliminated the need 
for Operations Southern and Northern Watch, and we have drawn 
down on our participation in the Balkans.
    My question is are there other longstanding operations that 
we are looking to cut back on? If so, which are they?
    Secretary Wolfowitz. Senator Akaka, we are looking 
carefully at our entire global footprint, as we call it, to 
make sure that, particularly given the stresses on our forces 
and what it costs to deploy them, that we do not just 
mechanically proceed with the force posture that we inherited 
at the end of the Cold War.
    I remember when I was in the Pentagon the last time, 
leaving in 1993, that we had 100,000 troops in Europe and 
100,000 in the Asia-Pacific region and it seemed like that was 
a reasonable position to start from post-Cold War, but that I 
thought over the next 10 years we would probably reduce some, 
especially in Europe. To the contrary, we found our troop 
levels in Europe going up.
    Some of that does not make sense. I think it can be 
adjusted. The world has changed enormously. At the same time, 
we have no intention of abandoning our fundamental commitments.
    I give you one more example. Korea is a case where, one of 
the most important security commitments that we have, to the 
security of South Korea. At the same time, we have looked very 
closely. We are convinced that we can do what we need to do in 
many ways, redeploying our forces, investing more in them so 
they are more capable, and ultimately making some adjustments 
in the numbers. So the commitment remains, but how you fulfil 
the commitment changes depending on the threat and the 
circumstances and what your forces can do.
    General Myers. Senator Akaka, I would only add to that 
that, besides the Balkans and the areas that Secretary 
Wolfowitz mentioned, one of the reasons we are such an 
effective Armed Forces is that we exercise very rigorously, and 
that is one of the areas that we have actually cut back on 
during these times because of the tempo on our forces.
    Secretary Wolfowitz. Could I? Remembering that you are from 
the State of Hawaii, I think it is an opportunity to stress, my 
own view is that one area of the world where there is a lot 
that can go wrong if the United States disengages is this huge 
vast area, the Asia-Pacific region, where we have some of the 
most rapidly growing, biggest, potentially most powerful 
countries in the world.
    I think as we adjust our footprint, I just really want to 
make it clear, particularly in the Asia-Pacific region, we are 
very mindful of the fact that American engagement in that 
region is a key element of stability and we do not intend to 
abandon it.
    Senator Akaka. General Myers, General Pace last week said 
that he has evaluated force requirements for continued 
operations in Iraq for years out into the future and that we 
can maintain planned force levels, and I quote him, ``for as 
long as we need to.'' I am reassured by his comments, of 
course, but have a few follow-up questions about our ongoing 
commitments.
    One of the questions: How long do you expect that we will 
continue to need a force of 135,000 in Iraq?
    General Myers. That is--I am sorry.
    Senator Akaka. I know that your position is that we can 
sustain this force level indefinitely, but I am wondering about 
what this does to the deployment tempo of our forces, both 
active and Reserve. Can you tell us how often a given active or 
Reserve member, say an infantryman for example, would expect to 
be deployed versus how long they would be at home under various 
scenarios? Likewise, besides the infantryman, a helicopter 
pilot or a logistician?
    Another question is what do you expect the Reserve 
component participation to be in Operation Iraqi Freedom 3 and 
4 if we continue at the current level, force levels?
    My last question is, what expectations do you have about 
force requirements in Afghanistan?
    General Myers. Thank you, Senator Akaka. We talked about 
Senator Dayton's question about how long we predicted, that we 
planned for. As you said, we cannot determine exactly what the 
requirements are going to be. They will be driven by events on 
the ground. Lots of factors to go into that. We listen to 
General Abizaid and General Sanchez currently on their 
predictions.
    For planning purposes, like most reasonable people I think, 
we tend to be very, very conservative in our estimates. We are 
not--we do not put a very optimistic face on it. We say, okay, 
if we are needed what is the maximum number of forces that 
might be required. Then we try to source for that. That is the 
process we are in right now.
    To your question about how often, for active duty we hope 
that those forces that are deployed will have at least a year 
back home before we would have to use them again. That is for 
active duty.
    For Reserves, we call them up for a maximum of 2 years. 
Most Reserve Forces--some will serve 2 years, as we talked 
about with Senator Collins, or even over that in a fairly short 
period of time. But for the most part, the majority of our 
forces, Reserve Forces, will serve up to 2 years. They will not 
all serve 2 years. Some will be released earlier. It depends on 
how long it takes to mobilize them and demobilize them, and 
that is almost unit-specific and mission-specific to that unit.
    Again, we would hope they would be mobilized for 2 years 
and then our rule of thumb is--and it is just a rule of thumb--
is that we would not mobilize them except once out of every 6 
years, would be our approximate estimate.
    The force requirements in Afghanistan. Again, the situation 
in Afghanistan I think is actually pretty good. We have a major 
NATO commitment in there. NATO wants to expand its role in 
Afghanistan. Good coalition partners. We have about 13,000 U.S. 
forces there right now. We bumped them up just recently because 
of the upcoming elections and the fact that this is the time of 
year when we generally see an increase in incidents by the 
Taliban or former al Qaeda and we have to be ready to thwart 
that.
    We have actually changed our tactics in Afghanistan. We are 
very active in those areas in south and southeast Afghanistan. 
Every day of the week basically we have soldiers out there 
humping their packs and walking the ground to make sure that 
that threat is subdued and does not emerge.
    Now, everything I have said are rules of thumb. There is 
nothing in concrete about any of those, because the overriding 
issue is, just for the same reason that we extended forces in 
Afghanistan--or in Iraq here recently, was that the mission 
will dictate what we have to do. We have to keep coming back to 
this, I think in my mind. This is a very serious threat. It is 
a threat to our way of life and the things that we stand for.
    It is this generation of members of the Armed Forces that 
are going to play a major role, not the only role certainly, 
but a major role in combatting that threat. I will give you a 
couple of examples. I was flying on a 130 to Mosul last 
Thursday night and the navigator was a Reserve lieutenant 
colonel. He had been promoted to colonel, but refused to put on 
the rank because if he did they would send him home. He says: 
Nope, I want to serve.
    When I got to Mosul, I am in the hospital in Mosul. 
Unfortunately, there had been a mortar attack. Three 
individuals were injured. I went in the hospital, I met a 
doctor. He is going to celebrate his 40th year in the Armed 
Forces here this month. He was a brigadier general and they 
needed his skills in Iraq, but they said: You cannot go as a 
brigadier general. He said: Okay, I will take that rank off; 
what do you want to make me? They said: We will make you a 
colonel. He is over there serving.
    We will have our rules. We will try to provide 
predictability. We are as aware and as concerned as anybody 
about taking care of this force properly. They are working 
hard, but the threat, the threat requires it.
    Chairman Warner. Thank you very much, Senator, General.
    Senator Akaka. Thank you for your responses.
    Thank you, Mr. Chairman.
    Chairman Warner. That is very interesting.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you. Your stamina has been exhibited here 
today at great length and we appreciate that.
    Let me begin, Mr. Chairman, by saying I agree with 
something that our colleague Senator Lieberman said when he 
indicated that we are all committed to success. The stakes on 
the up side are significant, the risks on the down side are 
significant. There is no substitute for success. I agree with 
what he had to say there.
    Secretary Wolfowitz, I agreed with two things that you said 
in your opening statement: first, your commendation of our 
military men and women for their heroism and their idealism. I 
found the letter of that young Marine you read to be quite 
moving.
    Second, with regard to the--well, let me move on. I agreed 
with what you said with regard to that. Oh, I know what it was. 
The second thing, with regard to the historic magnitude of the 
malevolence and the evil of the former regime in Iraq. I do not 
think that there can be any serious debate about that. It is a 
good thing that Saddam is gone.
    Saying that, there are some growing concerns about the 
efficacy of the political transition and whether some of the 
problems that we may be experiencing there are imperiling all 
the good that we hope to do for both the Iraqi people and the 
cause of freedom in the world and ultimately for our own 
security.
    So with that in mind, after 3\1/2\ hours of listening, I 
have two questions. First, how do we define, how do you define, 
sovereignty, the sovereignty that we will be conveying to this 
new interim entity, particularly when it does not come, as it 
cannot come under current circumstances, with responsibility 
for security? Most importantly, how does the truncated 
sovereignty that we are transferring create--and here is the 
point I want to emphasize--legitimacy in the eyes of the Iraqi 
people? Because ultimately it is not sovereignty that we hope 
to transfer, it is legitimacy that we hope to create, because 
it is only legitimacy that will ultimately enlist the Iraqi 
people in the cause of establishing their own freedom and their 
own independence.
    So I am somewhat concerned that we are elevating 
expectations that may be somewhat disappointed, that could lead 
to disillusionment and ultimately to opposition.
    If I could just conclude by saying, with regard to my first 
question, in some ways we may be trying to have it both ways. 
We are saying we are transferring sovereignty. That is 
significant, that is big. But at the same time we are saying, 
well now, we have to understand the real mission of this 
interim entity is really quite limited; it is to set the stage 
for elections, which are in fact interim elections, held at the 
end of this year, and the real elections will not be held for a 
year after that.
    So how does this sovereignty that we are transferring lead 
to legitimacy, which at the end of the day is critically 
important to our success?
    Secretary Wolfowitz. Senator Bayh, if I could compliment 
you, not only for your stamina, but for a terrific question. It 
does not have a simple answer. I think there is a basic tension 
here, which is you need to set people's sights not at the 
ceiling, but above the floor. I would go back to some comments 
I made too, that there are a lot of countries in Eastern Europe 
now that are properly described as democracies, but they still 
have a long way to go even to get as far as we have gotten, and 
we are not perfect.
    So when we use those words about Iraq, we use them with 
some recognition of how challenging it will be. But at the same 
time, I think we need to go in a step by step way that does not 
just stop at, well, anything, anything that is not the old 
regime is good enough for us. I do not think that can be the 
standard.
    Now, I will add one more problem to the questions that you 
put on the table about this interim authority, and I have 
mentioned it earlier. That is, in addition to the questions you 
asked, we have a real challenge I think particularly with the 
Sunni Arabs, in getting them convinced that they have a real 
role in the future of Iraq. They have to understand that role 
is not the old role. If they think that they ran Iraq--and I am 
not sure they really do; I think they know Saddam Hussein ran 
Iraq. But if they think it is still winner take all and they 
would like to be the winners and take all, that is not the 
story. But it cannot be winner take all either that the Shia, 
just because they are a majority, are going to run the 
government in Baghdad and everyone else is going to have to do 
what they say, the way they did in the old days.
    I think a significant part of the answer to that comes out 
of our own constitutional--constitution, our political process. 
That is to say, more local control, more decentralization. It 
is a country that has been centralized, unfortunately, for a 
lot longer than just Saddam Hussein. The more people believe 
that they can run their own affairs, I think the more they will 
accept the overall situation.
    This government that will come in on July 1, part of its 
effect is going to be based on its being purely temporary. It 
is not going to be broadly legitimate and Iraqis are going to 
stand up and cheer and say, this is my government. Hopefully we 
will get a little bit of bounce from that. But most 
importantly--and they will run ministries, they will run the 
police force, in coordination with CENTCOM because this is not 
a normal police situation.
    But most importantly, they will be setting up elections. As 
you remember, we were in this uncomfortable position for the 
United States of having to argue last fall against elections 
because it was not timely. Well, it is going to be timely. I 
mentioned in my testimony we have seen some local elections in 
southern Iraq that apparently worked.
    Senator Bayh. Would you forgive me for interrupting.
    Secretary Wolfowitz. Sure.
    Senator Bayh. I do not mean to interrupt, but I do have the 
one other question and I am about to run out of time.
    Secretary Wolfowitz. Go ahead.
    Senator Bayh. Basically, the legitimacy ultimately that we 
seek will more than likely--we have a greater chance of 
achieving that in either the interim elections or the ultimate 
elections than this sort of interim----
    Secretary Wolfowitz. It is a step by step and it will grow 
over time.
    Senator Bayh. I am concerned that we may have elevated 
expectations either within our own country or perhaps there, 
and disappointment is not a helpful thing.
    Secretary Wolfowitz. If you can help us calibrate 
expectations, that is a good thing.
    Senator Bayh. My second question is somewhat related, and 
it has to do with the degree of popular support for our role 
and what we are trying to do. I am interested in your concern 
about the potential for Iraqi nationalism to at some point 
trump their gratitude for the liberation and their hopes for 
the future, because as long as we are only fighting the 
remnants of a despised despot we will ultimately win. As long 
as we are fighting outsiders who are there and no friends of 
the Iraqi people, we will ultimately win. But if at some point 
this morphs into, as I understand it did to the British in 1920 
in some respect, a broader sense of Iraqi nationalism and we 
are on the wrong side of that, then the task becomes much, much 
more difficult.
    So I am particularly--we heard the polls cited and those 
are obviously important. So I am interested in your concern 
about that, what if anything we can do to keep that from 
happening, and some disconnect between the polls and what we 
read in the popular press in our own country. I would just cite 
as one example the Washington Post story of Sunday where it 
says:
    ``The crisis has stirred support for the insurgents across 
both Sunni and Shiite communities, has also inflamed tensions 
between Arabs and Kurds. `The Fallujah problem and the Sadr 
problem are having a wider impact than we expected,' a senior 
U.S. official involved in Iraq policy said. The effect has been 
profound. The insurgency appears to be generating''--this is 
not a quote now, just from the story. ``The insurgency appears 
to be generating new alliances and tensions among the major 
sectarian and ethnic groups in Iraq.''
    Just two final things: ``The crises have helped boost the 
standing of more radical Shiite and Sunni political leaders.'' 
Finally and perhaps most disturbingly: ``The extent of popular 
support for the resistance is unclear. In nationwide surveys 
taken before the sieges of Fallujah and Najaf, a growing 
percentage of Iraqis said that they saw the U.S. forces as 
occupiers, not liberators.''
    I am concerned that at some point this may tragically morph 
into the bad guys being aligned with Iraqi nationalism, and 
what can we do to keep that from happening? Is it your sense 
that that is in fact a real danger we are confronting, as at 
least this anecdotal information or at least some of the 
reports in our press suggest that it may be?
    Secretary Wolfowitz. Even though I think some of that 
anecdotal information is overstated--and it is amazing how 
quickly people 8,000 miles away will conclude after 2 days 
about some trend in Iraq--nevertheless, that basic concern is 
very real. It has been something that has concerned me, 
concerned General Abizaid, concerned everybody who is dealing 
with this issue from day one.
    What General Abizaid calls ``consent,'' which we had on a 
large national scale on April 9 of last year, starts to slowly 
slip away. How long you hang onto it, no one knows. But because 
you know you do not hang onto it forever, it means it is very 
important to accelerate the governance process. That is why I 
believe it was the absolutely right thing to bring about this 
transfer of sovereignty. If anything, I would have preferred to 
see it even earlier.
    Second, it is why it is so important to do things like 
restoring electricity. It is not only jobs for people but it is 
the sense that the Americans really meant what they said, 
because the enemy propaganda out there, just so you know, is: 
The Americans are going to leave; we are coming back; they just 
came here to steal your oil and be gone. If the electricity 
does not work, it sort of plays into that conspiracy theory.
    There are two specific phenomena in the recent troubles 
that are troubling and are referred to in those anecdotes. One 
is with respect to the Sunni community, where we have troubles 
to begin with. The impression created that we are creating 
wholesale civilian casualties is terribly damaging, and the 
lies transmitted on Al-Jazeera--and I use that word 
deliberately. It is not a matter of how you balance the news or 
which things you choose to cover. They absolutely make up 
stories about American use of cluster bombs, American torture, 
absolutely fabricated out of whole cloth.
    Those lies, combined with the unfortunate truth that there 
are civilian casualties in a fight like this, is one of our 
challenges and one of the reasons for working with the 
Governing Council in trying to find a solution in Fallujah that 
at least minimizes the violence, even if we cannot avoid it 
completely, is critical to that community.
    With the Shia, I think it is a different story. Whatever 
that allusion was that the radicals are getting more traction, 
what I actually see is that we are seeing more and more 
evidence that most Shia think this fellow Sadr, although his 
father was a hero and a martyr and that is part of his 
standing, that he is a gangster. On the other hand, they do not 
want us marching into the holy city of Najaf with foreign 
troops to take him out.
    So the restraint that we are showing I think in dealing 
with him I think is paying dividends. It is an information 
warfare battle, as the military says. It is two different 
fronts, very different fronts. I would not want to say that we 
have won it, but I think if we are careful we can come out of 
this ahead.
    Senator Bayh. Thank you, gentlemen.
    Mr. Chairman, my final just brief comment, two sentences. 
This is a very difficult situation. If the consent necessary to 
our being successful is a diminishing asset and the legitimacy 
ultimately necessary for keeping that consent from diminishing, 
but in fact increasing, does not occur until next January, in 
fact a year from next January, we need to avoid a tipping point 
at some place in there to make sure that we are ultimately 
successful and the Iraqis are, too.
    Chairman Warner. Senator, I would like to also say I 
associate myself, and earlier in this hearing my first question 
was on this question of sovereignty. The dictionary--this is 
the dictionary definition: ``supreme and independent power or 
authority in a state.'' I think we take note in this hearing of 
the concern in myself, the Senator, and perhaps others. I think 
we should start using the term ``limited sovereignty'' at this 
time, rather than kind of saying we are transferring 
sovereignty. I really feel strongly we could be raising 
expectations and problems in the future if we do not be careful 
right now.
    Senator Clinton.
    Senator Clinton. I agree with the chairman and Senator 
Bayh. I think that this is a serious issue, because it is not 
only the possibility that the definition will take on a life of 
its own, causing all kinds of unintended consequences, but that 
in fact the earlier questions that the chairman raised about 
the rules of engagement for our military and the authority that 
they have following this period of sovereignty, however one 
defines it, I think are going to be very sticky.
    Then you throw into the mix all these private contractors 
running around, heavily armed, I think it becomes even more of 
a challenge. So I believe, Mr. Secretary, you have gotten, at 
least from some of us, a concern about what this means, how it 
is going to be operationalized.
    I just have, one suggestion would be to look for some 
tangible way to demonstrate the benefits that flow from this 
interim period to individual Iraqis. You said in passing that 
one of the concerns we have to address is the efforts to 
undermine our legitimacy and our role in Iraq by not only 
making up stories about actions that never occurred under our 
military control, but also this whole idea we are there to 
steal the oil.
    When I was in Iraq, I spoke with Ambassador Bremer. I have 
raised this in other settings. I really urge the administration 
to look at ways that we could demonstrate clearly that the 
results from increased production of oil in Iraq are going to 
benefit individual Iraqis. I am not an expert on this, but back 
in the days when we opened the North Slope of Alaska for oil 
exploration the State of Alaska, in conjunction with I think 
the Federal Government, created a trust fund for the Alaskans. 
Literally checks were sent out to Alaskans, saying: This is 
your land; it is being exploited; this oil is going all over 
the world; but you are given a stake in this future.
    When I raised this with Ambassador Bremer, I said: Trust is 
in short supply. As we know, consent and trust are essential 
ingredients for success in this undertaking. We need to do 
something and we need to be in the process of doing it before 
sovereignty, however it is defined, takes over and all kinds of 
deals are cut, because I am deeply concerned about those in the 
Governing Council and those who might be on any expanded 
transitional entity, who seem to be making out quite well, and 
that will further undermine legitimacy.
    So I raise it again. I hope that something, if not that, 
can be looked at as a means of demonstrating both our 
commitment to the Iraqi people in a tangible financial way and 
also removing some of the sting of this idea that we are there 
to steal the oil.
    General Myers, as you may recall, during several hearings 
before this committee I raised the subject of medical tracking 
and surveillance of our troops. Both on February 13 and on 
February 25, 2003, I asked what efforts were being taken 
regarding medical tracking and surveillance and follow-up care. 
I also requested and received a briefing from the DOD on the 
proposed medical tracking plan for troops being deployed to 
Iraq.
    I came at this issue in large measure because of my 
concerns about the problems that many of our veterans had after 
the First Gulf War when they returned home and had a syndrome 
of undiagnosed illnesses which at first were, frankly, 
dismissed, chalked up to all kinds of personal stress-related 
issues, and then only gradually taken seriously, and then 
finally we were able to secure veterans benefits for a lot of 
those troops.
    Now, I raise this today because of the troubling treatment 
of members of the 442nd Army National Guard MP unit out of 
Orangeberg, New York. My staff and I have met with members of 
this unit and they have a very disturbing story to tell. 
Specifically, 12 of them were med-evaced out of Iraq for 
various injuries--fractured feet, problems with HMMWVs rolling 
over, all kinds of action-related injuries. But they were also 
suffering similar symptoms to those that we heard out of the 
First Gulf War: dizziness, headaches, sleeplessness, cramps, 
blood in their urine, blood in their stool.
    Yet when they went to the Army to ask for testing, they 
were given the run-around. They became concerned about possible 
exposure to radiation because of information they were given by 
Dutch personnel who were stationed near them during their time 
in Iraq. Based on some tests that the Dutch medical personnel 
did of the place they were assigned to be, including using 
radioactive detectors and other devices to test the 
environmental exposure, the Dutch said they were leaving, they 
would not stay there, and they moved their troops to another 
location.
    Several of the members of the 442nd who were medics were in 
ongoing discussions with the Dutch, who were telling them: You 
should move, too; there is all kinds of problems here. There 
were bombed-out Bradley fighting vehicles and other equipment 
that had been dragged and dumped there after the military 
actions and other kinds of issues that, at least in the minds 
of the Dutch, as it has been reported to us, caused them to 
act.
    So when these men returned home and kept trying to get 
somebody to talk to them and were not given much of an answer, 
they went to a New York newspaper. They went to the New York 
Daily News with their concerns, and that newspaper paid for 
testing and their blood was tested, being sent to Germany, 
which had some advanced equipment.
    The results came back saying that several of them had 
elevated levels of radiation exposure, and they attributed it 
to exposure to depleted uranium. Whether or not that is the 
causation I am not here to suggest. But my bottom line is that 
I think our troops deserve better.
    I have already requested another briefing on medical 
tracking, especially with respect to radiation exposure, which 
we hope to schedule soon. But I think this raises a red flag 
for me, because I had hoped that we would not make the mistakes 
we made before. I now, on further investigation, have learned 
that we have hundreds of troops sitting at Fort Dix who have 
ongoing medical complaints and ailments, and they are basically 
being given two choices: sit there--some have been sitting 
there for months, Mr. Chairman--sit there and wait to be given 
an appointment at Walter Reed or an appointment at someplace 
else; or go ahead and sign this document and leave the military 
and do not worry about it.
    Some leave. But others are saying: Wait a minute; I want to 
find out what is wrong with me; I am not going to leave; I want 
treatment.
    So, General, again I would ask that you take whatever 
action is necessary--and Mr. Secretary as well on the civilian 
side--to ensure that, first, these members of the 442nd get 
whatever going is appropriate and necessary; that we take a 
hard look at these radiation exposure numbers back; that we use 
the more advanced testing techniques that are available in 
Germany and Japan, but which our military are not currently 
using. The tests that we are using for exposure to uranium or 
radiation is not as specific as the tests that are being done 
in Europe and Japan, and that we try to make sure that the 
plans for medical surveillance, tracking, and treatment that I 
was told about are actually implemented.
    Specifically, I would appreciate a report about what is 
happening at Fort Dix. I do not know, but I am concerned by the 
story. We heard a lot of anecdotes today about how great 
everybody is feeling about their mission, and I am glad to hear 
those anecdotes. But I am increasingly hearing a lot of 
anecdotes about how poorly people are being treated when they 
return home.
    So, General, I would like a very specific report as soon as 
possible on the 442nd, on conditions at Fort Dix, what the Army 
and the rest of the services intend to do about radiation 
exposure, other kinds of environmental problems that may be 
contributing to some of these symptoms.
    General Myers. Thank you, Senator Clinton, and you are 
absolutely right. We have to do a first class job of taking 
care of our troops. We will look into the Fort Dix situation. I 
have not--I do not believe I have seen those reports, but we 
will look into that. That is very important.
    In terms of the 442nd, my understanding is we have tested 
some of their members through urine samples, which is the way I 
guess you detect things like the depleted uranium and so forth. 
We have not found anything. I will look at the differences 
between European testing, Japanese testing, and our testing.
    But you are right, we need to monitor and make sure we do 
not overlook things that could cause them problems later on. 
That is a very important part of our responsibility. So I will 
get you those two reports.
    Senator Clinton. I would look forward to that and a 
continuing effort to keep me informed about what we are doing 
on this medical testing and surveillance. I do not want to go 
through what we went through after the First Gulf War.
    Finally, Mr. Chairman, if I could, I appreciated Secretary 
Wolfowitz's response to Senator Cornyn about the many tactics 
that we should employ with respect to the war on terrorism. I 
especially appreciated what you said about education. I spoke 
this morning to the Council on Foreign Relations and urged that 
we place universal education on a much higher priority than we 
have heretofore. I will be introducing legislation to try to 
better position our own country to do just what needs to be 
done with respect to education.
    I share your concern about the madrassas. I spoke with 
President Musharraf when I was in Islamabad, and I feel 
strongly that we need a system that can leverage public support 
and private support. I also obviously am concerned about 
investing in girls' education because it is still the smartest, 
best investment with respect to promoting democracy and 
stability, and girls still face enormous obstacles.
    So I would welcome the support of the administration in my 
Education for All legislation. I would welcome the support of 
members of this committee on both sides of the aisle. Even if 
we could not be immediately successful this year, it would send 
the kind of statement that, frankly, I think we are in some 
need of sending to the rest of the world, that we are not only 
pursuing military action, not only recognizing the need for 
intelligence and law enforcement, but that education and health 
are critical components in our leadership in the war against 
terrorism and on behalf of freedom.
    Secretary Wolfowitz. Senator Clinton, I agree with you. I 
think women are one of the most important forces for progress 
and moderation in the Muslim world, for fairly obvious reasons. 
Actually, in Iraq they are a substantial majority because of 
the unfortunate killing that took place over the last couple of 
decades. They are critical allies.
    Chairman Warner. Senator Clinton, I would like very much to 
work with you on that issue of education. I share that. I will 
bring to your attention some interesting research I have done 
on the subject.
    Secretary Grossman, would you like to respond? Please do 
so.
    Mr. Grossman. I do not want to hold up the show here. But I 
hope that you might also take for the record some information I 
would like to provide to Senator Clinton on what is going on 
with women and girls, both in Iraq and in Afghanistan.
    [The information referred to follows:]
                              afghanistan
    Since overthrowing the Taliban in Afghanistan in 2001, the United 
States has implemented more than 175 projects for Afghan women aimed at 
increasing political participation, building civil society, creating 
economic opportunities, and increasing access to education and health 
care.
    Nearly 4 million Afghan children are enrolled in school. About 37 
percent of those enrolled are girls, many more than at any point in 
Afghanistan's history. Since 2001, the United States has dedicated 
$60.5 million for primary education, to construct schools, to train 
teachers, and to provide books and supplies. Nine public libraries in 
eight provinces are participating in a campaign for women's literacy.
    The United States has allocated $2.5 million for the construction 
of Women's Resource Centers in 14 provinces throughout Afghanistan, and 
is building three other provincial centers. In Kabul and nearby towns, 
the United States supports the establishment of 10 neighborhood-based 
Women's Centers. These centers will provide educational and health 
programs, job skills training, and political participation training to 
women. Through the U.S.-Afghan Women's Council, the United States is 
providing $1 million in educational training at the Centers.
    In addition, the Department of State's Bureau of Educational and 
Cultural Affairs, on behalf of the U.S.-Afghan Women's Council, will be 
awarding grants to U.S. public and private non-profit organizations 
which responded to a recent Request For Proposals to support a series 
of exchanges and training programs promoting women's political, 
educational, and economic development in Afghanistan. These programs 
will be carried out in partnership with provincial Women's Resource 
Centers in Afghanistan.
    On electoral assistance, the United States is providing $15 million 
for voter registration, and $8.86 million for elections in Afghanistan, 
including civic and voter education, focus group research, training for 
political parties, and civic activists. The United States also provided 
training in political advocacy for female delegates to the 
Constitutional Loya Jirga in December 2003.
    As media and journalism training is also important in building a 
strong civil society, the United States has provided more than $500,000 
to train female journalists and filmmakers, some of whom produced 
``Afghanistan Unveiled,'' a film documentary about abuses against women 
by the Taliban.
    We have financed healthcare programs in Afghanistan totaling more 
than $58 million, with $50 million forthcoming over the next 2 years. 
These programs include: construction of women's wings in hospitals and 
dormitories for female medical students; curriculum development for 
healthcare workers; and maternal and child health, family planning, and 
nutrition. The United States has rebuilt 140 health clinics and 
facilities, and will rebuild 400 more over the next 3 years. We have 
provided basic health services to more than 2.5 million people in 21 
provinces; 90 percent of the recipients are women and children. 
                                  iraq
    In Iraq, the United States has strongly supported Iraqi women's 
participation in the political, economic, and social reconstruction of 
their country. As in Afghanistan, our efforts are guided by the Iraqi 
women themselves. The United States has dedicated $27 million to 
projects that specifically help women and children.
    In March, Secretary Powell announced two new initiatives aimed at 
helping women in Iraq: a $10 million Women's Democracy Initiative and 
the U.S.-Iraq Women's Network. The Democracy Initiative will extend 
grants to non-governmental organizations to help Iraqi women acquire 
skills and develop practices for effective participation in public 
life. Grants will include projects on democracy education, leadership, 
political and entrepreneurship training, indigenous NGO coalition-
building, and media initiatives. The Network is a voluntary public-
private partnership to forge links between U.S. and Iraqi women's 
organizations.
    The U.S. Agency for International Development's civil society 
program for Iraq supports organizations that promote women's political 
participation, legal enforcement of women's rights, and equal access to 
public services. The program seeks to increase the ability of civil 
society organizations to educate both women and men and advocate 
effectively for women's legal, economic, and political rights.
    The United States also supports the rehabilitation and equipping of 
11 regional Women's Centers throughout Iraq. These centers offer 
education, literacy classes, job skills, education and training for 
financial independence, and access to information regarding health 
care, legal services, and women's human rights.
    We are also working with the Coalition Provisional Authority and 
Members of Congress, in cooperation with the House Iraqi Women's Caucus 
and Members of the Senate, on plans for an Iraqi women's training 
program in Washington, DC. The program would feature sessions on public 
service and advocacy, including how to be a public servant and how to 
run for office.
    As of December 2003, the United States has committed $86.8 million 
on school projects. Emphasis is placed on ensuring equal benefits for 
Iraqi women and girls. The Accelerated Learning Program, a pilot 
program established in five Iraqi cities to provide out-of-school 
children a second chance for education, has increased registration 
among schoolage children--especially girls. Regarding higher learning, 
Iraqis are participating in the Fulbright Program for the first time in 
14 years. The first group of 19 men and 6 women included 
representatives from all major ethnic and religious communities in 
Iraq.
    After years of neglect under Saddam Hussein, Iraq is beginning to 
modernize its health services. Women's opportunities in the health 
professions and maternal and child-care receive particular attention. 
Through a master training program, more than 2,000 primary healthcare 
providers are being trained to treat and prevent a range of medical 
conditions. A review of the training program has shown that doctors' 
skills have improved significantly, especially in women's healthcare. A 
grant to the Iraqi Nursing Association will facilitate the recruitment 
and training of hundreds more female nurses and will fund purchases of 
new uniforms and nurses' kits. The United States has contributed to a 
$2 million program to address emergency health needs, including the 
completion of 18 primary health centers and the training of more than 
97 midwives and 247 health promoters in Najaf and Karbala.

    Mr. Grossman. I was not quick enough after Senator Sessions 
spoke and General Myers responded, to just thank General Myers 
for noting the role of the State Department in the creation of 
the Iraqi police force. I just wanted to let Senator Sessions 
know that we are committed to this, that we are committed to 
support that mission, that our training people in Jordan, 
training we are doing in Iraq, the money that Congress has 
given us, is something we want to absolutely support, and that 
is part of our mission as well and I wanted you to know that.
    Thank you.
    Chairman Warner. Thank you.
    I say to my witnesses, do you feel there is any issue that 
we have covered today--and we have covered a great many issues 
in what I think is an excellent hearing--that you felt that you 
needed another minute to address any particular point?
    Secretary Wolfowitz. I think one thing I would like to do 
for Senator Levin is get back to him as quickly as I can, first 
on his request for information that he said he had been looking 
for for months; and what I was trying to reconstruct from 
memory about those briefings, because I want to confirm that my 
memory is accurate.
    Chairman Warner. I think you made that clear.
    Senator Levin wanted to take a minute or 2 on the record 
here.
    Senator Levin. On that issue, I appreciate your looking 
into the delay in obtaining documents that were promised long 
ago from Mr. Feith. I will put into the record now the letter 
which he wrote to me, which is now 2 months old, promising 
those documents and promising them on a rolling basis as they 
were collected, so that he did not have to collect them all 
before he sent them, but as they were collected he committed to 
send to me, through the chairman as a matter of fact and to all 
the members of the committee through the chairman, these 
documents that have not been forthcoming. So I would like that 
to be made a part of the record, and I appreciate your follow-
up on that.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. Second, just one comment. You made reference 
in terms of the briefings that were provided to the Office of 
the Vice President and the staff of the NSC and the difference 
between that briefing and the one that you received or the one 
that the CIA received. There were significant differences. It 
is not just one chart, and I think that you should want to 
clear up the record on that matter.
    There were many charts that were added for the National 
Security Council staff and for the White House. There were 
perhaps 40 differences between, in the briefings. It was not 
just one chart--the one that was highly critical of the CIA--
but many charts, including a key chart on any alleged 
relationship with Mohammed Atta and the Iraqi police at a 
meeting that was referred to as possibly taking place in 
Prague, but which the CIA is highly dubious about.
    But there was a chart on that issue, according to published 
sources. I have to rely on published sources, but I have also 
seen the charts, on that issue.
    So your statement about trying to minimize the difference 
is inaccurate. I would appreciate your comparing those 
briefings and just confirming for the record that there were 
significant differences or numerous differences between those 
two briefings, not just the one chart.
    [The information referred to follows:]

    [Deleted.]

    Senator Levin. You said that it is common for there to be 
conversations between staffs, discussions between staffs, as 
though this kind of a 20- to 30-slide briefing on intelligence 
matters by the DOD is something which was common. I would ask 
you for the record if you know of any similar intelligence 
briefing by a group inside the DOD with the Office of the Vice 
President or the staff of the NSC on intelligence matters?
    This was a very structured, perhaps 30-slide briefing, 
handled by the Feith office without the knowledge of the CIA, 
and to kind of just casually way, well, these discussions take 
place commonly, is to cast this as an occurrence which is not 
unusual. If this was a usual occurrence, I would like to know 
if there is any other example you can provide us for the record 
of formal, structured, intelligence presentation to the Office 
of the Vice President, the National Security staff, by the 
Defense Department outside of the CIA channels. This was a 
presentation about CIA intelligence to those two very high-
level offices.
    If you could present that evidence, if you have any, for 
the record that would be appreciated.
    [The information referred to follows:]

    [Deleted.]

    Senator Levin. Finally, if you would tell us for the record 
whether you were aware of the classified letter from Under 
Secretary Feith to the Senate Intelligence Committee dated 
October 27, 2003, providing answers to questions for the 
record, that was then reportedly leaked to The Weekly Standard. 
That was a very major leak and a very major document allegedly, 
because of what the Vice President said to the press on January 
9, 2004, when he said that that Top Secret-Codeword document 
allegedly reported by The Rocky Mountain News was ``your best 
source of information,'' to use the Vice President's words, on 
the relationship between Iraq and al Qaeda.
    For the record, if you would tell us whether you were aware 
then of that classified letter from Mr. Feith to the Senate 
Intelligence Committee.
    That will take care of my questions for the record, Mr. 
Chairman.
    [The information referred to follows:]

    [Deleted.]

    Chairman Warner. My quick round-up. I want to direct my 
thoughts to Secretary Grossman, and I appreciate your joining 
us today. This chart that has been displayed here, could you 
tell us the extent to which the United Nations was involved in 
formulating that, whether the Secretary General has--
understandably, Dr. Brahimi has indicated this is basically his 
format. Has the Secretary General, so to speak, associated 
himself with the accuracy of this; and the extent to which the 
Security Council has reviewed this chart and, so to speak, 
gives their blessing to it?
    Mr. Grossman. Well, Senator, the chart of course comes from 
the TAL, which was designed by the Iraqi Council. So no, that 
was not something that the U.N. was involved in.
    Chairman Warner. No, but it was adopted I think by the 
Iraqi Council.
    Mr. Grossman. By the Iraqi Council, that is correct. That 
is their job. We were there, we obviously participated in that. 
But that is their document and a good document.
    The TAL then laid out this process. Then what you had after 
the TAL was the Iraqi Governing Council and the CPA write to 
the Secretary General of the United Nations and say: We need 
help, we need help here in putting together the interim 
government, and we also need some help and some advice on 
whether it is possible to have elections, as the TAL originally 
talked about.
    Brahimi has been there, Ambassador Brahimi has been there a 
couple of times----
    Chairman Warner. Speak into your mike directly. We are 
losing some of your voice.
    Mr. Grossman. Ambassador Brahimi has been there a couple of 
times and will go back the beginning of May. As I said, Ms. 
Pirelli has been there to help on the election side. So I think 
it would be fair to say--they would have to speak for 
themselves--that everybody has essentially adopted this time 
line.
    We will have to wait and see. When Ambassador Brahimi 
reports to Kofi Annan, he will come out and say: Yes, I accept 
this----
    Chairman Warner. That is important.
    Mr. Grossman. Absolutely.
    Chairman Warner. That bridge has not been crossed yet.
    Mr. Grossman. No, sir.
    Chairman Warner. The Secretary General is reviewing this?
    Mr. Grossman. Yes, sir. Ambassador Brahimi--just a 
technicality--went to Italy after he was in Iraq, and he will 
be on his way to New York to make a report to the Secretary 
General.
    Secretary Wolfowitz. Actually, Brahimi did help to 
negotiate the TAL specifically on the point that the interim 
government does not have to be elected. As you recall, that was 
the big point of dispute between the Governing Council and 
Sistani.
    Chairman Warner. That I understood.
    Now, the Security Council, the extent to which they have 
given any views with regard to this?
    Mr. Grossman. They have not given views in regards to this 
yet, no.
    Chairman Warner. So the use of this chart today is I think 
much clearer now in my view, and I want to make that 
distinction for the record.
    Lastly, Secretary Grossman, this issue which a number of us 
raised about the use of the word ``sovereignty.'' I think I am 
not mistaken. I followed the President's press conference the 
other day very carefully. I believe he used the word 
``sovereignty'' without any qualifications. Do you have some 
concern that expectations could be raised unduly if we do not 
start using phraseology which indicates very clearly that 
limited sovereignty at this time, or something? Because I do 
not find that what we are doing is consistent with the 
dictionary definition, nor with the common acceptance of the 
term ``sovereignty'' in international law.
    Mr. Grossman. Well, you asked us to take seriously what 
this committee has said today and we certainly will. But I 
think what Paul said earlier in response to a question is 
right, which is to say that there is limited sovereignty in 
Iraq certainly on the 1st of July, and it is limited by the----
    Chairman Warner. It is limited.
    Senator Levin. Limited by what?
    Mr. Grossman. By the TAL and also by U.N. Security Council 
Resolution 1511. It seems to me--my opinion about this is 
Iraqis, near as I can tell, have a vision for where they would 
like to take their society, and they realize they cannot get to 
that vision without security, and they cannot get to security 
without the support of the coalition.
    Chairman Warner. I concur in that totally. I just think 
that in the use of the term on what is happening on the 30th we 
would be wise to employ some equivocation, or maybe not 
equivocation but some limitation on what the sovereignty is.
    Mr. Grossman. I take your point.
    Chairman Warner. Fine. Thank you.
    Senator Levin. Mr. Chairman, just on that point, on whether 
the TAL binds a sovereign government, are you saying that the 
agreement that was arrived at without a sovereign Iraqi 
government being involved is binding on a sovereign, limited or 
otherwise, Iraqi government?
    Mr. Grossman. We certainly believe that it is binding on 
the government that will take over on the 1st of July.
    Senator Levin. Can you give us the legal opinion on that? I 
think it is very important, these questions about--because it 
affects our status of forces, among other things; also the 
Iraqi group, the Survey Group, but a lot of other things. Could 
you give us the legal opinions on this issue that a number of 
us have raised, as to whether or not a sovereign government in 
Iraq is bound by the TAL, is bound by--and whether the U.N. 
resolution relative to the force that is there protects our 
force after July 1, 2003, to take whatever military action we 
determine is appropriate despite what the wishes could be of a 
sovereign government?
    [The information referred to follows, along with a response 
from the DOD:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The Law of Administration for the State of Iraq for the 
Transitional Period (TAL) is the supreme law of Iraq. The Interim Iraqi 
Government (IIG), the first phase of the transitional period, will have 
the power with respect to: making appointment of persons within the 
government; the use of the Iraqi Armed Forcs; and, concluding 
international agreements in the areas of diplomatic relations and 
economic reconstruction, including Iraq's sovereign debt. However, it 
will not be able to amend the TAL. The annex to the TAL also states 
that the IIG, as an interim government, will refrain from taking any 
actions affecting Iraq's destiny beyond the limited interim period. 
After elections are held and the Iraqi Transitional Government, the 
second phase of the transitional period, is in place, Article 3 of the 
TAL provides that ``[n]o amendment of the TAL may be made except by the 
three-fourths majority of the members of the National Assembly and the 
unanimous approval of the Presidency Council.''

    Chairman Warner. Those are the points that we have raised.
    I think we need to get the legal opinions that support 
this. For myself, I hope it is true, by the way, so I am not 
questioning whether or not, the sufficiency of the wisdom. But 
we have to be comfortable that our forces in fact have that 
kind of power and are not going to be restricted by a sovereign 
government. Otherwise they are going to be in limbo. There is 
going to be a period of great uncertainty, which our troops 
should not be confronted with.
    I would simply add, should there be some disagreement as to 
the conduct of say an individual soldier or a military person, 
what recourse could be taken against them, and how are we going 
to protect them in the performance of their duties.
    While, General, you say quite appropriately the Iraqi army 
then becomes a partner, I would hope that they would not be 
issuing any orders. I am not sure what partnership means when 
it comes to the military. I want to make certain that U.S. 
commanders and to the extent the British commanders are 
associated in that chain of command, and coalition commanders, 
that is the chain. When we introduce the Iraqi army as a 
partner, I think we need clarification of exactly what that 
would mean on the command chain.
    Secretary Wolfowitz. Mr. Chairman, we will get you that 
information. I think it is very important to have clarity, and 
I appreciate the opportunity.
    I think it is also important to be clear, this is not 
something brand new. I mean, we have a similar situation in 
Afghanistan. The government, the sovereign government in 
Bosnia, has been constrained by Dayton ever since it was 
established. I do not want to make too much comparison. These 
are different situations. But with our NATO allies and with 
Korea, there are obviously provisions in wartime that transfer 
military command to U.S. commanders.
    Chairman Warner. I just want to make certain that those 
protections are in here, because you can use those as examples. 
In the 25 years I have been here, I have worked through almost 
all of those situations. But here we have 100,000-plus 
Americans involved and it is exceedingly important, and a level 
of insurrection which is most regrettable at this point in time 
and no certainty that is going to cease and desist on June 30.
    Senator Levin. Would you include in that, please, what did 
the President mean, then, when he said the other night that we 
would be negotiating the status of forces agreement with the 
new sovereign government on July 1? What did he mean by that? 
If we already have a status of forces agreement under U.N. 
resolution and under the TAL, then what does that mean when he 
said that? If you could include that, it would be helpful.
    [The information referred to follows:]

    Article 59 of the TAL provides that Iraq's Transitional Government, 
which will assume authority no later than January 31, 2005, following 
national elections, will be authorized to conclude binding 
international agreements (which could include a SOFA regarding the 
activities of the Multinational Force (MNF) in Iraq under UNSCR 1511 
and any subsequent relevant resolutions.)
    We are currently planning to defer consideration of a negotiated 
SOFA with Iraq until the Transitional Government has been established. 
Pending entry into force of any future security agreement, the TAL 
recognizes that UNSCR 1511 and any subsequent relevant resolutions will 
govern the activities of the MNF in Iraq. Our view is that the ``all 
necessary measures'' language in UNSCR 1511 authorizes immunities from 
Iraqi jurisdiction to the extent such immunities are necessary for the 
fulfillment of the MNF's mission.

    Chairman Warner. My own view is I hope a lot of this is 
rewritten carefully not to rely on the U.N. resolution of 
October 3, 2003, that we really have a new resolution that will 
bring greater clarity to this entire situation, the status of 
forces and what degree of sovereignty Iraq will have on the 
June 30, 2004.
    Thank you very much. We will now go upstairs to room 222. 
The hearing is adjourned.
    [Additional information follwows:]

    Senator Warner. Describe the role and powers of the U.S. Ambassador 
to Iraq after June 30, 2004.
    Mr. Grossman. As Chief of Mission, the U.S. Ambassador to Iraq, 
John Negroponte, will have full responsibility for the direction, 
coordination, and supervision of all USG employees in country--except 
those under the command of the U.S. area military commander or seconded 
to an international organization. Working closely with the area 
military commander, the Ambassador will also be responsible for the 
security of the mission as well as the personnel (or whom he is 
responsible.
    The Ambassador will report to the President, through the Secretary 
of State, and be responsible for the overall coordination and 
supervision of all USG policies and activities in Iraq--apart from 
those which fall under the authority of the U.S. area military 
commander. The President has charged the Ambassador and the U.S. area 
military commander to ensure the closest cooperation and mutual 
support.
    Other responsibilities of the Ambassador will include the regular 
review of programs, personnel, and funding levels, and ensuring that 
all agencies attached to the mission do likewise. Every executive 
branch agency under ambassadorial authority must obtain the 
Ambassador's approval before changing the size, composition, or mandate 
of its staff.
    Additionally, all USG personnel (again, other than those under the 
command of the U.S. area military commander or on the staff of an 
international organization) must obtain country clearance before 
entering Iraq on official business. The ambassador may refuse country 
clearance or may place conditions or restrictions on visiting USG 
personnel as necessary.
    Finally, the ambassador must discharge all responsibilities with 
professional excellence and in full conformance with the law and the 
highest standards of ethical conduct, ensuring equal opportunity and 
tolerating no discrimination or harassment of any kind.

    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Susan Collins
                       lakhdar brahimi's proposal
    1. Senator Collins. Mr. Grossman, the United Nations (U.N.) envoy, 
Lakhdar Brahimi, proposed that the Iraqi Governing Council be dissolved 
when the United States hands over power on June 30 and be replaced with 
a caretaker government of cabinet ministers who would rule until 
elections are held. Under Brahimi's plan, the ministers, a president, 
and two vice presidents would be chosen by the U.N., in consultation 
with the U.S. occupation authority, the Governing Council, and other 
institutions. President Bush recently praised Brahimi's efforts. While 
this proposal is a fresh approach to the dilemma over Iraq's 
transition, it would effectively allow Iraqis less participation in the 
choice of the interim government than they would have had under the 
original U.S. plan to hold caucuses in each of Iraq's 18 provinces--a 
plan that was itself rejected by the country's top Shiite Muslim cleric 
for being insufficiently representative. Already, several members of 
Iraq's Governing Council have spoken out against a U.N.-appointed 
transitional government. We are only a couple of months away from the 
June 30 handover date and, currently, we still have no concrete 
transition plan. I understand the details of the Brahimi proposal are 
currently being negotiated. Can you update us on where these 
negotiations stand right now and give us an assessment of whether a 
plan is close to being finalized?
    Mr. Grossman. As we meet today, U.N. Special Envoy Lakhdar Brahimi 
has returned to Iraq to resume consultations with Iraqis and U.S. 
officials to identify candidates for key positions--prime minister, 
president, two deputy presidents, and cabinet ministers. He is working 
to form a consensus among Iraq's communities on the structure, 
composition, and authorities of the Iraqi Interim Government (IIG). The 
U.N. has assumed a leading role in achieving key near-term political 
priorities--forming the interim government and preparing for elections. 
We expect the U.N. to continue to play a vital role on political and 
economic reconstruction after June 30.
    This Iraqi Interim Government will be the internationally 
recognized, sovereign government of Iraq. Its legitimacy will derive 
both from anticipated Iraqi domestic consensus that it is the highest 
political authority in Iraq and expected international backing. The 
Iraqi Interim Government is a crucial, albeit transitional, step toward 
a representative, elected government--and its structures reflect the 
understood desire of the Iraqi people that only an elected government 
should have the power to decide the longer-term future of Iraq.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                      radioactive sources in iraq
    2. Senator Akaka. General Myers, I have a question on the security 
of radioactive sources in Iraq. This is an issue I raised with 
Secretary Rumsfeld in a hearing almost a year ago. I remain deeply 
concerned about the possibility terrorists could obtain radioactive 
material and use it to explode a dirty bomb. I received a response from 
the Defense Department in January, at which time I was told that all 
radiation sources, which total over 600, have been consolidated at a 
central location and are under continuous guard. On April 11, the 
International Atomic Energy Agency (IAEA) issued a report that states 
that ``there has been extensive removal of equipment and, in some 
instances, removal of entire buildings. Other information available to 
the Agency indicates that large quantities of scrap, some of it 
contaminated, have been transferred out of Iraq, from sites monitored 
by the IAEA.'' Could you comment on the IAEA report? Is radioactive 
material in Iraq secure or not and is some of it missing?
    General Myers. [Deleted.]

    [Whereupon, at 1:42 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
